<html>
<title> - PUBLIC INTEREST AND LOCALISM</title>
<body><pre>[Senate Hearing 108-973]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-973
 
                      PUBLIC INTEREST AND LOCALISM

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
87-067                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2003....................................     1
Statement of Senator Cantwell....................................    77
Statement of Senator Dorgan......................................     4
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     4
Statement of Senator Lautenberg..................................     6
Statement of Senator McCain......................................     1

                               Witnesses

Bozell III, L. Brent, President and Founder, Parents Television 
  Council........................................................    63
    Prepared statement...........................................    65
Copps, Hon. Michael J., Commissioner, Federal Communications 
  Commission.....................................................     7
    Prepared statement...........................................     9
Corn-Revere, Robert, Partner, Davis Wright Tremaine LLP..........    14
    Prepared statement...........................................    16
Davis, David J., President and General Manager, WPVI--Channel 6..    48
    Prepared statement...........................................    51
Faber, Barry M., Vice President and General Counsel, Sinclair 
  Broadcast Group, Inc...........................................    45
    Prepared statement...........................................    47
Kaplan, Dean Martin, Director, USC Annenberg Norman Lean Center 
  and Associate Dean, USC Annenberg School for Communication.....    57
    Prepared statement...........................................    59

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    93


                      PUBLIC INTEREST AND LOCALISM

                              ----------                              


                        WEDNESDAY, JULY 23, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today, the Committee meets to 
examine the much-debated public interest standard set forth in 
the Communications Act of 1934. For almost 70 years, academics, 
Federal Communication Commission commissioners, courts, and 
legislators have discussed the meaning of the phrase, quote, 
``public interest, convenience, and necessity,'' unquote. It's 
mentioned almost a hundred times in the Communications Act, in 
one form or another, but never defined.
    Broadcasters are the trustees of the public's airwaves, 
and, in return, the government asks, and the statute requires, 
that broadcasters serve the public interest, convenience, and 
necessity. Critics, including several recent and former FCC 
commissioners, have charged that the public interest mandate is 
vague, providing neither guidance nor constraint on the 
agency's regulatory and licensing actions.
    Currently, FCC Chairman Michael Powell has stated, quote, 
``The lack of guidance leaves those governed by the standard at 
a loss as to how to structure their conduct to be compliant.'' 
And I dare say it invites mischief by regulators and special 
interests to advance parochial interest under the guise of 
public interest.
    This Committee has spent considerable time examining and 
debating the role of ownership limitations to achieve public 
interest goals. These issues will continue to be debated. I 
want to emphasize, they will continue to be debated.
    Today's hearing is to consider whether Congress should use 
other means to achieve these goals, such as putting teeth in 
the public interest standard. We will discuss the role that 
locally originated programming should play in determining 
whether a broadcaster is serving the public interest. 
Previously, the Commission's rules included local programming 
mandates for radio and TV. These requirements were removed in 
the early 1980s, because the Commission found that during the 
short time the programming mandates were in place, commercial 
television broadcasters exceeded the mandates in every program 
category, thereby making the mandates unnecessary. Recently, 
some legislators have discussed the return of local programming 
mandates for broadcasters.
    Since 1996, the radio industry has experienced dramatic 
consolidation. Multiple witnesses before this Committee have 
bemoaned the negative effects they claim consolidation has had 
on localism. In January 2000, the FCC sought to promote the use 
of radio to provide local content by creating a new class of 
radio stations, low power FM radio services. Despite being 
supported by state and local governments, community 
organizations, musicians, religious groups, and students, low 
power FM was severely curtailed by a rider added to an 
appropriations bill late in 2000, at the behest of the powerful 
broadcast lobby. Broadcasters masqueraded their concern about 
competition from these new stations in claims that lower power 
FM could cause them interference. Late last month, an 
independent study stripped the broadcasters of this disguise by 
concluding that these stations would cause virtually no 
interference under the FCC's original rules.
    While it may be too late to turn back the clock on the 
radio consolidation that has occurred, we should take another 
look at low power FM as a means of providing the public with a 
locally oriented alternative to huge national radio networks.
    On today's second panel, we will hear from Dean Kaplan 
about the disturbing dearth of coverage of political campaigns 
by broadcasters. Next week, I'll be introducing a bill similar 
to the one I introduced in the 107th Congress that would 
establish minimum requirements for issue-centered or candidate-
centered programming by broadcasters, and would also provide 
candidates and national committees of political parties with 
vouchers that they may use for political advertisements.
    The purpose of the legislation is to increase the flow of 
political information in broadcast media, and reduce the cost 
to candidates of reaching voters. Our democracy is stronger 
when a candidate's success is achieved by ideas and not by 
dollars.
    I appreciate our witnesses for joining us today, and I look 
forward to hearing your views.
    Senator Hollings?

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman, 
particularly for this hearing, because it is necessary.
    When it comes to the public interest, let's go back to the 
sinking of the Lusitania in 1912, when I think it was Sarnoff 
who got on top of the Wanamaker Building in Philadelphia with 
his wireless, receiving the list of those who were saved. And 
they gathered around, day and night there, for three days and 
three nights.
    That immediately led to a overwhelming desire, of course, 
for wireless radio. And, by the mid-1920s, under Secretary 
Hoover, the Secretary of Commerce, Herbert Hoover, everyone had 
a wireless radio set, and everyone was--owned a set and--
operating and jamming.
    And I think that's a fundamental that ought not to be 
missed, and that is that here is an industry that came to 
government and said, ``For heaven sakes, regulate us.'' Because 
allowed market forces to do as we choose, no one can get 
through. Obviously, the airwaves belong to the public itself, 
and it was responded to by the 1934 Act.
    But it's very good to read just one section, because those 
who don't want to respond and recognize pornography--for 
example, as Potter Stewart says, ``You know it when you see 
it''--similarly, the public interest, you understand and know 
it when you see it. You know what the public interest is. We're 
all here, in this room, interested in the public interest. But 
here's what they said at the very initiation, the very 
beginning days there, of that 1934 Act. The conscience and 
judgment of a station's management are necessarily personal. 
The station, itself, must be operated as if owned by the 
public. It is as if people of a community should own a station 
and turn it over to the best man in sight, with this 
injunction, ``Manage this station in our interest.'' The 
standing of every station is determined by that conception.
    Now we had a Chairman come onboard, Mr. Michael Powell, who 
ridiculed that conception. He said he didn't know what public 
interest was. As far as he could understand or see, it was an 
empty vessel. In fact, I think it was the day after, or two 
days after, his swearing in, he remarked, at one conference, 
that he was waiting for the public interest fairy to appear, 
but she never showed up. And he just ridiculed the idea, let 
the market forces take over, let them run rampant, the heck 
with 25, 35, 45, 55 percent ownership, cross-ownership, or 
anything else. He's had the bit in his teeth to ruin a 
regulatory commission. There isn't any doubt in my mind.
    So I think it's highly important that we come together and 
understand that we are operating in the public interest. I've 
worked--I notice Mr. Markey over there said 20-some years. I've 
been on this Committee since I got in here, in 1966, almost 37 
years. And we have worked with John Pastore and all the people, 
chairmen, who have come along the line, and everything else.
    And, Mr. Chairman, it's particularly to your credit that 
you understand this and that we're having a hearing which is 
very, very necessary under the circumstances, because we're 
suffering from monopolization.
    We've got two groups. We've got that one big boy crowd. I 
understand one of them's here today, representing Disney. I 
wish I could go down and start reading the list of their 
ownership. It would take us until roll call, I can tell you 
that right now. All of them, whether it's news, AOL/Time-
Warner, Viacom, whatever. Those big boys, they want to 
monopolize the country. But there's a similar movement of 
station owners around the affiliates that they want to 
monopolize the community.
    They're saying, over on the House side, if you noticed the 
activity there yesterday, that, ``Oh, goodness gracious, let's 
cut the 45 back to 35, but don't cut the cross-ownership. No, 
no, because we'd like our little monopoly.'' So it's a sort of 
sweetheart deal they've got going on over here. And I think 
under the leadership of Senator Dorgan, we may stop it.
    Thank you.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Thank you, Mr. Chairman. Today, the Committee renews its focus on 
the media marketplace and the fundamental obligation of all broadcast 
licensees to serve the public interest. From its very beginnings, our 
system of broadcast regulation has been built around our Nation's 
collective desire to ensure that the public airwaves are used to serve, 
educate, and inform individual citizens in local communities.
    In the early days of radio, there were seemingly no limits to this 
desire, as broadcasting captured the public imagination and evolved 
from a technological novelty into a full-fledged business with mass 
audience appeal. But as radio grew, so too did interference. Thus, to 
accommodate both the needs of individual citizens to make use of 
technology and the needs of broadcasters to protect the commercial 
viability of the medium, a compromise was struck whereby government 
imposed a licensing scheme limiting the number of available licenses, 
but obligating each licensee, first and foremost, to use this privilege 
to meet the civic needs of local communities.
    Accordingly, unlike other of their corporate kindred, broadcasters 
have always existed as public fiduciaries--prohibited from owning the 
public airwaves but granted the right to use certain frequencies for 
limited periods of time so long as
    Such use serves the public interest. As the Federal radio 
commission, the precursor to today's Federal Communications Commission 
once explained this ``public trustee'' model of broadcasting:

        [t]he conscience and judgment of a station's management are 
        necessarily personal. . . . The station itself must be operated 
        as if owned by the public. . . . It is as if people of a 
        community should own a station and turn it over to the best man 
        in sight with this injunction, ``manage this station in our 
        interest.'' the standing of every station is determined by that 
        conception.

    Unfortunately, recent action taken by the FCC to give large media 
corporations even greater control over the public airwaves threatens to 
abandon this long-standing principle.
    Since the FCC's ill-fated decision on June 2, we have seen a 
torrent of citizen outrage aimed at rule changes that will let big 
media get bigger, will allow programming decisions made in New York and 
Hollywood to trump community standards, and will reduce the number of 
diverse voices available in local communities.
    As the American public continues to digest details of the FCC 
proposal, opposition to the FCC's plan appears to be growing. Indeed, 
according to a recent poll conducted by the Pew Research Center, by a 
margin of roughly 10 to 1 (70 percent to 6 percent), Americans who have 
heard about the FCC's rules changes resoundingly believe that the 
impact on our country will be negative, not positive.
    Moreover, the direction in which the FCC's decision heads is all 
the more disheartening given the telltale signs in today's media 
marketplace that consolidation is fueling a ``race-to-the-bottom'' with 
regard to broadcast programming. Parents are increasingly frustrated by 
the constant stream of lurid, inappropriate material broadcast on 
television and spewed out by radio shock jocks. Similarly, network 
programmers continue to demonstrate a careless disregard for the well-
being of children as programs increasingly rely on graphic and 
excessive violence in an attempt to boost ratings points.
    Mr. Chairman, today's hearing gives this committee an important 
opportunity to remind broadcasters that there is a difference between 
programming that serves the public interest and programming that 
attracts the most public attention. The obligation to serve the public 
interest extends to the entire public and not just the male, 18 to 30 
demographic so coveted by Madison Avenue.
    Accordingly, in light of the central role that our broadcast media 
play in keeping government and business accountable to the American 
people, in educating our children, and in supporting the values of 
deliberative democracy, I welcome our examination of current public 
interest obligations and look forward to the testimony of the witnesses 
and to their answers to our questions.

    The Chairman. Our leader.
    [Laughter.]

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I always feel horribly 
inadequate following both you and also Senator Hollings. You've 
now been on the Committee for--how many years is it? Thirty-
seven years?
    Senator Hollings. Yup.
    Senator Dorgan. IYou've now been on the Committee for 37 
years. But over those 37 years, I was reflecting, as Senator 
Hollings was speaking, both under Democrat and Republican 
Administrations, I think the American public has dis-served by 
decisions of the Federal Communications Commission, and 
especially now. We've reached kind of the apex of this 
irresponsibility. Instead of localism and public interest 
representing the timeless truths of what we have licensing for 
the airwaves to accomplish, localism and public interest are 
sort of treated as hopelessly old-fashioned virtues or values.
    The FCC is making a horrible mistake. They are producing 
rules that will further enhance concentration, this galloping 
orgy of concentration and mergers. And I may be hopelessly old-
fashioned, but I believe that when the American public owns the 
airwaves, it has a responsibility to license them with 
restrictions, and those restrictions say that part of the 
requirement to use these airwaves that belong to the American 
public is that they be used in the public interest and that 
there be localism, diversity, and competition associated with 
it. Frankly, we've gotten so far away from that, it's hard to 
describe.
    Now, there are some good things going on out there. I was 
north of Grafton, North Dakota, in a huge storm, one of the 
most aggressive storms I've ever seen. And the young man that 
runs the radio program, the news program, in Grafton, KXPO, he 
was out in his car on hilltops in the middle of that storm 
broadcasting where the tornadoes were touching down. That's 
localism at its best.
    A week ago, 2 weeks ago, at Bismarck, KFOR, exactly the 
same thing, one of the more aggressive storms I've seen. Two 
people out making their discussions with--or providing 
discussion with the public about where the storm was moving, 
what was happening, the size of the hail, the amount of wind, 
and tornado sightings. KFGO, in Fargo, with respect to the 1997 
flood, wonderful public service. All of that is localism at its 
best.
    But we've gotten so far away from that. We now have voice 
tracking, people pretending they're in a city, broadcasting, 
when, in fact, they're not. You know the description of Minot, 
at 2:00 in the morning, when the anhydrous-ammonia car goes off 
the track, explodes, and envelopes the city in a plume of 
deadly gas, and they call the radio station--nobody's home. You 
know, the same company owns six stations, all six commercial 
stations, in that city. There's so much wrong with what's going 
on. And at the root of it, I think, is that we've failed to 
discuss the genuine issues of public interest and localism. 
What should we expect, and what should be required with respect 
to broadcasting?
    We ought to bring back the fairness doctrine. Frankly, 
people think Congress got rid of that. We didn't. The FCC got 
rid of the fairness doctrine. We tried to reinstate it, and 
President Reagan vetoed the bill. But the fairness doctrine 
ought to be reinstated. The Supreme Court, in a redline case, 
said it is the right of the viewers and listeners, not the 
right of broadcasters, which is paramount.
    And, finally, we're going to have some testimony today 
about another aspect of localism that I think is very 
important, and that is local standards. And something that's 
produced in Hollywood or New York, and they say, ``You must 
carry this in your community,'' and I'd just encourage all of 
you to take a look at the dialogue in Mr. Bozell's testimony, 
which I read last night, over one of the networks that goes out 
about a plot, on one of the major networks, about a band of 
thugs trafficking in horse semen, hiring a prostitute to 
perform a sex act with a horse to extract semen from the horse, 
and then Mr. Bozell will describe the dialogue in this piece of 
trash. And the fact is, many of these local stations cannot 
refuse to carry it, because if they do, there will be financial 
consequences and they could lose their affiliation with the 
network. This is the sort of thing that I think also moves far 
away from localism.
    And I'm really--Mr. Chairman, I didn't mean to take this 
much time, but thank you for holding a hearing on this. It has 
been ignored far too long. Your attention to it is something I 
deeply appreciate. And I say the same to Senator Hollings. 
Perhaps, with this attention, we're going to make some progress 
on these issues.
    The Chairman. Thank you. We'll certainly look forward to 
Mr. Bozell's testimony.
    [Laughter.]
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    And I'm kind of pleased to join the chorus here of those 
who express the concern that we do here about localism and what 
takes place. And this hearing, Mr. Chairman, I think is 
crucial. And the public interest obligation of broadcasters 
have been clear over the years. But, as I reviewed the 
materials to prepare for this hearing, it appears equally clear 
that the obligations are not being met.
    According to recent studies, the average American now 
spends 24 minutes a day reading, over 3 hours a day listening 
to the radio, and over 4 hours a day watching television. Fewer 
than one half of all U.S. households read the daily newspaper. 
People rely on TV and radio to find out what's going on. 
Children spend a bit more time reading, 44 minutes, and that's 
because they have to do their homework. But that, too, pales in 
comparison with the 6 hours they spend each day with electronic 
media.
    So the broadcasters have our attention, and because the 
government grants them a license to use part of a public 
resource, the airwaves, they're supposed to operate as a public 
trustee. But it appears that fewer and fewer broadcasters are 
operating as a public trustee, and the FCC is giving them a 
free pass.
    We're going to hear testimony today that programming 
diversity is on the decline. We'll hear that local news is 
often being produced, as Senator Dorgan mentioned, at a remote 
location, but the local audience isn't being told that. We're 
going to hear that the number of hours of educational 
programming for children is dropping, especially at stations 
that are part of media duopolies. And we're going to hear that 
local TV coverage of public-policy issues and politics is 
becoming nonexistent at the same time that stations are taking 
in a billion dollars in potential advertising revenue.
    As dependent as we are on running these ads, I doubt that 
anyone here would suggest that they are a substitute for civic 
debate. Our democracy, as Thomas Jefferson pointed out, depends 
on a well-informed electorate. If we're going to rely on TV and 
radio to be informed, the trends that I've just mentioned are 
truly worrisome.
    And I look forward to hearing from our witnesses about 
whether and how these trends might be reversed.
    And, Mr. Chairman, before I close, I note the long service 
of my colleagues on the left here, and I'm here five, six 
months, and it's really interesting, I can tell you, what takes 
place.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Lautenberg.
    Our first witness is the Honorable Michael Copps, 
Commissioner of the Federal Communications Commission. I would 
note that we invited Republicans members, appointed members, of 
the Commission to testify today. All declined to do so.
    Welcome, Commissioner Copps, and we--I note you have a very 
long statement. I hope you'll summarize, so we'll have time for 
questions, as well as an additional panel.
    Welcome, Commissioner Copps.

    STATEMENT OF HON. MICHAEL COPPS, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Dr. Copps. I will.
    Mr. Chairman, Senator Hollings, Senator Dorgan, Senator 
Lautenberg, as always I am honored to come home to the Senate. 
I'm particularly indebted to Chairman McCain and Senator 
Hollings for holding this hearing on a subject that too often 
doesn't get the attention it deserves.
    My time is short. I don't think you've invited me here to 
deliver a history lecture or a philosophical discourse on the 
public interest, so I will just reaffirm, at the outset, the 
promise that I made to you when I first came up here and 
appeared before this Committee, that I would make the public 
interest the centerpiece of my commitment as a Commissioner.
    The public interest is important, not just because I find 
it personally appealing, and I do, but because it's the 
cornerstone of the law of the land. As you so rightly noted, 
Mr. Chairman, the term ``public interest'' appears over 100 
times in the communications law. I take Congress seriously when 
they tell me something once. When they tell me 112 times, I 
stand at attention.
    Where does the Commission go from here? If the structural 
bars to media consolidation are going to come down, we need to 
ask, ``What's left to protect the public interest?'' I have 
some suggestions. I'm going to be asking my colleagues at the 
Commission to consider the following six things.
    First, we need an effective license renewal process. As 
national conglomerates gobble up local stations, we need, more 
than ever, a process to ensure that licensees still serve the 
public interest, still serve their local communities. An honest 
to God and properly designed license renewal process would 
avoid micromanagement in favor of a comprehensive look at how a 
station has discharged its public responsibilities over the 
term of its license.
    This process should include going out and hearing from 
members of the community. That hasn't happened for years. As we 
begin the next round of license renewals for radio this fall, 
and for television in 2004, I intend to hold a series of town 
meetings in regions where renewals are due, in order to hear 
from communities how their airwaves are being used. How can we 
know if licensees are serving their local communities without 
hearing from the local community? I hope my colleagues will 
join me in this outreach effort. At a minimum, I hope that I 
will receive support, in terms of funding and staff, so that we 
can make these town meetings maximally productive.
    Second, we need what I call ``community discovery.'' I 
believe the public interest would profit immeasurably by some 
meaningful but user-friendly successor to the old ascertainment 
process. We need absentee license holders to understand the 
needs of the communities they serve. Let's get Clear Channel 
and other large station owners out among the people in the 
communities where they own stations. As media conglomerates 
grow ever bigger and control moves farther away from the local 
community, doesn't it make sense to require, as a condition of 
renewal or of new acquisitions, that the owners come to town 
and visit with their listeners and try to gauge their interest 
in what kind of programming they should be producing?
    Third, we must, at long last, move against indecency on the 
airwaves. Every day, I hear from parents who are fed up with 
the patently offensive programming coming their way so much of 
the time. I have referred in the past to a race to the bottom. 
I'm beginning to wonder if there even is a bottom.
    We need a number of public interest actions here. I will 
propose a proceeding to consider whether there is a link 
between increasing consolidation, on the one hand, and 
increasing indecency in our airwaves, on the other, and steps 
we should take to address any such problems. The Commission 
utterly failed to analyze this issue before its recent vote. 
That was an abdication of its responsibility. We voted without 
understanding how consolidation was going to affect our kids.
    The Commission also needs to do a far better job of 
enforcing the laws against indecency on our airwaves. The 
process by which the Commission enforces these laws has long 
put inordinate responsibility on the complaining listener. 
That's wrong. It's the Commission's responsibility to 
investigate complaints.
    I also believe, as I suggested in the recent WKRK-FM case, 
that we need to send some of these more outrageous 
transgressions to administrative hearing for license 
revocation. Taking some blatant offender's license away would 
let everyone know that the FCC has, at long last, gotten 
serious.
    Also on indecency, I have long suggested, without much 
success, that broadcasters voluntarily tackle the issue of 
indecent programming. I'd like to see my friends, Eddie Fritts, 
of the NAB, and Robert Sachs, of the NCTA, convene a TV summit 
to tackle the issue of protecting our kids from broadcast 
indecency. And you know what? A lot of their members agree with 
me.
    It's also time for us to step up to the plate and tackle 
the wanton violence our kids are served up every day. 
Compelling arguments have been made that excessive violence is 
every bit as profane, indecent, and obscene as anything else 
that's broadcast.
    I don't know the precise mix of legislative initiative and 
regulatory enforcement and voluntary industry action that we 
need here, but millions of Americans are asking us to get on 
the job. I'm pleased that this Committee is on the job. I hope 
your Commission will get on the job soon.
    Fourth, we need to do more to encourage minority and female 
participation in our media. I question how we can have 
viewpoint diversity without ownership diversity, yet the 
minority ownership figures are all heading in the wrong 
direction, arguably as a result of consolidation. Again, we 
should have acted before we voted.
    In any event, this has to go on the front burner right 
away. I know that Chairman McCain, all the other Members here 
today, have tremendous interest in this issue, and I commend 
them for it. We must never forget that America's strength, 
after all, is its diversity, and our media have an obligation 
to reflect that diversity and to nourish the diversity.
    Fifth, the Commission should forthwith address the issue of 
DTV public interest obligations. I see the light's on there. 
I'll just say this matter was teed up long, long ago. It's 
laying fallow at the Commission. We need to get those 
proceedings that are latent settled so that broadcasters know 
what public interest obligations are expected of them, and the 
American people know what public interest obligations those 
broadcasters will be performing.
    Sixth, and finally, I believe that we must confront the 
substantial reduction in independent programming. Now that 
we're further loosening the concentration limits horizontally, 
we should address whether there's a need for more independent 
programming to ensure that we do not end up with nationally 
vertically integrated conglomerates that control not only the 
distribution, but the content, too.
    So I present these proposals in hopes that we can build on 
the dialogue that has begun with media ownership. There are no 
doubt many other ideas that you will have that we could be 
pursuing, but let us begin, at least. In the past months, we 
have seen the media issues steam-rolling across this country, a 
grassroots issue like we haven't seen in many years. More than 
two million Americans have registered their views with the 
Commission now.
    The right, the left, Republicans, Democrats, concerned 
parents, creative artists, religious leaders, civil rights 
activists, and labor organizations have united to fight 
together on this issue. The American people want action. I look 
forward to working with you, Mr. Chairman, and Members of this 
distinguished Committee, to try to deliver some action to them.
    Thank you.
    [The prepared statement of Commissioner Copps follows:]

      Prepared Statement of Hon. Michael J. Copps, Commissioner, 
                   Federal Communications Commission
    Mr. Chairman, Senator Hollings, Members of the Committee, I am 
honored to be here this morning and I am doubly indebted to Chairman 
McCain and Senator Hollings, first for holding this hearing on a 
subject that doesn't often get the attention it deserves and second, 
for inviting me to share some of my perspectives on this critical 
issue, and more importantly, to hear yours.
    My time is short and I don't think you invited me to deliver a 
history lecture on the evolution of the public interest concept or to 
ramble on about its philosophical underpinnings. So, I'll just reaffirm 
the promise I made to you when I first appeared before this Committee 
that I would make the public interest the centerpiece of my commitment 
as a Commissioner. The public interest is important not just because I 
find it personally appealing--which I do--but because it's the 
cornerstone of the law of the land. My staff and I did a quick count 
and found that the term ``public interest'' appears approximately 112 
times in the Communications Act. I take Congress seriously when it 
tells me something once. When it tells me 112 times, I stand at 
attention.
    I don't buy, and I never understood, the argument that the public 
interest is an empty vessel. We need look no further than the core 
principles of the Communications Act to find the oxygen that breathes 
life and substance into the public interest. For example, in 
telecommunications, Congress told us to promote consumer choice through 
competition and to ensure universal service so that all Americans have 
access to the communications networks. When it comes to media, 
communications law means localism, diversity and competition.
    The statute further tells us that the airwaves belong to the 
American people. No broadcast station, no company, no single individual 
owns an airwave in America; the airwaves belong to all the people. 
Corporations are given a temporary right to use this public asset and 
even to profit from that use. In return, we direct these corporations 
to act as public trustees and to serve the public interest.
    As Members of this Committee know, I am deeply troubled at the 
direction of the Commission's vote on June 2 to loosen the media 
ownership rules and caps. I had the opportunity to detail my objections 
on both the substance and the process of that decision when I appeared 
before this Committee on June 4. As that decision approached, I saw two 
divergent paths. Down one road was a reaffirmation of America's 
commitment to local control of our media, diversity in news and 
editorial viewpoint, and the importance of competition. This path 
beckoned us to update our rules to account for technological and 
marketplace changes, yes, but without abandoning core values going to 
the heart of what the media mean in our country. On this path we would 
also reaffirm that FCC licensees have been given very special 
privileges and that they have very special responsibilities to serve 
the public interest.
    Down the other path was more media control by ever fewer corporate 
giants. This path would surrender awesome powers over our news, 
information and entertainment to a handful of large conglomerates. Here 
we would treat the media like any other big business, trusting that in 
the unforgiving environment of the market, the public interest will 
somehow magically trump the urge to build private power and private 
profit for a privileged few. On this path we would endanger time-tested 
safeguards and time-honored values that have strengthened the country 
as well as the media.
    I believe that with the June 2 vote, the majority of the Commission 
took the latter--and in my mind, the wrong--road. The decision allows 
the giant media companies to exert massive influence over some 
communities by wielding up to three TV stations, eight radio stations, 
the already monopolistic newspaper, and potentially the cable system. 
It allows each television network to buy up even more local TV stations 
to cover 45 percent of the national television audience--and if you 
throw in the UHF discount, potentially up to 90 percent. Newspaper-
broadcast cross ownership is henceforth apparently acceptable in 179 of 
210 markets, and duopoly gets the green light in up to 162 of them. One 
broadcaster who is trying to figure out exactly what our new rules mean 
has told me that his preliminary numbers indicate that a single company 
could own up to 370 stations in 208 of the 210 markets in this country. 
The impact is even more dramatic when considered on a state-by-state 
basis. For example, in Texas, one company could own 33 television 
stations, the major paper in Houston, Dallas, San Antonio, and El Paso, 
plus numerous radio stations. That company might also own cable systems 
and cable channels and perhaps be the dominant Internet provider, too. 
Where are the blessings of localism, diversity and competition here? I 
see centralization, not localism; I see uniformity, not diversity; I 
see monopoly and oligopoly, not competition.
    Rather than spending my few minutes this morning further going over 
my objections to both the substance and process of the decision or the 
events leading up to the media concentration vote, I would like to talk 
about where we go from here. This Committee, other Members of the 
Senate, and now the House of Representatives are actively involved in 
deliberations over the June 2 decision, and I will be following what 
happens here with great interest. And hope. The courts will also no 
doubt be involved.
    These ownership limits were about the last safeguards remaining 
against the rising tide of media concentration. This is only the 
latest, although perhaps most radical, step in a twenty-year history of 
weakening public interest protections. Step by step, rule by rule, we 
have allowed the dismantling of these protections and flashed a bright 
green light to the forces of consolidation. The Commission has allowed 
fundamental protections of the public interest to wither and die, 
relying instead on private profit as a proxy for the public interest. 
Requirements that we once had like ascertaining the needs of the local 
audience, requiring a rigorous license renewal process, providing 
demonstrated diversity in programming and the teeing up of 
controversial issues have gone by the boards. Relics, seemingly, of a 
distant past.
    The Commission had also cut back and then eliminated important 
structural regulations that limited both horizontal (or distributional) 
concentration and vertical (or production) concentration, so that the 
same network distributing programs increasingly owned them. Nowadays, 
content and distribution increasingly report to the same master. On top 
of all this, we come now on June 2 and further weaken the horizontal 
caps, unleashing what many experts expect to be a great ``Gold Rush'' 
of swaps, mergers, and acquisitions. ``Corporate Cupid,'' one fund 
manager called it during the high-powered meeting of media moguls in 
Sun Valley the other day. ``Big-lovemaking, big deals out of this 
thing. You are going to see a lot,'' he said. Well, I don't mind 
brokers being brokers--that's what they're supposed to do. But I do 
wonder who is supposed to be America's broker in all this. Somehow I 
had the idea, maybe a little quaint since June 2, that the FCC had a 
role in all this. But we punted, and now I think a lot of it is up to 
you ladies and gentlemen of the Congress.
    So, the question is, where does the Commission go from here? If we 
are going to take down the structural bars to media consolidation, then 
we'd better try to put some vitality back into the public interest. I 
am totally convinced this needs to happen. Accordingly, I will be 
asking my colleagues at the Commission to consider the following:

  1.  An Effective License Renewal Process: As more national 
        conglomerates gobble up local stations, we need a process to 
        ensure that licensees are serving their local communities. As 
        one part of this effort, we should establish an effective 
        license renewal process under which the Commission would once 
        again actually consider the manner in which a station has 
        served the public interest when it comes time to renew its 
        license. The Commission formerly did that. But the system has 
        degenerated into one of basically post-card license renewal. 
        Unless there is a major complaint pending against a station, 
        its license is almost automatically renewed. A real, honest-to-
        goodness and properly-designed license renewal process, 
        predicated on advancing the public interest, would avoid micro-
        management on a day-to-day basis in favor of a comprehensive 
        look at how a station has discharged its public 
        responsibilities over the term of its license.

      As part of the license renewal process, I believe it is important 
        to go out and hear from members of the community. But that 
        hasn't happened for years. It's time for that to change. As we 
        begin the next round of license renewals for radio this fall 
        and for television in 2004, I intend to hold a series of town 
        meetings in regions where renewals are due in order to hear 
        from communities how their airwaves are being used. How can we 
        know if licensees are serving their local communities without 
        hearing from the local community? I intend to get outside the 
        Beltway to listen and to learn.

      I hope my colleagues will join me in this outreach effort. At a 
        minimum, I hope that I will receive support in terms of staff 
        and funding so that we can make these town meetings maximally 
        productive.

  2.  Community Discovery: The Commission should not be the only 
        listening to the people. Let's get Clear Channel and other 
        large station owners out among the people in the communities 
        where they own stations. I believe the public interest would 
        profit immeasurably with some meaningful, but user-friendly, 
        successor to the old ascertainment process. As media 
        conglomerates grow ever bigger and control moves further away 
        from the local community, doesn't it make sense to require, as 
        a condition of renewal or new acquisitions, that the owners 
        come to town and visit with their listeners and viewers to 
        learn about the problems, needs, and issues facing the local 
        community, and understand what the people there really want to 
        see and hear in their programming? An occasional visit to town 
        by absentee station owners is not what I would call localism at 
        its best, but at least it's something. And the owners would 
        then tell the Commission if and how they followed through.

  3.  Eliminate Indecency on the Airwaves: Every day I hear from 
        Americans who are fed up with the patently offensive 
        programming coming their way so much of the time. I hear from 
        parents frustrated with the lack of choices available for their 
        children. I even hear from many broadcast station owners that 
        something needs to be done about the quality of some of the 
        programming they are running. I've referred to a ``race to the 
        bottom,'' but I'm beginning to wonder if there even is a bottom 
        to it. How does this serve the public interest?

      We need a number of actions here.

      First, I will propose a proceeding to consider whether there is a 
        link between increasing consolidation and increasing indecency 
        on our airwaves and steps we should take to address any such 
        problems. In its recent decision, the Commission failed to 
        analyze this issue. Has consolidation led to an increase in the 
        amount of indecent programming? Intuitively, it makes sense, 
        but I don't pretend to know whether there is a causal effect or 
        a correlation or what. When programming decisions are made on 
        Wall Street or Madison Avenue, rather than closer to the 
        community, do indecency and excessive violence grow more 
        pervasive? We need to know the answer to this question. I 
        believe we had no business voting on June 2 without having 
        visited this matter and amassing at least a halfway credible 
        record as to whether all this media concentration has 
        concentrated a lot of smut on our kids. We owe it to our 
        children, and their parents, to explore this question before 
        voting on whether to allow more consolidation.

      Second, the Commission needs to do a far better job of enforcing 
        the laws against indecency on our airwaves. The process by 
        which the FCC has enforced these laws has long placed 
        inordinate responsibility upon the complaining citizen. That's 
        just wrong. It is the Commission's responsibility to 
        investigate complaints that the law has been violated, not the 
        citizen's responsibility to prove the violations.

      I also believe, as I suggested in the recent WKRK-FM case, that 
        we need to send some of the more outrageous transgressions to 
        administrative hearing for license revocation. Taking some 
        blatant offender's license away would let everyone know that 
        the FCC had finally gotten serious about its responsibilities, 
        and I think we would see an almost instantaneous slamming on of 
        the brakes in the race to the bottom.

      Third, I have long suggested, without much success, that 
        broadcasters voluntarily tackle the issue of indecent 
        programming. Many of you will remember the Voluntary Code of 
        Broadcaster Conduct that for years and years saw the industry 
        practicing some self-discipline in the presentation of sex, 
        alcohol, drug addiction and much else. It didn't work 
        perfectly, but at least it was a serious effort premised on the 
        idea that we can be well-entertained without descending into 
        that race for the bottom. I'd like to see my friends Eddie 
        Fritts of the National Association of Broadcasters and Robert 
        Sachs of the National Cable and Telecommunications Association 
        convene a TV summit to tackle the issue. And you know what? A 
        lot of their members agree. It wouldn't be easy, but it would 
        certainly be welcomed by the American people.

      It is also time for us to step up to the plate and tackle the 
        wanton violence our kids are served up every day. Compelling 
        arguments have been made that excessive violence is every bit 
        as indecent, profane and obscene as anything else that is 
        broadcast. Over the years, dozens of studies have documented 
        that excessive violence has hugely detrimental effects, 
        particularly on young people. I don't say this is a simple 
        problem to resolve, because it is not. I do say the issue has 
        gone unaddressed for too long.

      I don't know what the precise mix of legislative initiative, 
        regulatory enforcement and voluntary industry action should be 
        here, but millions of Americans are asking us to get on the 
        job, and I am pleased that this Committee is on the job. Today 
        we have the best of television and undeniably the worst. When 
        it is good, it is very, very good; and when it is bad, it is 
        horrid. It's not what the pioneers of the great broadcast 
        industry had in mind when they brought radio and television to 
        us.

  4.  Minority and Female Participation: The Commission in the recent 
        media ownership decision promised to initiate a proceeding to 
        increase the participation of minorities and women in our 
        media. I was troubled that in reaching that decision, the 
        Commission did not even attempt to understand what further 
        consolidation means in terms of providing Hispanic Americans 
        and African Americans and Asian-Pacific Americans and Native 
        Americans and women and other groups the kinds of programs and 
        access and viewpoint diversity and ownership and career 
        opportunities and even advertising information about products 
        and services that they need. But the Commission moved forward 
        notwithstanding my objection. Now that the vote has taken 
        place, we must undertake and expeditiously complete a 
        proceeding to increase opportunities for minorities and women. 
        I know that Chairman McCain and other Members of this Committee 
        have tremendous interest in this issue and I commend them for 
        it. We must never forget that America's strength is, after all, 
        its diversity. America will succeed in the twenty-first century 
        not in spite of our diversity, but because of our diversity. 
        Diversity is not a problem to be overcome. It is our greatest 
        strength. And our media need to reflect this diversity and to 
        nourish it.

  5.  DTV Public Interest: Thanks to this Committee and its counterpart 
        in the House, the transition to digital television has advanced 
        on many fronts. And Congress made it clear that the public 
        interest obligations of broadcasters would continue in the new 
        digital world. But the FCC has not followed up on its 
        responsibility to update its rules for those who are given the 
        right to use spectrum for digital television. We have just 
        recently managed to get a couple of proceedings, now more than 
        three years old, dusted off and put out for further comment. We 
        need to push these to conclusion and take a good, broad look at 
        this so (1) the American people will know how digital TV will 
        serve their interests and (2) broadcasters will know and 
        understand the rules of the road.

  6.  Independent Programming: I will also propose a proceeding to 
        examine independent programming on our airwaves. Numerous 
        commenters urged us to include this in the recent ownership 
        proceeding but the majority felt it didn't belong there. I 
        disagreed. But now that we are further loosening the 
        concentration limits, we should address whether there is a need 
        for independent programming requirements to ensure that we do 
        not end up with national vertically integrated conglomerates 
        that control the distribution channels and all the content we 
        see and hear. Network ownership of the full range of prime time 
        programming constrains competition, consigns independent 
        production to oblivion or, at best, minor and marginal roles, 
        cripples the production of diverse programming, and also 
        entails widespread job losses for workers, including creative 
        artists, technicians and many, many others.

    Members of this distinguished Committee, I present these proposals 
in the hope that we can build on the dialogue that has begun with media 
ownership. In the past months, we have seen this issue steamrolling 
across this country--a grassroots issue like we haven't seen in many 
years and one that developed without the FCC doing its part to spark it 
or Big Media doing its part to cover it at all adequately.
    More than two million Americans have registered their views with 
the Commission now--more than for any proceeding in our history. In 
these times when many issues divide us, citizens from right to left, 
Republicans and Democrats, concerned parents and creative artists, 
religious leaders, civil rights activists, and labor organizations have 
united to fight together on this issue. I believe the American people 
want action on how their airwaves will be used. Who is going to control 
the media? How many--or, rather, how few--companies? How do we protect 
local broadcasting, diversity of programming and opinion, and the 
ability of local broadcasters to compete with the huge companies?
    I read some inspiring words the other night from a former President 
who I think understood radio, back when radio pretty much was all of 
broadcasting. The spectrum is, he said, ``a public medium and its use 
must be for public benefit. The use of a radio channel is justified 
only if there is public benefit. The dominant element for consideration 
in the radio field is, and always will be, the great body of the 
listening public, millions in number, countrywide in distribution.'' 
That wasn't my hero, FDR, but his Republican predecessor, Herbert 
Hoover, serving as Secretary of Commerce in 1925. Those words ring now 
truer than ever. I don't know who your heroes are, Members of the 
Committee, but I do believe that working together, in bipartisan 
fashion, we can once again propel the liberating spirit of the public 
interest to the forefront of our great country's media.
    Thank you very much for this opportunity and I am anxious to hear 
your further thoughts and to try to answer any questions that you may 
have.

    The Chairman. Yes. Panel Number 2 is Mr. Corn-Revere, 
Partner, of Davis Wright Tremaine LLP; Mr. Barry M. Faber, Vice 
President and General Counsel, Sinclair Broadcasting Group;, 
Mr. Dave Davis, the General Manager of WPVI-DT; Dean Martin 
Kaplan, Associate Dean and School Director, University of 
Southern California, Annenberg School for Communication; and 
Mr. L. Brent Bozell, President of Media Research Center, 
Parents Television Council and the Conservative Communications 
Center. Welcome to the witnesses, and Mr. Corn-Revere, we will 
begin with you. Thank you, and welcome.

           STATEMENT OF ROBERT CORN-REVERE, PARTNER, 
                   DAVIS WRIGHT TREMAINE, LLP

    Mr. Corn-Revere. Thank you, Mr. Chairman, Members of the 
Committee. I appreciate your inviting me to testify about 
public interest obligations of local broadcasters and the role 
the broadcasters play in the delivery of local news and public 
affairs programming.
    The Chairman. Could you pull the microphone a little 
closer, please. Thank you.
    Mr. Corn-Revere. Specifically, I have been asked to focus 
my testimony on the history and constitutionality of the 
broadcast public interest standard as it applies to programming 
mandates. Accordingly, my written testimony concentrates on 
that history in general and its relationship to First Amendment 
concerns. Before I begin, I want to just stress that this 
testimony represents my personal views and should not be 
attributed to any clients or any other parties.
    As has already been expressed this morning, the public 
interest standard is the touchstone of authority for the 
Federal Communications Commission. The standard was first 
adopted as part of the Radio Act of 1927, which created the 
Federal Radio Commission. It was perpetuated by the 
Communications Act of 1934, when Congress consolidated the 
communications regulatory functions with the FCC.
    The Communications Act uses many different formulations of 
the public interest language in various sections of the law, 
and I guess, as has again been mentioned earlier, occurs some 
100 times in the act. Like the Radio Act before it, the 
Communications Act does not define these terms. I believe 
Senator Hollings mentioned that Chairman Powell has said that 
the standard is vague.
    He's not the only FCC Commissioner who has expressed that 
thought. Former FCC Commissioner Glenn O. Robinson has noted 
the frequent criticism that the public interest standard is 
vague to the point of vacuousness, providing neither guidance 
nor constraint on the agency's action. He added that what the 
act itself does not define, the legislative history does not 
illuminate. Many other Commissioners have made the same point 
over the years, including former Chairman Newton Minow.
    Before starting law school, I received a master's degree 
focusing on broadcast history and regulation, and during my 
studies I recall one enterprising graduate student saying that 
he was going to finally determine the meaning of the public 
interest standard in the Communications Act, and he proposed to 
do that by programming every FCC decision ever made into a 
program that he was devising, and he would use that process to 
determine what the public interest meant.
    Now, little did he know that the public interest appears in 
every FCC decision. It rarely means the same thing twice in any 
two decisions. I really don't know whatever became of that 
project.
    The very general mandate of the Communications Act has a 
special application when it comes to the regulation of 
broadcast programming. There is an inherent tension in the 
FCC's mandate to regulate in the public interest and the First 
Amendment command that Congress shall make no law abridging 
freedom of speech or the press. Among other places, this 
tension is recognized in section 326 of the act, which 
prohibits censorship and expressly withholds from Government 
the power to interfere with the right of free speech by means 
of radio communications.
    Based on this dual obligation, the Supreme Court has 
stressed that the First Amendment must inform and give shape to 
the manner in which Congress exercises its regulatory power in 
this area. It is said that the FCC must walk a tightrope to 
preserve the First Amendment values written into the 
Communications Act and has described this as a task of great 
delicacy and difficulty.
    That being said, the FCC historically has directly 
exercised greater supervision of broadcast content than would 
be permitted in other media, and the Supreme Court in the past 
has approved this regulation, although with some notable 
exceptions. The Commission has moderated the inherent tensions 
in this arrangement by showing a certain degree of restraint 
and sensitivity to competing values at stake.
    In 1960, the FCC emphasized that in considering the extent 
of the Commission's authority in the area of programming, it is 
essential for us to examine the limitations imposed upon it by 
the First Amendment to the Constitution and section 326 of the 
Communications Act.
    After an extensive analysis of the meaning of the public 
interest, the FCC found that the required constitutional and 
statutory balance barred the Government from implementing 
programming requirements that were too specific. In response to 
proposals to require licensees to present specific types of 
programs on the theory that such action would enhance freedom 
of expression, rather than to abridge it, the commission 
explained that the First Amendment forbids governmental 
interference asserted in aid of free speech, as well as 
governmental action repressive of it.
    The protection against abridgement of freedom of speech in 
the press flatly forbids governmental interference, benign or 
otherwise. In the past, the Commission has relied upon 
processing guidelines, rather than programming mandates, to 
reach this kind of balance. Whether or not Congress or the FCC 
at the present time could constitutionally adopt more detailed 
requirements under the public interest standard is not an easy 
question to answer.
    To begin with, it's difficult to assess the 
constitutionality of content regulations in the absence of a 
concrete proposal. Although the prevailing standard for 
broadcast regulation articulated in Red Lion has permitted the 
Government to regulate broadcast content more intensively than 
other media in the past, the courts have never defined just how 
far this power might extend. Additionally, it has been 34 years 
since the Supreme Court decided Red Lion, a case that it said 
was based on the state of commercially acceptable technology as 
of 1969. Since then, both Congress and the FCC have found that 
the media marketplace has undergone vast changes. For example, 
the legislative history of the Telecommunications Act of 1996 
suggested that the historical justifications for the FCC's 
regulation of broadcasting required reconsideration.
    Given these changes, and in light of evolving case law, 
which is described in more detail in my written testimony, it 
is far from clear how new programming requirements would be 
evaluated by reviewing courts.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Corn-Revere follows:]

          Prepared Statement of Robert Corn-Revere, Partner, 
                       Davis Wright Tremaine LLP
    Mr. Chairman, and Members of the Committee. Thank you for inviting 
me to testify about the public interest obligations of local 
broadcasters and the role of broadcasters in the delivery of local news 
and public affairs programming.\1\ Specifically, I have been asked to 
focus my testimony on the history and constitutionality of the 
broadcast public interest standard as it applies to programming 
mandates. Accordingly, my written testimony concentrates on the history 
of the FCC's public interest standard and its relationship to First 
Amendment concerns.\2\
---------------------------------------------------------------------------
    \1\ This testimony represents my personal views and should not be 
attributed to any clients or other parties.
    \2\ My testimony draws heavily from Chapter 14 of Zuckman, Corn-
Revere, Frieden and Kennedy, Modern Communications Law (West Group 1999 
& Supp.). In addition, I have attached two more recent articles: Avast 
Ye Wasteland: Reflections on America's Most Famous Exercise in `` 
`Public Interest' Piracy,'' Federal Communications Law Journal 481 (May 
2003) and The Public Interest, the First Amendment and a Horse's Ass, 
2000 Mich. St.-Detroit Coll. L. Rev. 165 (Spring 2000).
---------------------------------------------------------------------------
Broadcast Regulation and the Public Interest
A. The Elusive Public Interest Standard
    The public interest standard is the ``touchstone of authority'' for 
the Federal Communications Commission (``FCC'').\3\ The standard was 
first adopted as part of the Radio Act of 1927, which created the 
Federal Radio Commission (``FRC''). Recognizing the importance of the 
new medium of communications, the Washington Post described the Radio 
Act as the ``most important legislation of the session.'' \4\ The Act 
directed the FRC to perform various tasks, including classifying radio 
stations, describing the type of service to be provided, assigning 
frequencies, making rules to prevent interference, establishing the 
power and location of transmitters and establishing coverage areas in a 
way that maximized the public good. But this did not address the larger 
question of what constitutes ``the public good.'' The FRC took the 
position that the Supreme Court eventually would define the public 
interest case by case. Nevertheless, it outlined the primary attributes 
of the public interest in its policy statements and licensing 
decisions.\5\
---------------------------------------------------------------------------
    \3\ FCC v. Pottsville Broadcasting Co., 309 U.S. 134 (1940).
    \4\ See Philip T. Rosen, The Modern Stentors: Radio Broadcasting 
and The Federal Government 106 (Greenwood Press 1980).
    \5\ E.g., Great Lakes Broadcasting Co., F.R.C. Ann. Rep. 32 (1929), 
affd in part and rev 'd in part Great Lakes Broadcasting v. FRC, 37 
F.2d 993, 59 App. D.C. 195 (D.C.Cir.), cert. dismissed, 281 U.S. 706, 
50 S.Ct. 467, 74 L.Ed. 1129 (1930). The Great Lakes decision 
established programming service as one of the public interest criteria 
governing radio station renewal. See generally Robert Corn-Revere, 
Economics and Media Regulation, in Media Economics Theory and Practice 
71-90 (Alexander, Owers & Carveth, eds, 1993).
---------------------------------------------------------------------------
    Congress borrowed the expression ``public interest, convenience or 
necessity'' from the field of railroad regulation, and its use in the 
context of radio regulation was almost accidental. The terms had been 
used previously in the Transportation Act of 1920.\6\ Senator Clarence 
C. Dill, who drafted the Communications Act, later recounted that ``[a] 
young man on the Committee staff had worked at the Interstate Commerce 
Committee for several years . . . and he said, 'Well, how about 
``public interest, convenience and necessity''? That's what we used 
there.' That sounded pretty good, so we decided we would use it, too.'' 
\7\
---------------------------------------------------------------------------
    \6\ 41 Stat 456 (1920), codified at 49 U.S.C. Sec. 10901. For a 
general discussion see Glen 0. Robinson, The Federal Communications 
Act: An Essay on Origins and Regulatory Purpose in A Legislative 
History of the Communications Act of 1934 (Max Paglin, ed. 1989) pp. 3-
24.
    \7\ Newton N. Minow and Craig L. LaMay, Abandoned In The Wasteland 
4 (Hill and Wang: New York 1995).
---------------------------------------------------------------------------
    By shifting the context of the regulatory mandate from railroads to 
radio, however, its meaning became less certain. Judge Henry Friendly 
wrote in his classic study The Federal Administrative Agencies that the 
use of the ``public convenience and necessity'' standard ``conveyed a 
fair degree of meaning'' in the Transportation Act ``when the issue was 
whether new or duplicating railroad construction should be authorized 
or an existing line abandoned.'' However, the standard ``was almost 
drained of meaning'' in the context of radio regulation ``where the 
issue was almost never the need for broadcasting service but rather who 
should render it.'' \8\
---------------------------------------------------------------------------
    \8\ Henry Friendly, The Federal Administrative Agencies 54-55 
(Harvard University Press 1962). See also Robinson, note 6 supra at pp. 
14-16.
---------------------------------------------------------------------------
    The Communications Act of 1934 uses various formulations of the 
``public interest'' language,\9\ and like the Radio Act before it, does 
not define the terms.\10\ The absence of specific statutory direction 
has been a distinguishing characteristic of communications regulation. 
As one contemporary observer wrote regarding the standard as employed 
in the Radio Act, ``[p]ublic interest, convenience or necessity' means 
about as little as any phrase that the drafters of the Act could have 
used. . . .'' \11\ The Communications Act did not improve the 
situation. Professor of law (and former FCC Commissioner) Glen 0. 
Robinson has noted the frequent criticism that the public interest 
standard ``is vague to the point of vacuousness, providing neither 
guidance nor constraint on the agency's action,'' adding that ``[w]hat 
the Act itself does not define, the legislative history does not 
illuminate.'' \12\
---------------------------------------------------------------------------
    \9\ See, e.g., 47 U.S.C. Sec. Sec. 201(b), 215(a), 319(c) and 
315(a) (``public interest''); Sec. Sec. 214(a) and 214(c) (``public 
convenience and necessity''); Sec. 214(d) (``interest of public 
convenience and necessity''); Sec. Sec. 307(c), 309(a) and 319(d) 
(``public interest, convenience and necessity''); Sec. 307(a) (``public 
convenience, interest or necessity''); Sec. Sec. 311(b) and 311(c)(3) 
(``public interest, convenience or necessity'').
    \10\ Office of Communication of the United Church of Christ v. FCC, 
707 F.2d 1413, 1429, (D.C.Cir. 1983) (``the [Communications] Act 
provides virtually no specifics as to the nature of those public 
obligations inherent in the public interest standard''). Despite the 
lack of a categorical definition of the public interest, various 
provisions of the Act operationally define at least part of what 
Congress intended. For example, the Act directs the FCC to provide, to 
the extent possible, rapid and efficient communication service, 
adequate facilities at reasonable charges, provision for national 
defense and safety of lives and property, and a fair, efficient and 
equitable distribution of radio service to each of the states and 
communities.
    \11\ Louis Caldwell, The Standard of Public Interest, Convenience 
or Necessity as Used in the Radio Act of 1927, 1 Air Law Rev. 291, 295 
(1930).
    \12\ Robinson, supra note 6 at 14.
---------------------------------------------------------------------------
    Accordingly, ``[b]ecause the act did not define what the public 
interest meant,'' former FCC Chairman Newton Minow has written, 
``Congress, the courts, and the FCC have spent sixty frustrating years 
struggling to figure it out.'' \13\ Two prominent communications 
lawyers have suggested that ``[p]erhaps no single area of 
communications policy has generated as much scholarly discourse, 
judicial analysis, and political debate over the course of the last 70 
years as has that simple directive to regulate in ``the public 
interest.'' \14\ It has also generated conflict. Since broadcast 
regulation began, the meaning of the public interest has been the focal 
point for the clash of values at the FCC, and at the FRC before it.\15\
---------------------------------------------------------------------------
    \13\ Minow and LaMay, supra note 7 at 5.
    \14\ Erwin G. Krasnow, and Jack Goodman, The ``Public Interest'' 
Standard: The Elusive Search for the Holy Grail, 50 Fed. Comm.L.J. 606, 
606 (1998).
    \15\ Newton N. Minow, Equal Time, The Private Broadcaster and the 
Public Interest 4 (New York: Athenaeum 1964).
---------------------------------------------------------------------------
    But there is another eye-of-the-beholder problem embedded in this 
regulatory puzzle. Not only does the public interest standard provide 
scant guidance for selecting among particular policy options in a given 
instance, there is robust debate as to whether it is a ``good'' 
standard. At one end of the spectrum, it has been described as the 
``intellectual knife of collectivism's sacrificial guillotine.'' \16\ 
At the other, it has been said that all of the FCC's actions would be 
``without meaning'' in the absence of the public interest standard.\17\ 
As a consequence, the FCC has been ``a storm center of criticism from 
the left and the right.'' \18\ One thing that all can agree on, 
however, is that the meaning of the ``public interest'' has changed 
over time.
---------------------------------------------------------------------------
    \16\ Ayn Rand, Capitalism: The Unknown Ideal 121-122 (New American 
Library 1966) (``the `public interest' . . . amounted to a blank check 
on totalitarian power over the broadcasting industry, granted to 
whatever bureaucrats happened to be appointed to the Commission'').
    \17\ Newton N. Minow, Commemorative Messages, in A Legislative 
History of the Communications Act of 1934 (Max Paglin, ed. 1989) at p. 
xvi.
    \18\ J Roger Wollenberg, The FCC as Arbiter of ``The Public 
Interest, Convenience, and Necessity,'' in A Legislative History of the 
Communications Act of 1934 (Max Paglin, ed. 1989) p. 77.
---------------------------------------------------------------------------
    The nature of the public interest has fluctuated in part because of 
the political outlook of those who administer the law. ``At various 
times in its history the Federal Communications Commission has taken a 
broad view of its power and responsibility to further what it deemed to 
be in the public interest'' while at others it has promoted ``rapid 
moves toward deregulation.'' \19\ As former FCC Commissioner Ervin 
Duggan put it, ``successive regimes at the FCC have oscillated wildly 
between enthusiasm for the public interest standard and distaste for 
it.'' \20\ While this has led some to criticize the FCC for being 
overly political, Judge E. Barrett Prettyman of the United States Court 
of Appeals for the District of Columbia Circuit has described it as 
being ``political in the high sense of that abused term.'' \21\ Still, 
the inherently political nature of the regulatory mandate creates 
special tensions since ``the `public interest' standard necessarily 
invites reference to First Amendment principles.'' \22\
---------------------------------------------------------------------------
    \19\ Id at 77-78.
    \20\ Ervin Duggan, Congressman Tauzin's Interesting Idea, 
Broadcasting & Cable, Oct. 20, 1997 at S18.
    \21\ Pinellas Broadcasting Co. v. FCC, 230 F.2d 204, 206 (D.C.Cir. 
1956), cert, denied, 360 U.S. 1007 (1956) (``Commissions themselves 
change, underlying philosophies differ, and experience often dictates 
change. Two diametrically opposite schools of thought in respect to the 
public welfare may both be rational.'').
    \22\BS, Inc. v. Democratic National Committee, 412 U.S. 94, 122 
(1973). See Wollenberg, supra, note 18 at 61 (``[I]t seems passing 
strange that a society traditionally fearful of government should have 
subjected one of its major communications media to sweeping, vaguely 
defined administrative powers'').
---------------------------------------------------------------------------
    The invitation to apply First Amendment principles, however, has 
done little to clarify the statutory mandate or reduce the Commission's 
political mood swings. From the beginning, the public interest standard 
permitted the government to regulate broadcast content to an undefined 
degree while simultaneously prohibiting censorship. Section 29 of the 
Radio Act, and Section 326 of the Communications Act, specifically 
prohibited ``giv[ing] the licensing authority the power of censorship 
over the radio communications. . . .'' \23\ At the same time, the FRC 
promulgated as an early statement of policy that programming would be 
considered in license renewal decisions, that stations should meet the 
``tastes, needs and desires of substantial groups among the listening 
public'' as opposed to ``propaganda'' \24\ and that operators that 
failed to meet the Commission's expectations could lose their 
licenses.\25\ The Commission and the courts resolved this evident 
paradox by concluding that the ``application of the regulatory power of 
Congress in a field within the scope of its legislative authority'' is 
not ``a denial of freedom of speech.'' \26\ Similarly, comparing the 
FCC to a ``traffic cop,'' the Supreme Court decided that the Act ``does 
not restrict the Commission merely to supervision of the traffic. It 
puts upon the Commission the burden of determining the composition of 
that traffic.'' \27\ What none of the decisions established, however, 
was how far the cop could go in issuing citations, or whether this 
power would continue forever.
---------------------------------------------------------------------------
    \23\ 47 U.S.C. Sec. 29 (West 1927); 47 U.S.0 Sec. 326.
    \24\ Great Lakes Broadcasting Co., 3 FRC Ann. Rep. 32.
    \25\ See KFKB Broadcasting Ass'n v. FRC, 47 F.2d 670, 671 (D.C.Cir. 
1931) (self-promoting program the ``Medical Question Box'' which aired 
on station licensed to a controversial doctor held to violate the 
public interest); Trinity Methodist Church, South v. FRC, 62 F.2d 850 
(D.C.Cir. 1932), cert. denied, 288 U.S. 599 (1933) (license renewal 
denied to radio minister who campaigned against corruption and attacked 
the Catholic Church, Jews, local law enforcement officers and public 
officials). Compare Near v. Minnesota, 283 U.S. 697 (1931) (injunction 
against ``nuisance publication'' that attacked local public officials 
struck down as prior restraint).
    \26\ Trinity Methodist Church, South, 62 F.2d at 852.
    \27\ National Broadcasting Co. v. United States, 319 U.S. 190, 215-
216 (1943).
---------------------------------------------------------------------------
    The meaning of the public interest also varies because of the 
nature of technology. Congress purposefully left the regulatory 
standard open, with the details to be filled in by the FCC over time 
because radio was a new and complicated technology. The FCC's broad 
powers were based on the assumption that ``Congress could neither 
foresee nor easily comprehend . . . the highly complex and rapidly 
expanding nature of communications technology.'' \28\ The Supreme Court 
described the public interest standard in FCC v. Pottsville 
Broadcasting Co. as ``a supple instrument for the exercise of 
discretion'' that is ``as concrete as the complicated factors for 
judgment in such a field of delegated authority permit.'' \29\
---------------------------------------------------------------------------
    \28\ National Ass'n of Regulatory Utility Commissioners v. FCC, 525 
F.2d 630, 638 n.37 (D.C.Cir. 1976).
    \29\ 309 U.S. at 138.
---------------------------------------------------------------------------
    At various times the underlying focus on technological issues has 
been made explicit. For example, in 1983 Congress added a new section 
to the Communications Act establishing ``the policy of the United 
States to encourage the provision of new technologies and services to 
the public.'' \30\ The Telecommunications Act of 1996 also placed great 
emphasis on promoting innovation and technology. Consistent with these 
statutory goals, the Supreme Court has recognized that ``because the 
broadcast industry is dynamic in terms of technological change[,] 
solutions adequate a decade ago are not necessarily so now, and those 
acceptable today may well be outmoded 10 years hence.'' \31\ Similarly, 
it had noted in National Broadcasting Co. v. United States that ``[i]f 
time and changing circumstances reveal that the `public interest' is 
not served by application of the regulations, it must be assumed that 
the Commission will act in accordance with its statutory obligations.'' 
\32\
---------------------------------------------------------------------------
    \30\ 47 U.S.C. Sec. 157.
    \31\ Democratic National Committee, 412 U.S. at 102.
    \32\ 319 U.S. at 225.
---------------------------------------------------------------------------
    For all of these reasons, in seeking to apply a general statutory 
mandate, the Commission has revised its substantive public interest 
requirements over time. In 1941, for example, the Commission decided 
that broadcast editorials violated the public interest, only to 
reconsider that policy eight years later.\33\ Similarly, in 1945 the 
Commission withheld renewal of a radio station license until the 
station agreed to sell time for paid editorials to the United Auto 
Workers.\34\ Since then, however, the Commission determined that 
licensees cannot be forced to sell time to a particular group. This 
more current view of the public interest was upheld by the Supreme 
Court.\35\
---------------------------------------------------------------------------
    \33\ Compare Mayflower Broadcasting Corp. 8 F.C.C. 333 (1941) with 
Opinion on Editorializing by Broadcasters, 13 F.C.C. 1246 (1949). See 
also Syracuse Peace Council, 2 FCC Rcd. 5043 (1987), aff'd sub nom. 
Syracuse Peace Council v. FCC, 867 F.2d 654 (D.C.Cir. 1989), cert. 
denied, 493 U.S. 1019 (1990) (fairness doctrine does not serve the 
public interest); FCC v. League of Women Voters of California, 468 U.S. 
364 (1984) (ban on editorials by public broadcast stations is 
unconstitutional).
    \34\ E.g., United Broadcasting Co., 10 F.C.C. 515 (1945).
    \35\ Democratic National Committee, 412 U.S. 94 (broadcasters may 
not be compelled to provide a generalized right of access to discuss 
controversial issues).
---------------------------------------------------------------------------
B. Regulation of Broadcast Content
1. The Public Interest Standard and the First Amendment Tightrope
    Broadcasters historically have been subject to various forms of 
content regulation under the public interest standard of the 
Communications Act. The Act imposes certain specific requirements, such 
as those for educational programming as well as general public interest 
mandates that are unlike regulations that may be applied to the print 
media. The Supreme Court upheld this differential level of protection 
because of spectrum scarcity in Red Lion Broadcasting Co. v. FCC.\36\ 
At the same time, Congress recognized that broadcasters ``are engaged 
in a vital and independent form of communicative activity'' \37\ and 
conferred upon licensees `the widest journalistic freedom consistent 
with their public [duties].' '' \38\ For example, Section 326 of the 
Communications Act prohibits censorship and expressly withholds from 
government the power to ``interfere with the right of free speech by 
means of radio communication.'' This denies to the FCC ``the power of 
censorship'' as well as the ability to promulgate any ``regulation or 
condition'' that interferes with freedom of speech.\39\ These policies 
``were drawn from the First Amendment itself [and] the 'public 
interest' standard necessarily invites reference to First Amendment 
principles.'' \40\ Consequently, the Supreme Court has stressed that 
``the First Amendment must inform and give shape to the manner in which 
Congress exercises its regulatory power in this area.'' \41\
---------------------------------------------------------------------------
    \36\ 395 U.S. 367 (1969).
    \37\ League of Women Voters of Cal. v. FCC, 468 U.S. 364, 378 
(1984).
    \38\ CBS, Inc. v. FCC, 453 U.S. 367, 395 (1981), (quoting 
Democratic National Committee, 412 U.S. at 110).
    \39\ 47 U.S.C. Sec. 326.
    \40\ CBS, Inc., 412 U.S. at 121.
    \41\ League of Women Voters of Cal., 468 U.S. at 378.
---------------------------------------------------------------------------
    This obvious tension between public interest regulation and 
traditional First Amendment concepts has been blunted somewhat to the 
extent the FCC approached broadcast licensees with a certain degree of 
sensitivity to the competing values at stake. From the beginnings of 
broadcast regulation, Congress and the FCC (and its predecessor agency, 
the Federal Radio Commission), appeared to approach the business of 
regulation with the understanding that constitutional limitations might 
prevent too great a reliance on specific programming mandates. One of 
the bills submitted prior to passage of the Radio Act of 1927 included 
a provision that would have required stations to comply with 
programming priorities based on subject matter. However, the provision 
was eliminated because ``it was considered to border on censorship.'' 
\42\ Similarly, the Federal Radio Commission sought to ``chart a course 
between the need of arriving at a workable concept of the public 
interest in station operation, on the one hand, and the prohibition 
laid on it by the First Amendment to the Constitution of the United 
States . . . on the other.'' \43\
---------------------------------------------------------------------------
    \42\ See FCC v. WNCN Listeners Guild, 450 U.S. 582, 597 (1981).
    \43\ Report and Statement of Policy re: Commission En Banc 
Programming Inquiry, 44 F.C.C. 2303, 2313 (1960).
---------------------------------------------------------------------------
    In 1960 the FCC emphasized that ``[i]n considering the extent of 
the Commission's authority in the area of programming it is essential 
[first] to examine the limitations imposed upon it by the First 
Amendment to the Constitution and Section 326 of the Communications 
Act.'' \44\ After an extensive analysis of the meaning of the public 
interest, the FCC found that the required constitutional and statutory 
balance barred the government from implementing programming 
requirements that were too specific. It noted:
---------------------------------------------------------------------------
    \44\ Id. at 2306.

        [S]everal witnesses in this proceeding have advanced persuasive 
        arguments urging us to require licensees to present specific 
        types of programs on the theory that such action would enhance 
        freedom of expression rather than to abridge it. With respect 
        to this proposition we are constrained to point out that the 
        First Amendment forbids governmental interference asserted in 
        aid of free speech, as well as governmental action repressive 
        of it. The protection against abridgment of freedom of speech 
        and press flatly forbids governmental interference, benign or 
        otherwise. The First Amendment while regarding freedom in 
        religion, in speech, in printing and in assembling and 
        petitioning the government for redress of grievances as 
        fundamental and precious to all, seeks only to forbid that 
        Congress should meddle therein.\45\
---------------------------------------------------------------------------
    \45\ Id. at 2308 (citation omitted).

    Such considerations led the Commission to conclude that it could 
not ``condition the grant, denial or revocation of a broadcast license 
upon its own subjective determination of what is or is not a good 
program.'' \46\ To do so, the Commission concluded, would ``lay a 
forbidden burden upon the exercise of liberty protected by the 
Constitution.'' \47\ In order to maintain a balance between a free 
competitive broadcast system, on the one-hand, and the requirements of 
the public interest standard on the other, the Commission found that 
``as a practical matter, let alone a legal matter, [its role] cannot be 
one of program dictation or program supervision.'' \48\
---------------------------------------------------------------------------
    \46\ Id.
    \47\ Id quoting Cantwell v. Connecticut, 310 U.S. 296, 307, 60 
S.Ct. 900, 906, 84 L.Ed. 1213 (1940).
    \48\ Id. at 2309.
---------------------------------------------------------------------------
    Over the years the FCC has attempted to balance the constitutional 
imperative of the First Amendment with the public interest aspirations 
of the Communications Act. It has found that while it may ``inquire of 
licensees what they have done to determine the needs of a community 
they propose to serve, the Commission may not impose upon them its 
private notions of what the public ought to hear.'' \49\ In particular, 
public interest ``standards or guidelines should in no sense constitute 
a rigid mold for station performance, nor should they be considered as 
a Commission formula for broadcasts in the public interest.'' \50\ The 
Commission emphasized that it did ``not intend to guide the licensee 
along the path of programming.'' On the contrary, ``the licensee must 
find his own path with the guidance of those whom his signal is to 
serve.'' \51\
---------------------------------------------------------------------------
    \49\ Id. at 2308.
    \50\ Id. at 2313.
    \51\ Id. at 2316.
---------------------------------------------------------------------------
    Recognizing this delicate balance, courts have noted that the 
Commission must ``walk a tightrope'' to preserve the First Amendment 
values written into the Radio Act and its successor, the Communications 
Act.'' \52\ The Supreme Court has described this balancing act as ``a 
task of great delicacy and difficulty,'' and stressed that ``we would 
[not] hesitate to invoke the Constitution should we determine that the 
[FCC] has not fulfilled with appropriate sensitivity to the interest of 
free expression.'' \53\ The Court found that the Communications Act was 
designed ``to maintain--no matter how difficult the task--essentially 
private broadcast journalism.'' \54\ For that reason, licensees are to 
be held ``only broadly accountable to public interest standards.'' \55\ 
Thus, in Turner Broadcasting System, Inc. v. FCC, the Supreme Court 
quoted the 1960 En Banc Policy Statement, and reiterated that 
``although `the Commission may inquire of licensees what they have done 
to determine the needs of the community they propose to serve, the 
Commission may not impose upon them its private notions of what the 
public ought to hear.' ''\56\
---------------------------------------------------------------------------
    \52\ Democratic National Committee, 412 U.S. at 117; Banzhaf v. 
FCC, 405 F.2d 1082, 1095 (D.C.Cir.1968), cert denied sub. nom. Tobacco 
Institute, Inc. v. FCC, 396 U.S. 342 (1969).
    \53\ Democratic National Committee, 412 U.S. at 102.
    \54\ Id. at 120.
    \55\ Id.
    \56\ 512 U.S. 622, 650 (1994) (``Turner I'') (citation omitted).
---------------------------------------------------------------------------
    Specific program requirements generally are considered the most 
constitutionally suspect among the requirements imposed by broadcasting 
regulations. The United States Court of Appeals for the District of 
Columbia Circuit has noted that the ``power to specify material which 
the public interest requires or forbids to be broadcast . . . carries 
the seeds of the general authority to censor denied by the 
Communications Act and the First Amendment alike.'' \57\ Public 
interest requirements relating to specific program content create a 
``high-risk that such rulings will reflect the Commission's selection 
among tastes, opinions, and value judgments, rather than a recognizable 
public interest,'' and ``must be closely scrutinized lest they carry 
the Commission too far in the direction of the forbidden censorship.'' 
\58\
---------------------------------------------------------------------------
    \57\ Banzhaf, 405 F.2d at 1095.
    \58\ Id. at 1096. See also Public Interest Research Group v. FCC, 
522 F.2d 1060, 1067 (1st Cir.1975), cert. denied, 424 U.S. 965 (1976) 
(``[we] have doubts as to the wisdom of mandating . . . government 
intervention in the programming and advertising decisions of private 
broadcasters''); Anti-Defamation League of B 'nai B 'rith v. FCC, 403 
F.2d 169, 172 (D.C. Cir. 1968) (``the First Amendment demands that [the 
FCC] proceed cautiously [in reviewing programming content] and Congress 
. . . limited the Commission's power in this area'').
---------------------------------------------------------------------------
    In those instances in which Congress has adopted affirmative 
obligations--such as the requirement of Section 312(a)(7) of the 
Communications Act that broadcast licensees provide ``reasonable'' 
access to Federal political candidates--it has stressed that the 
requirement must be implemented ``on an individualized basis'' and not 
on the basis of ``across-the-board policies.'' \59\ The Commission has 
never attempted to specify what amount of candidate access is 
''reasonable'' and the Supreme Court's First Amendment analysis of the 
law assumed that the broadcaster's editorial discretion would be 
accorded appropriate deference.\60\
---------------------------------------------------------------------------
    \59\ CBS, Inc., 453 U.S. at 387.
    \60\ Id. at 396-397.
---------------------------------------------------------------------------
    In Turner I, the Supreme Court emphasized ``the minimal extent'' 
that the government may influence the programming provided by broadcast 
stations. The Court noted that ``the FCC's oversight responsibilities 
do not grant it the power to ordain any particular type of programming 
that must be offered by broadcast stations.'' \61\ Similarly, the 
United States Court of Appeals for the District of Columbia Circuit 
expressly avoided approving ``a more active role by the FCC in 
oversight of programming'' on educational stations because it would 
``threaten to upset the constitutional balance struck in CBS v. DNC.'' 
\62\ The challenge facing broadcast content regulation is the need to 
reconcile public interest mandates with constitutional commands and 
statutory restrictions.
---------------------------------------------------------------------------
    \61\ 512 U.S. 622, 650-652.
    \62\ Accuracy in, Media v. FCC, 521 F.2d 288, 296-297 (D.C. Cir. 
1975). See also Community-Service Broadcasting of Mid-America v. FCC, 
593 F.2d 1102, 1115 (D.C. Cir. 1978) (en banc) (FCC and courts have 
generally eschewed ``program-by-program review'' schemes because of 
constitutional dangers).
---------------------------------------------------------------------------
2. Affirmative Programming Mandates
    As a general matter, broadcast licensees have a public interest 
obligation to provide programming that is responsive to the needs of 
the community of license.\63\ To ensure compliance, the FCC requires 
radio and television broadcasters to file quarterly reports listing the 
programs that have provided the station's most significant treatment of 
community issues during the proceeding three month period. This list 
must include a brief narrative statement describing what issues were 
given significant treatment and which programs addressed the particular 
issues. The report must list the air date, day part, as well as program 
length and title of the programs.\64\ The station's overall performance 
in serving the community is evaluated at license renewal time.
---------------------------------------------------------------------------
    \63\ 47 C.F.R. Sec. Sec. 73.3526(e)(11)-(12), 73.3527(e)(8) (2002).
    \64\ Id.
---------------------------------------------------------------------------
    The FCC previously enforced such programming requirements in a far 
more detailed way. In its 1960 En Banc Programming Inquiry, for 
example, the Commission listed 14 categories of programs generally 
considered necessary to serve the public interest, including programs 
that provided an opportunity for local self-expression, programs that 
used local talent, children's programs, religious programs, educational 
programs, public affairs programs, editorials, political broadcasts, 
agricultural programs, news, weather and market reports, sports 
programs, service to minority groups and (finally) entertainment 
programming.\65\ Although the Commission did not prescribe the 
transmission of particular programs, noting that the specified 
categories should not be considered ``a rigid mold of fixed formula for 
station operation,'' it nevertheless concluded that the listed 
programming types, provided in some reasonable mix, provided evidence 
that a licensee was operating in the public interest.\66\ This was 
enforced through the use of formal ascertainment procedures, which 
required applicants for broadcast licenses to interview community 
leaders in 19 specified categories ranging from agriculture to 
religion.\67\
---------------------------------------------------------------------------
    \65\ En Banc Programming Inquiry, 44 F.C.C. at 2314.
    \66\ Id.
    \67\ See Primer on Ascertainment of Community Problems by Broadcast 
Applicants, 27 F.C.C.2d 650 (1971).
---------------------------------------------------------------------------
    In 1981 the FCC eliminated its rules and policies that required 
radio stations to keep program logs and conduct ascertainment of 
community problems, imposing non-entertainment programming requirements 
and limiting the amount of commercial time.\68\ The FCC similarly 
deregulated television, eliminating ascertainment and other 
requirements in 1984.\69\ The Commission also simplified the renewal 
process, eliminating the detailed program-related questions that had 
accompanied the ascertainment process.\70\ Generally, the FCC moved 
away from examining the programming formats chosen by broadcast 
stations, leaving such decisions to marketplace forces.\71\
---------------------------------------------------------------------------
    \68\ Deregulation of Radio, 84 F.C.C.2d 968 (1981), af'd. in part 
and remanded in part, Office of Communication of the United Church of 
Christ v. FCC, 707 F.2d 1413 (D.C. Cir. 1983).
    \69\ Revision of Programming and Commercialization Policies, 
Ascertainment Requirements, and Program Requirements for Commercial 
Television Stations, 98 F.C.C.2d 1078 (1984); Revisions of Programming 
Policies and Reporting Requirements Related to Public Broadcasting 
Licensees, 96 F.C.C.2d 74 (1984). See Action for Children's Television 
v. FCC, 821 F.2d 741 (D.C. Cir. 1987) (remanding FCC decision to 
eliminate commercial guidelines for children's programming).
    \70\ See Black Citizens for a Fair Media v. FCC, 719 F.2d 407 (D.C. 
Cir. 1983), cert. denied, 467 U.S. 1255 (1984).
    \71\ See FCC v. WNCN Listeners Guild, 450 U.S. at 604.
---------------------------------------------------------------------------
C. The Prospect for Expanded Public Interest Mandates
    Whether or not Congress or the FCC at the present time could 
constitutionally adopt more detailed content requirements under the 
public interest standard is not an easy question to answer. As a 
threshold matter, it is difficult to assess the potential 
constitutionality of content regulations in the absence of a concrete 
proposal. Although the prevailing standard for broadcast regulation 
articulated in Red Lion has permitted the government to regulate 
broadcast content more intensively than other media in the past, the 
courts have never defined how far this power might extend. 
Additionally, it has been thirty-four years since the Supreme Court 
decided Red Lion, a case based on 'the present state of commercially 
acceptable technology' as of 1969.'' \72\
---------------------------------------------------------------------------
    \72\ News America Publishing, Inc. v. FCC, 844 F.2d 800, 811 (D.C. 
Cir. 1988), quoting Red Lion, 395 U.S. at 388. See Meredith Corp. v. 
FCC, 809 F.2d 863, 867 (D.C. Cir. 1987) (``the Court reemphasized that 
the rationale of Red Lion is not immutable''). See also Banzhaf, 405 
F.2d at 1100 (``some venerable FCC policies cannot withstand 
constitutional scrutiny in the light of contemporary understanding of 
the First Amendment and the modern proliferation of broadcasting 
outlets'').
---------------------------------------------------------------------------
    Since then, both Congress and the FCC have found that the media 
marketplace has undergone vast changes. For example, the legislative 
history to the Telecommunications Act of 1996 suggested that the 
historical justifications for the FCC's regulation of broadcasting 
require reconsideration. The Senate Report noted that ``[c]hanges in 
technology and consumer preferences have made the 1934 [Communications] 
Act a historical anachronism.'' It explained that ``the 
[Communications] Act was not prepared to handle the growth of cable 
television'' and that ``[t]he growth of cable programming has raised 
questions about the rules that govern broadcasters'' among others.\73\ 
The House of Representatives' legislative findings were even more 
direct. The House Commerce Committee pointed out that the audio and 
video marketplace has undergone significant changes over the past 50 
years ``and the scarcity rationale for government regulation no longer 
applies.'' \74\
---------------------------------------------------------------------------
    \73\ Telecommunications Competition and Deregulation Act of 1995, 
S. Rpt. 104-23, 104th Cong. 1st Sess. 2-3 (Mar. 30, 1995).
    \74\ Communications Act of 1995, H. Rpt. 104-204, 104th Cong. 1st 
Sess. 54 (July 24, 1995).
---------------------------------------------------------------------------
    The FCC has reached similar conclusions over the years. In the mid-
1980s, for example, the Commission ``found that the `scarcity 
rationale,' which historically justified content regulation of 
broadcasting . . . is no longer valid.'' \75\ Most recently, in 
complying with the congressional mandate to conduct a biennial review 
of broadcast regulations, the FCC once again found that the media 
landscape has been transformed.\76\ It concluded that ``the modern 
media marketplace is far different than just a decade ago,'' finding 
that traditional media ``have greatly evolved'' and ``new modes of 
media have transformed the landscape, providing more choice, greater 
flexibility, and more control than at any other time in history.'' \77\ 
People coming of age in this environment enjoy an ``extraordinary level 
of abundance in today's media marketplace'' and thus ``have come to 
expect immediate and continuous access to news, information, and 
entertainment.'' \78\ Of course, if Congress or the FCC chose to adopt 
new public interest requirements, they would be expected to adopt new 
legislative or regulatory findings. But any new rules regulating 
broadcast content would necessarily implicate the First Amendment, and 
reviewing courts would not be required to defer to the policymakers' 
findings.\79\
---------------------------------------------------------------------------
    \75\ Meredith Corp., 809 F.2d at 867, citing Report Concerning 
General Fairness Doctrine Obligations of Broadcast Licensees, 102 
F.C.C.2d 143 (1985) (``1985 Fairness Doctrine Report''). See Syracuse 
Peace Council, 867 F.2d at 660-666 (discussing 1985 Fairness Doctrine 
Report and upholding FCC's decision to repeal the fairness doctrine).
    \76\ 2002 Biennial Regulatory Review--Review of the Commission's 
Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 
202 of the Telecommunications Act of 1996, FCC 03-127,  4 (released 
July 2, 2003) (``Biennial Regulatory Review'').
    \77\ Id. at  86-87.
    \78\ Id.  88.
    \79\ Playboy Entertainment Group, 529 U.S. at 817-818; Sable 
Communications of California, Inc. v. FCC, 492 U.S. 115, 129 (1989) 
(``Deference to a legislative finding cannot limit judicial inquiry 
when First Amendment rights are at stake.'') (citation omitted).
---------------------------------------------------------------------------
    In this context, it is not easy to predict how the Supreme Court 
might treat new content regulations. It has been a long time since the 
Court has directly confronted the constitutional status of 
broadcasting, and where the issue has come up in dictum, its 
endorsement of Red Lion has been lukewarm at best. In Turner I, for 
example, the Court rejected the government's bid to extend the 
principles of Red Lion to the regulation of cable television. After 
noting the Commission's ``minimal'' authority over broadcast content, 
the Court pointed out that ``the rationale for applying a less rigorous 
standard of First Amendment scrutiny to broadcast regulation, whatever 
its validity in the cases elaborating it, does not apply in the context 
of cable television.'' \80\
---------------------------------------------------------------------------
    \80\ Turner I, 512 U.S. at 637 (emphasis added).
---------------------------------------------------------------------------
    Lower court decisions in this area have reached mixed results. The 
case that provides the strongest support for some type of expanded 
public interest requirement is Time Warner Entertainment Co. v. FCC, 
which used a straightforward application of Red Lion to uphold a 1992 
Cable Act provision requiring Direct Broadcast Satellite (``DBS'') 
operators to set aside four to seven percent of their channel capacity 
for ``noncommercial programming of an educational or informational 
nature.'' \81\ The panel reasoned that the provision ``should be 
analyzed under the same relaxed standard of scrutiny that the court has 
applied to the traditional broadcast media.'' \82\
---------------------------------------------------------------------------
    \81\ 93 F.3d 957 (D.C. Cir. 1996) (upholding 47 U.S.C. 
Sec. 335(b)(1) against a First Amendment challenge).
    \82\ Id. at 975.
---------------------------------------------------------------------------
    However, a deadlocked court of appeals denied rehearing in that 
case, and five judges endorsed a dissenting statement that casts a 
shadow over the panel's strong endorsement of Red Lion.\83\ The five 
dissenters pointed out that ``[e]ven in its heartland application, Red 
Lion has been the subject of intense criticism,'' noting that the 
assumptions underlying spectrum scarcity are suspect in light of the 
scarce nature of all economic goods.\84\ Judge Williams noted that the 
Red Lion Court suggested that the reason for such relaxed treatment 
would vanish along with the end of scarcity, and pointed out that, even 
in its nascent state, ``[t]he new DBS technology already offers more 
channel capacity than the cable industry, and far more than traditional 
broadcasting.'' \85\ The dissent further reasoned that the DBS set-
aside requirement for ``educational'' or ``informational'' programming 
is content-based, and that ``as a simple government regulation of 
content, the DBS requirement would have to fall.'' \86\ In light of the 
55 deadlock among the D.C. Circuit judges, the Time Warner case 
represents more of a hung jury than it does a constitutional mandate 
for new content regulations.\87\
---------------------------------------------------------------------------
    \83\ Judge Steven Williams, joined by Judges Edwards, Silberman, 
Ginsburg, and Sentelle, sharply questioned the central premises of 
extending the constitutional rationale of broadcast regulation. Time 
Warner Entertainment Company v. FCC, 105 F.3d 723 (D.C. Cir.) 
(Williams, J., dissenting).
    \84\ Id. at 724 nn. 1-2.
    \85\ Id. at 725.
    \86\ Id. at 726.
    \87\ Other lower courts have declined to apply the Time Warner 
panel's analysis of Red Lion. See Satellite Broadcasting & 
Communications Ass'n. of America v. FCC, 146 F. Supp. 2d 803, 823 (E.D. 
Va. 2001) (rejecting Time Warner analysis and applying intermediate 
scrutiny) (``numerous courts have questioned and/or declined to extend 
the Red Lion rationale'').
---------------------------------------------------------------------------
    Other cases further suggest that reviewing courts will closely 
scrutinize any new regulation of broadcast content. In MPAA v. FCC, the 
D.C. Circuit vacated the Commission's video description rules.\88\ 
Although the court analyzed only the question of whether the FCC had 
been given statutory authority to adopt the rules, it explained that it 
interpreted the Commission's powers narrowly because any regulation of 
programming content ``invariably raise[s] First Amendment issues.''\89\ 
It expressed no opinion on the constitutional issues, but the thrust of 
the holding was that the FCC's general public interest authority over 
programming is far less expansive than was previously assumed.
---------------------------------------------------------------------------
    \88\ 309 F.3d 796 (D.C. Cir. 2002).
    \89\ Id. at 805.
---------------------------------------------------------------------------
    The same conclusion follows from the D.C. Circuit's decision in 
RTNDA v. FCC, where the court ordered the Commission to repeal the 
personal attack and political editorial rules.\90\ There, the court 
held that the FCC had the burden to justify rules that ``interfere with 
editorial judgment of professional journalists and entangle the 
government in day-to-day operations of the media.'' \91\ Although the 
court did not decide whether such rules are constitutional or would 
serve the public interest, it was unwilling to allow the FCC to 
continue to enforce the content restrictions (that already had been 
subject to protracted review) while the Commission assessed their 
validity.
---------------------------------------------------------------------------
    \90\ Radio-Television News Directors Assn. v. FCC, 229 F.3d 269 
(D.C. Cir. 2000) (per curiam).
    \91\ Id. at 270 (it is ``incumbent upon the Commission to 'explain 
why the public interest would benefit from rules that raise these 
policy and constitutional doubts') (citation omitted).
---------------------------------------------------------------------------
Conclusion
    The First Amendment and the public interest standard require 
Congress and the FCC to ``walk a tightrope'' between the enforceable 
public obligations of broadcast licensees and the Constitution's 
command that ``Congress shall make no law . . . abridging the freedom 
of speech, or of the press. . . .'' That task is made more difficult by 
rapidly changing technology that alters the assumptions upon which 
previous theories of regulation were grounded. It is especially 
problematic since the regulations at issue uniquely apply to only one 
medium--broadcasting--that is less and less unique in an age of 
convergence. Accordingly, it would be prudent for policymakers to 
proceed cautiously in this area.
                              Attachment 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you. Mr. Faber.

    STATEMENT OF BARRY M. FABER, VICE PRESIDENT AND GENERAL 
            COUNSEL, SINCLAIR BROADCAST GROUP, INC.

    Mr. Faber. Good morning. My name is Barry Faber. I'm Vice 
President and General Counsel of Sinclair Broadcast Group. 
Sinclair is one of the Nation's largest independent free over-
the-air television broadcasters, owning and/or providing 
services to more than 60 television stations in 39 markets 
across the country.
    At Sinclair, we take our commitment to meeting the locally 
based needs of all of our communities very seriously. Each of 
our market-based station general managers makes a myriad of 
decisions, from media sponsorship of local charitable events to 
carriage of community-based programming, from the publicizing 
of the local activities to the broadcast of community 
calendars, to serving the informational needs of the community 
through the presentation of news programming.
    I understand that this last topic, news, is the primary 
reason Sinclair was invited to participate in today's hearing. 
More specifically, the Committee is interested in the 
implementation of a centralized news service, News Central, 
that Sinclair is currently rolling out to a number of its 
markets.
    News Central is simply a service pursuant to which nonlocal 
news stories, that is, certain national and international news, 
are written and produced a single time in a centralized 
location for use in a number of stations. Rather than 39 
reporters in 39 markets researching, writing, and producing 39 
stories on a single national or international news event, the 
story is produced a single time for broadcast in our markets.
    I am well aware that there are some who criticize News 
Central for a variety of competitive or philosophical reasons, 
or because they do not understand how News Central works. I 
welcome the opportunity to be here to set the record straight 
by explaining the significant contributions that News Central 
is making to localism.
    Nationally, most ABC, CBS, and NBC affiliates have numerous 
hours of local newscasts each day across which they can spread 
the cost of producing news. In contrast, only a handful of WB 
and UPN stations in only the largest markets have any newscasts 
at all. As a case in point, News Corporation's UPN-20 and 
Tribune's WB-50 here in Washington, D.C., a Top 10 market, do 
not have any news.
    Many Fox affiliates in medium and smaller markets also do 
not have news, and even where they do, it is typically limited 
to 1 hour per day. Sinclair has television stations affiliated 
with all six of the major networks, ABC, NBC, CBS, Fox, WB, and 
UPN, and I believe our levels of news operations have 
historically mirrored that of the rest of the industry.
    Going forward, however, our News Central model is designed 
to achieve certain efficiencies so that we can provide viewers 
with more choices for local news, particularly in the smaller 
markets, where choices are currently limited. These 
efficiencies have been made possible in part by recent 
technological advances. News Central will allow Sinclair to 
launch local newscasts on Fox, WB, UPN, and independent 
stations in medium and small markets, as well as to relaunch 
newscasts on Big Three affiliates where we have previously 
discontinued local news operations due to financial and 
competitive concerns.
    Significantly, however, each market served by News Central 
will have its own complete, separate, locally based news team, 
consisting of reporters, producers, anchors, photographers, et 
cetera, and these news rooms will focus 100 percent of their 
attention and resources on local news only. As a result, we 
believe these local news operations will provide a better 
focused and more locally tailored newscast than our 
competitors, who will continue to devote local resources to 
producing national and international news stories that have no 
local impact.
    At each News Central station, the local portion of the news 
is independently produced by the local staff based on their 
decision as to which news is of greatest interest to their 
specific community. Then, at a commonly prescribed time, each 
of the stations turns the newscast over to the national-
international news desk, at which point the single, centrally 
produced news report will be broadcast at each of the stations.
    The current economic and advertising climate, combined with 
the increasing popularity of national cable news networks, has 
not been kind to local news operations. As I referenced 
earlier, Sinclair was forced to shut down local news operations 
on three Big Three network affiliates between the end of 2000 
and the beginning of 2002, and we are not alone. For example, 
example, a major network-owned news operation was shut down in 
a Top 10 city late last year.
    News Central, however, is allowing Sinclair to change 
direction. Rather than news shutdowns, we anticipate that by 
the end of this year, Sinclair will have added news programming 
in eight markets, resulting not incidentally in a net increase 
of more than 200 news jobs since last summer, with more growth 
to come, and we expect to continue to grow our news force over 
the coming years, as we roll out News Central to additional 
markets.
    I note, by the way, that the News Central model is far from 
revolutionary. For many years, the use of shared stories has 
been the newspaper model. Similarly, in television, local 
stations have relied on news services such as CNN to provide 
national and international news stories for use in a large 
number of stations across the country. CNN was built on the 
same model as is News Central, namely, the efficiency of having 
a single report prepared for many stations.
    An even closer analogy to News Central can be seen in the 
network news model that hundreds of ABC, CBS, and NBC 
affiliates followed every day for decades. Under that model, 
these stations present a half-hour of primarily local news 
produced in the various communities, followed by a half-hour 
national and international newscast produced a single time by 
their network in New York for broadcast in virtually every 
community in the United States.
    Let me conclude by again noting how pleased I am to have 
had the chance to appear here today. Sinclair takes very 
seriously its responsibility to the many communities it serves, 
and believes that News Central will allow us to better serve 
the public interest of the various localities. I hope my 
explanation of how the News Central model works has illustrated 
why this is the case, and has cleared up any misperceptions 
that may have existed.
    Thank you.
    [The prepared statement of Mr. Faber follows:]

   Prepared Statement of Barry M. Faber, Vice President and General 
                Counsel, Sinclair Broadcast Group, Inc.
    Good morning. My name is Barry Faber and I am the Vice President 
and General Counsel of Sinclair Broadcast Group. Sinclair is the 
Nation's largest, independent, free, over-the-air television 
broadcasters, owning and/or providing services to more than 60 
television stations in 39 markets across the United States.
    At Sinclair, we take our commitment to meeting the locally-based 
needs of all of our communities very seriously. Each of our market-
based station general managers makes a myriad of decisions from media 
sponsorship of local charitable events to carriage of community based 
programming, from the publicizing of local activities through the 
broadcast of community calendars to serving the informational needs of 
the community through the presentation of news programming.
    I understand that this last topic--news--is the primary reason 
Sinclair was invited to participate in today's hearing. More 
specifically, the Committee is interested in the implementation of a 
centralized news service, known as News Central, that Sinclair is 
currently rolling out to a number of its markets. News Central is 
simply a service pursuant to which non-local news stories, that is 
certain national and international news, will be written and produced a 
single time at a centralized location for use at a number of stations. 
Rather than thirty-nine reporters in thirty-nine markets researching, 
writing and producing thirty-nine stories on a single national or 
international news event, the story will be produced a single time for 
broadcast in each of the markets.
    I am well aware that there are some who criticize News Central for 
a variety of competitive or philosophical reasons or because they do 
not understand how News Central works. I welcome the opportunity to be 
here to set the record straight by explaining the significant 
contributions that News Central is making to localism.
    Nationally, most ABC, CBS and NBC affiliates have numerous hours of 
local newscasts each day, whereas only a handful of WB and UPN stations 
in only the largest markets have any newscasts at all. Many FOX 
affiliates in medium and smaller markets also do not have news and even 
where they do, it is typically limited to one hour per day. Case in 
point, News Corporation's UPN 20 and Tribune's WB 50 here in 
Washington, DC--a top ten market--do not have news. Sinclair has 
television stations affiliated with the six major networks: ABC, NBC, 
CBS, FOX, WB and UPN and I believe our news operations have 
historically mirrored that of the rest of the industry.
    Going forward, however, our News Central model is designed to 
achieve certain efficiencies so that we can provide viewers with more 
choices for local news particularly in the smaller markets where 
choices are already limited. News Central will allow Sinclair to launch 
local newscasts on FOX, WB, UPN and independent stations in medium and 
smaller markets, as well as to relaunch newscasts on big 3 affiliates 
where we previously discontinued local news operations due to financial 
and competitive concerns.
    Other operating efficiencies are achieved by capitalizing on the 
newest technologies as we continue to build brand-new, state-of-the-art 
news facilities in numerous cities. All of these efficiencies allow us 
to launch local news on stations that have neither had news in the past 
nor were expected to add news using the 50-year old news model.
    Significantly, however, each market served by News Central will 
have a complete locally-based news team, consisting of reporters, 
producers, anchors, photographers, etc and these news rooms will focus 
100 percent of their attention and resources on local news only. As a 
result, we believe these local news operations will provide a better-
focused and more locally-tailored newscast than our competitors, which 
will continue to devote resources to producing national and 
international news stories that have no local impact.
    At each News Central station, the local portion of the news is 
independently produced by the local staff based on their decision as to 
which news is of greatest interest to their specific community, then, 
at a commonly prescribed time, each of the stations turns the newscast 
over to the national/international news desk at which point the single, 
centrally-produced news report will be broadcast on each of the 
stations.
    The current economic and advertising climate, combined with the 
increasing popularity of national cable networks, has not been kind to 
local news operations. For example a major network-owned news operation 
was shut down in a top 10 city late last year. And last fall, two media 
giants discussed combining their cable and broadcast news operations 
with an aim toward saving $100 million. A large portion of those 
savings would most likely have been in jobs and not equipment. However, 
we anticipate that by the end of this year Sinclair will have had a net 
increase of more than 200 news jobs since last summer with more growth 
to come. And we expect to grow our news force over the coming years as 
we continue to roll-out News Central.
    I note, by the way, that the News Central model is far from 
revolutionary. For many years, like the newspaper model, local stations 
have relied on news services, such as CNN, to provide national and 
international news stories for use on a large number of stations across 
the country. CNN was built on the same model as is News Central, namely 
the efficiency of having a single report prepared for many stations. An 
even closer analogy to News Central can be seen in the network news 
model that hundreds of ABC, CBS and NBC affiliates have followed every 
day for decades. Under that model, these stations present a half-hour 
of primarily local news produced in their various communities, followed 
by a half-hour national and international newscast produced by their 
network in New York for broadcast in virtually every community in the 
United States.
    Let me conclude by again noting how pleased I am to have had the 
chance to appear here today. Sinclair takes very seriously its 
responsibility to the many communities it serves and believes that News 
Central will allow us to better serve the public interest of these 
various localities. I hope my explanation of how the News Central model 
works has illustrated why this is the case and has cleared up any 
misperceptions that may have existed.

    The Chairman. Thank you. Mr. Davis, welcome.

  STATEMENT OF DAVID J. DAVIS, PRESIDENT AND GENERAL MANAGER, 
                        WPVI--CHANNEL 6

    Mr. Davis. Thank you, Senator McCain. Thank you to the rest 
of the Committee.
    The Chairman. Well, pull the microphone over in front of 
you. Thank you.
    Mr. Davis. Is that better?
    The Chairman. Thank you.
    Mr. Davis. I want to thank Senator Specter who came in. 
Senator Specter is one of our more informed attentive viewers. 
He certainly doesn't agree with everything we do every time, 
but he's been a great friend of this station, and I also 
acknowledge Senator Lautenberg, who I knew--I was his director 
during his first term in the Senate, and he knows our 
connection to South Jersey and has taken advantage of our 
studios in Trenton a number of times.
    You've got my written testimony, so I won't read it right 
now. I'd just like to talk as long as I can about two things 
that I'm very fond, of Channel 6 and the Greater Philadelphia 
region. We are owned by ABC, the same company that owns our 
network, but I do not just represent the hundreds of 
broadcasters, employees at Channel 6, but also the thousands of 
dedicated local broadcasts at our other nine television 
stations across the country.
    We all have a similar operating philosophy. Even though we 
don't have a group news director, group program director, we 
are independent, but we share some common causes. Our first 
priority is news. Let me take that back. Our first, second, 
third, fourth, and fifth priority is news. Two-thirds of our 
employees work in the news department, the rest work in some 
regard to support them.
    We produce over 30 hours of live local news per week. It's 
done right there at the television station. Senator Hollings, 
we are open 24 hours a day, 7 days a week. You're always 
welcome. The door is always open.
    Local news is supplemented by 30 hours per week of network 
news from ABC, which produces high quality programs like Good 
Morning America, Nightline, World News Tonight, and we benefit 
from that relationship.
    We also have a very active public affairs department. We 
produce 7 weekly shows. We locally program the prime access 
time period on Saturday. We have a magazine show, ``Prime 
Time,'' that highlights the positive accomplishments of 
schools, businesses, and human interest stories, followed by 
``Visions,'' a long-running program that highlights concerns of 
our many minority populations. We produce half-hour shows 
called ``Perspective New Jersey'' and ``Perspective Delaware,'' 
that focus on our issues in those states. Because we cover 
parts of three states, we have an obligation to those states.
    We also have in addition news bureaus in Trenton and the 
Jersey Shore. We have studio facilities in Trenton and in 
Wilmington, Delaware, better to serve those local communities 
and those cities.
    We also have the longest-running Hispanic theme show in the 
country, Puerto Rican Panorama, 33 years on our air. We 
produce, with the cooperation of the Archdiocese of 
Philadelphia, weekly mass on Sunday mornings. We also allow 
that time period to be used by other religions during their 
holiday periods. We produce shows weekly, quarterly, and 
annually for children and their parents, Perspective Youth, 
Children First, Fast Forward. We just finished our Best in the 
Class program. Every year we invite about 300 of our high 
schools to submit their best students, bring them all together 
at Longwood Gardens, tape a show of them, then we feature them 
in 60-second vignettes for the whole month of June, so every 
parent gets to see their child's picture on Channel 6.
    We do live interview shows Sunday morning, 8 a.m., take 
viewer call-ins, also an opinion show on Sunday mornings for 
the local opinion leaders to discuss issues.
    We're proud to be known as the debate station. Last 
election cycle we held debates not only for the general 
election but for the primary for the Pennsylvania Governor, the 
New Jersey Senator, and 13 Congressional districts. We've done 
DA's races, attorneys general races in Delaware.
    Last May in Philadelphia, we held 4 hour-long debates, some 
of those in cooperation with our sponsors, League of Women 
Voters, NAACP. We work with the Annenberg School at the 
University of Pennsylvania. I have a letter from Dean Jamieson 
of the Annenberg School that gives more explanation of how we 
work with Penn to better improve not just our debates, but our 
political coverage within our newscasts.
    We're proud to be the community station of major events. We 
just opened up the new Constitution Center in Philadelphia, the 
first museum dedicated to the Constitution. If you haven't seen 
it yet, it's a great facility. I think it's going to be a great 
national attraction.
    We did a prime time special, preempting the network July 3 
to preview that facility for our viewers, did a Liberty Medal 
ceremony where we honored Justice O'Connor in the morning, then 
we did a parade, fireworks, concert at night. We do that every 
year. For that, we did the pro cycling bike race, the largest 
bike race in the country, brings 200,000 people out in the City 
of Philadelphia. We cover that for 6 hours, preempt the network 
sports program that day.
    We love parades. We did do a lot of parades, because it's 
important. We serve a lot of different ethnic communities. We 
do the St. Patrick's Day Parade, we do the Puerto Rican Day 
Parade, we do the Pulaski Day Parade--you get about 12 people 
marching in the same direction, we'll be likely to cover it.
    [Laughter.]
    Mr. Davis. We enjoy doing that, and it reflects the effort 
of those communities to put on their best effort on those days.
    Thanksgiving Day Parade is the oldest Thanksgiving Day 
Parade in the country. It used to be Gimbel's. It was before 
Macy's. Then Gimbel's went out of business in 1987. The person 
that had my job then said, we'll do that parade. He hired four 
producers from Gimbel's, put them down on that first floor. 
That parade office is still there. He hired the bands, brought 
up floats, put that on every year as a benefit to the City of 
Philadelphia, and it's a great event.
    It creates goods for infants and mothers with the Girl 
Scouts. We have the biggest food drive of the Boy Scouts. If 
the Fire Chief were here, he'd say that our fire safety 
program--we give away 100,000 smoke detectors--has cut the fire 
death and injury rate in Philadelphia.
    We're proud of all those things. I heard Commissioner 
Powell talked about ascertainment. I was around when 
ascertainment was around. We do a little bit better than that. 
We have a standing Community Advisory Board made up of about 10 
members of the community. They're freely chosen and elected. 
They do their own choosing of who's on that Board. They meet 
every month. They invite leaders of the television stations, 
including myself, to their meetings and tell us what we're 
doing right and what we're doing wrong.
    I see my time is up. I would just like to say that you 
folks are going to make important decisions on media ownership 
in this country, and I respect that. I would just ask if you 
please not make any of that decision based on the fact that 
we're not good broadcasters just because we also happen to own 
the network.
    Thank you very much.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of David J. Davis, President and General Manager, 
                            WPVI--Channel 6
    Good Morning Chairman McCain, Senator Hollings and members of the 
Committee. Thank you for the opportunity to address your committee.
    My name is Dave Davis. I am the President and General Manager of 
WPVI, Channel 6, in Philadelphia, and I am here to represent the 
thousands of dedicated local broadcasters at WPVI and the other ABC 
Owned TV Stations.
    The ABC Owned stations are industry leaders in local news and 
community service. Anyone who tells you that an ABC Owned station is 
not committed to local service is not speaking the truth. Our 
commitment to localism is not the result of government regulation. We 
strive to be the most locally relevant station because we believe that 
is the surest path to commercial success. A station that is #1 in local 
news and community service will almost always rank among the most 
commercially successful stations in the market.
    WPVI was first licensed in 1947 to Walter Annenberg, whose family 
owned the Philadelphia Inquirer, among other media properties. In 1953, 
we became the first affiliate of the ABC network. In 1970, the station 
was sold to Capital Cities Communications, which grew to buy ABC in 
1985, and in 1995, The Walt Disney Company bought ABC.
    Even as the names on the license have changed, our operating 
philosophy through the years has stayed the same. We try very hard 
every day to be the best possible community television station for our 
viewers. That's a tall order, because there are 2.8 million television 
homes within our Nielsen-designated market. Besides Philadelphia, we 
cover seven other counties in southeastern Pennsylvania, the southern 
half of New Jersey, and the state of Delaware. We have a saying at the 
station that acts as our guide--``take care of the viewers, and 
everything else will take care of itself''. Let me explain how we try 
to do that.
    We try to provide the right combination of news, information, and 
entertainment programming. If you have a TV set with a rabbit ear 
antenna, you can sit there and watch Channel 6 twenty-four hours a day, 
seven days a week, and enjoy the most expensive programming in the 
television industry--for free.
    Our most important priority is news. We produce more than thirty 
hours per week of live, local news. More than half of our employees 
work in the news department, and many of the rest of us work to support 
the news programs. Our local news is supplemented by the ABC Network 
that provides more than thirty hours per week of national and world 
news. So during a normal broadcast day, on average, approximately half 
of our time is devoted to news.
    Although we have won numerous awards from industry peers, our most 
important judges are the viewers, and we are proud of the fact that 
they have made Channel 6 the leading source for news in our tri-state 
region, reaching more than three million people in a normal week.
    Of course, most weeks in the news business are not normal, so we 
frequently program news outside its normal time periods. Everyone at 
the station knows if there is an emergency or major even--anything that 
we think our viewers need to know now--we tell them. We will pre-empt 
the most popular syndicated or network programs to inform our viewers 
when we feel it is necessary, and those decisions are made at the 
station level, either by me or one of our department heads--NOT by 
anyone at the ABC Network. We have produced hours of continuous, often 
commercial-free news programming during weather emergencies, natural or 
man-made disasters, major elections, and times of civic celebration.
    In addition to news, we produce significant local programming from 
our public affairs department. We are one of the few stations in the 
country to locally program the prime access time period every Saturday, 
instead of using reruns of syndicated programs. Our viewers enjoy a 
half-hour magazine show--``Prime Time''--that highlights achievements 
of local people in their schools, communities or businesses. That's 
followed by ``Visions,'' a half-hour program designed to focus on 
issues important to the many minority communities in our region. Other 
weekly programs include ``Perspective New Jersey'' and ``Perspective 
Delaware'', interview shows with newsmakers in those states, produced 
at our Trenton and Wilmington news bureaus. In addition to news 
personnel, we maintain studios at those sites to better serve those 
areas. We also staff a news bureau at the Jersey shore.
    We produce weekly, monthly, and quarterly programs aimed at young 
people and their parents. We just finished our annual ``Best of the 
Class'' program, where we feature three hundred of the best high school 
students in our region in an hour-long prime access program, then 
during the month of June, we produce and air one-minute vignettes of 
every student. Of course, we let the proud parents know when their kids 
will be on Channel 6.
    We produce the longest running Hispanic-themed show in the 
country--``Puerto Rican Panorama'' has been on Channel 6 for 33 years. 
We produce a weekly Catholic mass on Sunday mornings, and substitute 
specials from other religions during their holiday periods.
    Later on Sunday morning, we air an hour-long live, local interview 
show to expand on major stories of the week, and take phone calls from 
viewers. We also have ``Inside Story'', a weekly panel of local opinion 
leaders giving their take on current events.
    We are proud of the fact that Channel 6 is known as the place for 
local political debates. In the most recent election cycle, we produced 
and aired hour-long, commercial free debates for both the primary and 
general election for Pennsylvania governor and New Jersey Senate. In 
2000, we held debates for New Jersey governor and statewide races in 
Delaware, and in the last Philadelphia mayor's race, we hosted four 
hour-long debates. For most of our debates, we partner with groups like 
the League of Women Voters, the NAACP, and the Chamber of Commerce. We 
have also hosted them at places like the College of New Jersey, Drexel 
University, and the University of Pennsylvania to give students more of 
an opportunity to see these debates in person. And like everything else 
we do, our debates are designed to attract viewers. We promote and air 
them in high-visibility time periods, like prime access. Right now we 
are working on two debates for the upcoming Philadelphia mayor's race. 
We also work with the Annenberg Public Policy Center and School for 
Communication at the University of Pennsylvania, both as a partner for 
political debates, and as a source for improving the quality of 
political coverage at the local level. A letter with more details from 
its director, Kathleen Hall Jamieson is attached to my testimony.
    If there is a big event in our region, we want to be part of it. We 
just finished six hours of live programming around Philadelphia's 
Fourth of July celebration, starting with the Liberty Medal ceremony in 
the morning, and the parade, concert, and fireworks in the evening. 
This is something we do every year. This year we also televised the 
opening of the National Constitution Center, including a prime time 
special on July 3 to preview the museum for our viewers. The month 
before, we produced six hours of live coverage of the big pro bike race 
that circles Philadelphia. Also in June, we feature the non-profit 
Philadelphia Zoo in a half-hour program to highlight its attractions. 
In March, we previewed the annual Philadelphia Flower Show in an hour 
prime access special, and we are now preparing to produce coverage of 
the Marian Anderson award ceremony in November.
    And we do love a parade. One of our largest productions each year 
is the city's Thanksgiving Day Parade, the oldest in the country. It 
started out as the Gimbel's parade, but when that department store went 
out of business in 1987, Channel 6 stepped in to produce the parade. We 
actually have a parade office at the station, because it is a year-
round job to bring in the bands, floats, balloons, and other 
attractions in the parade. We also broadcast the annual Puerto Rican 
Day parade, the Pulaski Day parade, the St. Patrick's Day parade, and 
the Columbus Day parade, each live for two hours, usually at the 
expense of pre-empting network programming.
    In addition to special programs, there are other station efforts 
during the year to partner with non-profit organizations. We produce a 
fire safety campaign every January to educate viewers, and with the 
cooperation of local fire departments, Channel 6 has given away more 
than 100,000 smoke detectors and 50,000 batteries. Philadelphia Fire 
Commissioner Harold Hairston gives us credit for helping to cut the 
city's fire death and injury toll during the program's ten-year 
history. With the local Boy Scouts, we operate the largest single food 
drive every year for the Philadelphia Food Bank. With the Girl Scouts, 
we collect more than 40,000 items for infants and new mothers in our 
annual Baby Bundles campaign. With the American Cancer Society, we help 
raise awareness and funding for breast cancer research.
    In the unlikely event that we would neglect any of our commitment 
to our local communities, we have a built-in safeguard. For more than 
thirty years, Channel 6 has maintained a Community Advisory Board, made 
up of about ten community members and leaders, representing different 
ethnic groups and geographical areas. They are independently elected 
for several year terms, and meet on a monthly basis to discuss station 
programming and employment issues. They share those discussions with 
the department heads, and me and we value their input.
    So that is a glimpse of how we operate WPVI-TV. But I also 
represent today the other nine ABC Owned Television Stations and from 
them you would hear the same speech. Even though we have no group 
program director, no group news director, no shared theme music, no 
shared technical hub--we do have a similar operating formula. Do what 
is in the best interest of your local communities, and the company will 
back you up.
    All of our stations invest heavily in local news and local 
programming. That IS our core operating philosophy. Attached to my 
testimony are typical and illustrative examples of the outstanding 
local service rendered by each of the ABC Owned stations. Let me 
mention a few highlights. KTRK presents the 4th of July celebration in 
Houston, does the rodeo parade, and carries a large commitment of 
public affairs programming. KFSN in Fresno just pre-empted prime access 
for a one-hour town hall meeting on air quality in the Central Valley 
of California. Maybe the best example of what it means to be an ABC 
owned station comes from the two stations we most recently purchased, 
WTVG in Toledo, and WJRT in Flint. On its first day as an ABC owned 
station, WTVG bought more than a million dollars worth of additional 
newsgathering equipment, and within a year, added twelve hours of local 
news per week. Let me say that again, after ABC bought this local 
Toledo station; the station added 12 hours of additional local news 
each week. Our manager there pre-empts the ABC network to carry the 
Toledo Mud Hens baseball game on opening day, Bowling Green football, 
and political debates. And after ABC bought WJRT in Flint, that station 
added similar amounts of local news, and invested more than seven 
million dollars in a new broadcast facility in a redevelopment area of 
Flint.
    So now the question is--why do ABC owned stations have such a 
strong commitment to local service? We certainly take seriously the 
service to community standard in our license, but I think you would 
agree that our record of outstanding local community service goes way 
beyond legal license requirements. Pardon me, but forget the 
government. We have to answer to our viewers. And we have to do that 
every day. When they have more than a hundred channels to choose from, 
and we want them to choose us, we think the best way to do that is to 
provide the best possible service. We don't get any subscriber fees, or 
have a dual revenue stream--one hundred percent of our revenue comes 
from advertising that is totally dependent upon viewership. If people 
don't watch, we don't get paid, and if you aren't the best local 
station, people don't watch. It's that simple.
    Mr. Chairman, I have been going to work at a local television 
station every day for the last 26 years, assigned to a lot of different 
jobs. Sometimes I worked at a station that was co-owned with a network 
and sometimes I didn't. The feeling towards my job never changed. The 
most enjoyment came from knowing that you were helping to supply 
something of value to lots of people-valuable news information, 
positive public service programming, a chance for local companies to 
market their products, and just good, solid, quality entertainment, 
available free to all the homes in our community.
    You are going to make decisions on media ownership in this country 
based on your collective wisdom, and I respect that. I am only asking 
you to please not base any decision on the false premise that Network 
Owned stations like Channel 6 in Philadelphia do not do their best to 
serve their local community.
    Thank you again for the opportunity to speak to you today, and I 
would be glad to try and answer any of your questions.
                                 ______
                                 
                         The Annenberg Public Policy Center
                                 University of Pennsylvania
                                    Philadelphia, PA, July 18, 2003
Mr. Dave Davis,
General Manager,
WPVI,
Philadelphia, PA.

Dear Dave,

    In the process of clearing out fourteen years of files in the 
dean's office, I realized that I had one called ``WPVI'' that is filled 
with evidence of your station's dedication to public service and 
willingness to assist us in our scholarship. For both, my colleagues 
and I are grateful.
    At a time when access to much of political discourse comes at the 
price of purchasing cable, WPVI's commitment to political access 
deserves special notice. Whether audiences reward you with ratings or 
not, WPVI anchors, carries, and promotes debates by candidates for the 
Senate and governorships from each of the states in the tri-state area. 
In the late afternoon time slot, you also have pioneered alternative 
ways of offering detailed looks at candidate positions on issues.
    You also have sought ways to give the citizens of Philadelphia a 
stake in political debates. When the Student Voices project was 
launched in the Philadelphia high schools four years ago, it was WPVI 
that sponsored a debate that permitted students to question the 
candidates. It was WPVI that aired a debate in which citizens from the 
Philadelphia Inquirer's Citizen Voices project served as questioners. 
As important was the fact that the station promoted both. 
Unsurprisingly, WPVI carried the Liberty Medal ceremony live, as well.
    On a personal note, when, critique in hand, scholars at the 
Annenberg School or Policy Center have asked to talk with you about the 
station's work, they have been welcome in your office. You've also 
helped us search for solutions. When we thought there might be a more 
effective way to present political news, instead of watching bemused as 
we struggled to create instances of it,. your anchors and reporters re-
taped stories for us to test, Without them we could not have generated 
the research reported in Spiral of Cynicism: The Press and the Public 
Good.
    So, if you have a file marked ``Annenberg School'' filled with 
critiques, please place this fan letter ahead of them as a reminder 
that, despite our cantankerous nature, some of the scholars in your 
audience are grateful that WPVI sees its viewers as citizens as well as 
consumers.
            Sincerely,
                                     Kathleen Hall Jamieson
                                                         Professor,
                                    Annenberg School for Communication,
                                                          Director,
                                        Annenberg Public Policy Center.
                                 ______
                                 
          ABC-Owned Television Stations Committed to Localism
KABC-TV Glendale, California
    KABC-TV's tradition of public service involves all of Southern 
California's diverse communities. From its 34 hour per week of locally 
produced news coverage to its decades of support to organizations 
throughout the region, KABC-TV's community efforts are proposed by the 
local station, approved by the local station, planned by the local 
station, and implemented by local station personnel. This commitment to 
the community has forged its stature in the region as a successful and 
involved local broadcaster.
    KABC-TV has created long-term community programs that have 
benefited millions of local viewers. It started ``The Spark of Love Toy 
Drive'' to provide a happy holiday season for underserved families, 
implemented ``Women's Health Month'' to raise funds for and awareness 
of women's health issues and for 14 years have run the KABC-TV Kids 
Care Fair to provide free health screening and immunizations for 
underserved children and their families.
    Besides its ongoing community projects, KABC's commitment to local 
viewers is evident in their regular programming schedule. KABC-TV 
produces more local news than any other station in the Southern 
California viewing area. KABC-TV Eyewitness News has regular features 
every week highlighting the good work of community organizations and 
volunteers. The station also produces local programming and special 
shows that serve the community, such as ``Vista L.A.,'' a weekly 
magazine show that highlights the Latino community in Southern 
California.
KFSN-TV Fresno, California
    KFSN-TV is the leading television station within the six counties 
of Central California and fulfills its responsibility to those 
communities by compiling a long and honorable record of news coverage 
and public service to its various constituencies.
    Producing and airing 22 hours of local news every week, KFSN has 
received numerous honors and awards. The station recently received two 
RTNDA ``Edward R. Murrow'' Awards and an Emmy Award for best newscast. 
It has also produced numerous specials beneficial to their viewing 
audience such as ``The Air We All Breathe,'' an hour-long special 
examining the air quality issues of the Central San Joaquin Valley and 
``Valley Focus,'' a weekly 30-minute program featuring community 
organizations, issues and events.
    KFSN has been a major provider of video presentations for local 
non-profit organizations. These presentations are produced at no cost 
and are used to raise funds and awareness for these community 
organizations. It has produced videos for Children's Hospital Central 
California, United Cerebral Palsy of Central California, the Marjaree 
Mason Center, and the Fresno County Office of Education ``Educator of 
the Year'' events. KFSN has also aired a variety of Public Service 
Announcements on topics as diverse as Black History Month and Drug-Free 
America.
KGO-TV San Francisco, California
    KGO-TV is proud of its strong relationship with the market it 
serves. Annually, it dedicates millions of dollars in airtime and 
production costs to provide non-profit organizations as wells as civic 
organizations a strong voice in their community. KGO-TV provides 
regular public service time for thousands of Public Service 
Announcements and donates a large amount of high profile airtime and 
productions to many local events and non-profits.
    KGO-TV produces 4.5 hours per day and 27 hours per week of local 
news. In the past 18 months, it has interrupted regularly scheduled 
programming 110 times for a total of 24 hours and 15 minutes of 
additional breaking news coverage. In addition to the daily local 
newscasts, KGO-TV also produces 2 local half-hour programs per week and 
a wide variety of local programs from sports shows to people profile 
shows to town hall meetings to ``fun'' events in the area.
    A truly unique community based effort of KGO-TV is ``ABC-7 
Listens,'' an expansive effort to solicit viewers' thoughts, opinions 
and news story ideas through feedback from contacting the station or 
through monthly town meetings. KGO is also known throughout the 
industry for its strong investigative unit, The I-Team, which regularly 
breaks big news stories in the market. They're also known for their 
very strong consumer unit. Through ``7 On Your Side,'' a team of 
employees and volunteers solve thousands of consumer complaints every 
year and many consumer stories have led to legislative action.
KTRK-TV Houston, Texas
    KTRK-TV, ABC-13, has long believed that local community involvement 
is core to the station's overall market success. Annually the station 
strives to offer the best local news coverage as well as showcasing 
Houston's unique special events. The most watched news station for over 
two decades, ABC-13 produces more regularly scheduled hours of news 
than any other Houston TV station--34\1/2\ hours each week.
    ABC-13's top newscasts are complimented by more special event 
programming than anywhere else. In 2003 alone, ABC-13 will produce more 
than 30 hours of special event programming and will be the only Houston 
television station providing live coverage of the Houston Marathon, 
Houston's Rodeo Parade, The Rodeo's scholarship fundraising art and 
steer auctions, and Houston's 4th of July Concert and Fireworks. It 
will also once again produce and broadcast the Houston Texans four 
preseason NFL football games and a weekly half hour wrap-up show on 
Sundays during the NFL season.
    ABC-13's contributions to the community extend beyond programming. 
ABC-13 helped collect over 1,000,000 pounds of food and $50,000 in 
contributions to help feed hungry families last December during the 
station's annual Holiday Food Drive. The station's annual blood drive 
netted nearly 1,000 pints for the Houston Blood Center and their annual 
``Caring Cradles City Wide Baby Shower'' brings in thousands of dollars 
worth of baby items for March of Dimes to distribute to families in 
need.
WABC-TV New York, New York
    As the broadcaster of 28.5 hours of live, local news every week, 
WABC is the Tri-State's largest TV news team and has the biggest live 
newsvan fleet. Daily local shows such as ``7 On Your Side,'' address 
the needs, interest and concerns of communities throughout New York, 
New Jersey and Connecticut. The WABC news team has recovered untold 
thousands of dollars for local consumers through solving legal problems 
and exposing countless frauds, scams and schemes.
    The station regularly organizes high-profile public service 
campaigns, reaching out to tri-state viewers and community 
organizations where the need is great and timely. Highlights of its 
numerous outreach activities include a schedule of about 1,100 public 
service announcements each month. Employees at the station also 
volunteer in the community through station-organized efforts such as 
``Principal for a Day.'' It has also held workshops such as a ``Smarter 
Surfing'' Internet workshop, offered to viewers and community groups 
free-of-charge.
    WABC-TV has a commitment to excellence built on the foundation of 
social responsibility. The station's outreach efforts are linked to 
public service on and off the airwaves. Examples of WABC-TV's 
commitment to public affairs programming and campaigns include ``Like 
It Is,'' a one-hour program that takes and in-depth look at various 
topics of concern on the tri-state areas African-American community and 
``Operation 7: Save a Life,'' a one-hour special focusing on the work 
of area fire fighters.
WJRT-TV Flint, Michigan
    WJRT-TV is the most watched television station in the Flint-
Saginaw-Bay City, Michigan television market. The station has long been 
recognized as a community leader because of their commitment to support 
community organizations, not-for-profit agencies and local events of 
importance and interest to the people living in Mid-Michigan.
    Since ABC's acquisition of WJRT in 1995, they have underwritten 
$10.8 million in technical and news gathering capital investments and 
$5.6 million in a building expansion and renovation. ABC has also 
invested $4.8 million in the new digital high definition transmission 
system (HDTV), making it the first and still the only Mid-Michigan 
television station to offer full HDTV service to Mid-Michigan viewers. 
Since 1995, WJRT has also added 19 half hours of news programming per 
week and daily broadcast four and one-half hours of local news.
    WJRT-TV also locally produces and broadcasts public affairs and 
special programming such as the ``Life From a Teen's Perspective'' 
series and the Children's Miracle Network Telethon. Employees of WJRT 
also have a personal commitment to the local community. Over the past 
two years, WJRT staff have served on more than 40 different boards and 
working committees, including United Way, American Red Cross, Habitat 
for Humanity and Big Brothers and Big Sisters. The station also works 
to regularly support and participate in special events for not-for-
profit agencies through on-air promotion, news interviews, serving as 
master of ceremonies and organizing volunteers.
WLS-TV Chicago, Illinois
    Since March 1986, WLS-TV has dominated the Chicago local news 
market. From sign-on to sign-off, ABC7 is the most watched station in 
the market including all key newscasts. The station leads the market in 
local and breaking news coverage, as well as special local programming 
and community involvement. This is a direct result of their more than 
30 hours of local news every week, broadcasting more than 100 hours of 
local programming per year, running an average of 600 PSAs per year and 
offering direct financial support through cash donations to local 
community groups and charitable organizations.
    Converted in August 2002, WLS-TV now runs a fully digital, tapeless 
editing and playback system. The newscasts provide viewers with 
important local, national and international breaking news events as 
well as on-going coverage of local and state politics, weather and the 
day in sports. Additional information is also provided through special 
segments such as the daily ``HealthBEAT'' segment that provides 
perspective on medical breakthroughs and the latest health-related 
information available to Chicagoans.
    In addition to news, ABC7 produces more than 30 compelling, 
entertaining, and thoughtful local television programs for their 
viewers. The station broadcasts more than 100 hours of local specials 
per year, including the award-winning weekly program, ``190 North'' and 
the long-running ``Chicagoing,'' among many others.
WTVD-TV Raleigh, North Carolina
    WTVD is an organization distinguished by dedication and 
responsiveness to its viewers and by a strong appreciation of the 
diversity within its community. WTVD's hands-on public service 
projects, daily newscasts, and quality programming demonstrate it's 
commitment on a daily basis. Serving 22 counties, WTVD's Eyewitness 
News provides 4.5 hours of local newscasts daily Monday through Friday 
with one hour on Saturday and three hours on Sunday. It also frequently 
interrupts network and syndicated programming to broadcast bulletins on 
severe weather and local news.
    In addition to daily interaction with viewers by phone and e-mail, 
WTVD has developed a community outreach initiative called ``Contact ABC 
11'' where the News Director, General Manager and other top managers of 
the station gather with viewers to listen to their thoughts, opinions 
and news story ideas. It also has extensive involvement with the 
community through a variety of service projects such as the ``ABC 11 
Blood Drive'' and ``Best of the Class'' where it produced and aired 30-
second vignettes to recognize valedictorians from high schools in it's 
viewing area.
    WTVD's commitment to serve all segments of the community is evident 
through its work with the station's Minority Advisory Committee. This 
committee consists of 15 African-American community leaders who meet 
bi-monthly with station management to share their thoughts and ideas. 
It has also established a Latino roundtable made up of 9 community 
leaders who share information and story ideas to ensure the station 
provides accurate, inclusive, and informative news and information to 
it's viewers.
WTVG-TV Toledo, Ohio
    WTVG-TV provides more news, more local specials, more local sports, 
more community affairs, more local parades and has won more awards than 
any other station in town. Each week WTVG provides twenty-six and a 
half hours of regularly scheduled news--more than any other Toledo 
television station. It also frequently produces special reports on 
major breaking news stories and emergency weather information. This 
commitment has resulted in numerous prestigious awards including the 
RTNDA ``Edward R. Murrow Award'' for Outstanding News Operation.
    The station's broadcasts often include exclusive investigative 
material that benefits the public. It has assisted people with consumer 
problems, identified dangers posed to the public through unscrupulous 
business practices and educated viewers about threats to public health. 
WTVG-TV has also assisted police as they search for criminal suspects 
or seek public help in solving crimes. Action News also gives viewers 
an opportunity to interact with guest experts on a daily basis during 
their noon news segment. Its commitment to responsible, complete and 
accurate coverage also includes the area's only weekly community 
affairs program that features detailed discussions about local matters 
of public importance.
    WTVG's commitment to the community goes beyond its coverage of 
news. Each year, it produces and broadcasts several specials addressing 
concerns of Northwest Ohio and Southeast Michigan and airs ``fun 
events'' such as the ``Foodtown Holiday Parade and Preview'' and the 
``Fiesta Championship Pregame.'' WTVG also responds to local concerns 
by helping to raise hundreds of thousands of dollars through its annual 
broadcast of the 21-hour Jerry Lewis Labor Day Telethon. It also brings 
viewers the annual Children's Miracle Network Broadcast and educates 
viewers on how they can protect the environment through a station-wide 
campaign during April and May for Earth Day.
WPVI-TV Philadelphia, Pennsylvania
    WPVI-TV has been serving the Delaware Valley since 1947. The 
leading station in the region, Channel 6 continues to build on its 
long-standing commitment to local viewers through an emphasis on local 
news and information, public affairs, community projects and special 
local programming.
    Action News is the cornerstone of WPVI-TV's commitment to the 
community. Encompassing thirty hours of local news every week, Action 
News is the leading news programs with it daily newscasts reaching an 
average of 1.4 million households per week. Along with its 
Philadelphia-based newsroom, Action News has three regional news 
bureaus to allow the most complete coverage of the tri-state area. 
These bureaus, and their studios, also serve as the sites for public 
service programs and debates relevant to that particular state.
    WPVI also continues to have one of the most active public affairs 
departments in the country, with a staff dedicated solely to producing 
local programming, public service announcements and regional specials. 
Examples of public affairs programming include ``Prime Time Weekend,'' 
a half hour magazine-format program addressing the positive aspects of 
a variety of topics and ``Inside Story,'' a weekly half-hour program 
featuring local opinion-leaders commenting on issues and events of the 
week. WPVI also has an equally strong commitment to public service 
announcements, airing approximately 100-150 PSAs every week.
    In addition to a commitment to public service initiatives, WPVI-TV 
has an equal dedication to broadcasting big events in the Delaware 
Valley, allowing all residents to have equal access to the shared 
traditions of the region. The greatest example of this is the annual 
Thanksgiving Parade, the longest running Thanksgiving Day parade in the 
Nation. On the verge of being lost to the city in 1986, this tradition 
was rescued by WPVI, which now produces the parade, as well as 
broadcasts it, live every Thanksgiving morning.

    The Chairman. Thank you, Mr. Davis. Dean Kaplan.

STATEMENT OF DEAN MARTIN KAPLAN, DIRECTOR, USC ANNENBERG NORMAN 
   LEAN CENTER AND ASSOCIATE DEAN, USC ANNENBERG SCHOOL FOR 
                         COMMUNICATION

    Mr. Kaplan. Thank you, Mr. Chairman, for the invitation to 
testify here today. My name is Martin Kaplan. I'm the Associate 
Dean of the Annenberg School for Communication at USC, and my 
comments this morning, while they report on academic research, 
also draw on experience in the trenches of politics, news, and 
entertainment. I spent 8 years here in Washington, where I was 
chief speech writer to Vice President and then Presidential 
candidate Walter Mondale, so I know something from the 
candidate's point of view about how hard it is to earn media 
coverage on television. I've also had stints as a journalist, 
in print, on television and radio, and for 12 years I worked at 
the Walt Disney Company as an Executive Screenwriter and 
Producer, so I also know something from the communication 
company's point of view about the need to compete in the 
marketplace.
    Today, most Americans say they get most of their news from 
local television. Is local TV news providing voters the 
information they need to know? A broadcast license is a 
contract between media owners and the public. Serving the 
public interest does not mean maximizing profit, however happy 
that may make owners and shareholders. Nor does it mean 
sponsoring charity benefits or blood drives, however happy that 
may make communities. Serving the public interest, as the 
Supreme Court said in Red Lion, means that the broadcaster must 
give adequate coverage to public issues. That's what media 
owners promise in exchange for their licenses.
    Since 1998, my colleagues and I have been studying campaign 
and election coverage on local television. In the 2000 
campaign, we studied all the programming from 5 p.m. to 11:30 
p.m., the interval, Senator McCain, in the bill you'll be 
introducing, to look for candidate discourse, and we did that 
in 58 markets, and what we discovered was that the average 
amount of candidate discourse on stations in this country was 
74 seconds, all candidates, dog-catcher to President, put 
together.
    In 2002, we set out to learn how much and what kind of 
election news most Americans were actually exposed to. We 
recorded and analyzed more than 10,000 top-rated early and late 
evening half-hour news broadcasts on 122 stations in the top 50 
U.S. media markets over the 7 weeks leading up to Election Day. 
Again, we counted all races at all levels.
    What did we find? This is how well the current marketplace 
is doing. Almost 6 out of 10 top-rated news broadcasts 
contained no campaign coverage whatsoever. Most of the campaign 
stories that did air were broadcast during the last 2 weeks of 
the campaign. Nearly half the stories that aired were about 
horse race and strategy, and not about issues. The average 
campaign story was less than 90 seconds. Fewer than 3 out of 10 
campaign stories included candidates speaking. The average 
sound bite was 12 seconds.
    Even when counting U.S. House races as local elections, 
only 14 percent of all the campaign stories in our sample 
focused on local races, races for the State legislature, 3 
percent, regional, county, or city elections, 4 percent, and 
campaign ads outnumbered campaign stories by nearly 4 to 1, so 
while there are some encouraging exceptions, most local 
stations largely ignored the 2002 campaign on their top-rated 
broadcasts.
    At the same time, those stations took in a recordbreaking 
$1 billion of political advertising revenue. Among the 122 
stations we studied, there's a wide range of performance. For 
example, 10 stations covered no local races at all during their 
top-rated half-hours. Five stations devoted more than half 
their political coverage to local ratings.
    What explains disparities like these? They can't be 
attributed to differing local appetites for public issues, 
because these stations can exist side by side. In Greenville, 
South Carolina, for example, WSPA, a Media General station, 
aired 146 campaign stories at the top end of our country in our 
sample, while WLOS, the Sinclair station, aired 40. The average 
candidate sound bite at the Sinclair Station was 7 seconds, 
which put it in the bottom 10 percent of our national sample, 
while the Media General sound bite averaged 36 seconds, at the 
top of the country.
    Does ownership make a difference? Our sample wasn't 
designed to study that, but it does include stations with large 
owners, medium owners, and small owners, and you can make a 
comparison of them. What we discovered when we did that was 
that large owners in our study carried a lower percentage of 
local campaign news than the national average, while the small 
and midsized owners carried a higher percentage.
    What causes stations to excel? A commitment by ownership 
leaders can count for a lot, as demonstrated by the 10 Hearst-
Argyle stations in our study, which were impressively head of 
the pack, and the priorities of individual station managers and 
news directors can also make a difference, but across the 
country, the murderous pressure for ratings has largely trumped 
every other goal.
    Politics is ratings poison. This belief, which apparently 
does not extend to the airing of paid political ads, is 
promoted by the television news consulting industry, whose 
advice dominates local decisions. In my view, these consultants 
are selling dangerous nonsense. Good reporters working for good 
managers can make politics and public affairs just as 
compelling to audience as news about celebrity crimes or 
teasers for prime time voyeurism. Let's not blame the audience 
for what appears on local television.
    Programmers aren't just delivering what people want, they 
are accomplices in manufacturing that desire. Americans aren't 
just consumers. We're also citizens. Broadcasters have more 
than an obligation to make money and win Nielsen wars. They 
have an obligation to inform us about public issues. That's 
what they promise in order to get their licenses. Today, the 
ability of Americans to get the information they need from the 
sources they turn to most about some of the most important 
choices they face, that ability depends on a marketing culture 
that puts sensationalism ahead of substance and dollars head of 
democracy. Surely Americans deserve better from the industry 
they've entrusted with the airwaves, and from the agency 
they've entrusted with monitoring it.
    Thank you very much.
    [The prepared statement of Mr. Kaplan follows:]

   Prepared Statement of Dean Martin Kaplan, Director, USC Annenberg 
    Norman Lean Center and Associate Dean, USC Annenberg School for 
                             Communication
    Thank you, Mr. Chairman, for the invitation to testify. The 
question I want to try to answer today is this: Under current 
legislation and current FCC regulations, what kind of job are local 
television stations doing in fulfilling their public interest 
obligations?
    More than two centuries ago, Thomas Jefferson said that the 
strength of our democracy would depend on how well-informed the 
American electorate is. Today, most Americans say they get most of 
their information from local television news. Is local TV news actually 
telling voters what they need to know? How well are local broadcasters 
living up to the public interest promises they made in order to get 
their licenses?
    My answer to these questions is based on academic research. My 
academic background includes a summa cum laude from Harvard College, a 
graduate degree from Cambridge University, and a Ph.D. from Stanford. 
I'm now associate dean of the Annenberg School at the University of 
Southern California, one of our Nation's leading schools of 
communication and journalism.
    But I have experience in three other realms that also bear on my 
testimony.
    My professional background includes eight years here in Washington, 
where I was chief speechwriter to Vice President Walter F. Mondale, and 
also his deputy presidential campaign manager. So I know something from 
the candidate's point of view about the challenges of earning media 
coverage on television.
    I've also had stints in print and broadcast journalism. I've been a 
columnist, feature writer, and editor at The Washington Star; a regular 
contributor to All Things Considered and Marketplace on public radio; 
and a commentator on the CBS Morning News. My career also includes the 
entertainment industry. For twelve years I worked at the Walt Disney 
Studios, both as a senior motion picture executive, and as a 
screenwriter and producer. I believe that entertainment--the need to 
grab and hold audiences--has come to dominate every other realm of 
contemporary American life, for better and for worse, from news and 
politics to education and religion. Studying the impact of 
entertainment on society is the mission of the Annenberg School's 
Norman Lear Center, which I direct.
    So my comments this morning, while they report on empirical 
research I've done, also reflect some first-hand experience in the 
trenches of politics, journalism, and show business.
    Since the Radio Act of 1927, the possession of a broadcast license 
has been a contract between media owners and the public. In order to 
use the electromagnetic spectrum, which belongs to the public, the 
broadcaster promises to serve the public interest. From then to now, 
serving the public interest does not mean maximizing profit, however 
happy that may make owners and shareholders. Nor does it mean 
sponsoring charity benefits or street fairs, however happy that may 
make communities. Serving the public interest, as the Supreme Court 
said in Red Lion v. FCC, means that ``[t]he broadcaster must give 
adequate coverage to public issues.'' Giving adequate coverage to 
public issues is what media owners promise the public to do in exchange 
for getting their licenses.
    Since 1998, my colleague Dr. Matthew Hale and I have been 
investigating what kind of attention broadcasters have been paying to 
public issues. In particular, we've been looking at the quantity and 
quality of campaign and election coverage on local television.
    This research is not a snap to do. Broadcasters are not required to 
keep tapes of their news programming or time logs of what they cover. 
Under current FCC regulations, all that stations must do is maintain in 
their offices ``a list of programs that have provided their most 
significant treatment of community issues.'' These lists are next to 
useless for empirical research. The FCC's single study of ``The 
Measurement of Local Television News and Public Affairs Programs'' 
under its current ownership rulemaking illustrates this inadequacy. FCC 
researchers watched not one minute of local news or public affairs 
programming. Instead, they simply added up the raw number of minutes 
that stations labeled news or public affairs on their broadcast 
schedules. No matter that anyone who has actually watched local news 
knows how much of it is given over to empty happy talk, cross-promotion 
of network entertainment, and coverage of serial murders half a 
continent away. No matter that much public affairs programming airs not 
when ratings are high, but when only insomniacs are watching. As a 
proxy for quality, FCC researchers counted the number of awards given 
by members of an industry trade group, the Radio and Television News 
Directors Association, to itself, and by a journalism school (the 
DuPont Silver Batons at Columbia). If more industry votes go to network 
owned-and-operated stations than to other stations, does that really 
make the O&O's better? Three-quarters of the Silver Batons the FCC 
counted went to individual reporters and producers for individual 
pieces, not to stations, and all the awards to stations were given for 
specific stories. If the DuPont jurors aren't pretending to compare the 
quality of one station's total news programming with another, why 
should the FCC? Yet this is the study that the FCC Chairman frequently 
cites as justification for lifting the ownership caps.
    In fact the only way to conduct scientific research on the content 
of local news and public affairs coverage is to get people in each 
market being studied to record that programming, or to purchase it from 
commercial vendors, and then to have analysts log and code every single 
broadcast. That's what we've been doing.
    This is the third nationwide study we have conducted. In 2000, we 
studied local news campaign coverage both in the primaries and in the 
general election. That research, funded by the Ford Foundation, came in 
the wake of the recommendation of the Presidential Advisory Commission 
on the Public Interest Obligations of Digital Television Broadcasters, 
co-chaired by CBS president Leslie Moonves and American Enterprise 
Institute resident scholar Norm Ornstein. Their proposal was a 
voluntary five minutes of candidate-centered discourse on each station, 
on each night between 5 p.m. and 11:30 p.m., for the last 30 days 
before each election. To see how that voluntary standard was working on 
selected stations, we taped all news coverage between those times in 
the month before Election Day. We counted candidate-centered discourse 
under a generous definition, which included issue-centered stories, and 
we counted all candidates for all offices at every level, dogcatcher to 
president.
    We did the study twice--in the primaries, and in the general 
election. In the primaries, we studied 19 top-rated stations in 11 
markets around the country. Two groups of stations emerged. Typical 
stations--16 of the 19--aired an average of just 39 seconds of 
candidate discourse a night. Only three stations aired over 3 minutes a 
night, and two of them included New Hampshire in their markets. (The 
study can be found at http://www.learcenter.org/pdf/tvnews.pdf.)
    During the 2000 general election, we expanded our sample to include 
74 stations in 58 markets. Twenty-three of those stations had made a 
public commitment to the voluntary five-minute standard; we found that 
they aired an average of 2 minutes and 17 seconds of candidate 
discourse a night. The remaining 51 stations, which had been silent on 
the voluntary standard, aired an average of 45 seconds of candidate 
discourse a night. All candidates, all races, all evening, all month: 
45 seconds a night. (The study can be found at http://
www.learcenter.org/pdf/campaign
news.pdf.)
    By 2002, the five-minute-a-night voluntary goal had all but 
disappeared from discussion. The public interest obligation has today 
essentially been entrusted to an unregulated and unmonitored market. So 
in this most recent campaign, we set out to learn how much and what 
kind of election news most Americans were actually exposed to in that 
marketplace. Our research was funded by the Pew Charitable Trusts, and 
done in collaboration with Professor Ken Goldstein of the University of 
Wisconsin-Madison. (Our report can be found at 
www.localnewsarchive.org/pdf/LocalTV2002.pdf.)
    We recorded and analyzed more than 10,000 top-rated early-and late-
evening half-hour news broadcasts on 122 stations in the top 50 U.S. 
media markets over the seven weeks leading up to Election Day. This 
representative national sample is the most ambitious quantitative study 
of local news coverage of politics ever undertaken. Not only were the 
stories logged and coded; those video clips have also been archived 
online on a unique searchable database, at www.localnewsarchive.org, 
which is now available to any registered user.
    Here is some of what we found in 2002. This is the how well the 
marketplace is actually doing at fulfilling the public interest 
obligation of broadcasters:

  <bullet> Only 44 percent of the more than 10,000 broadcasts we 
        studied contained any campaign coverage at all. In other words, 
        almost six out of ten top-rated news broadcasts contained no 
        campaign coverage whatsoever.

  <bullet> Most of the campaign stories that did air were broadcast 
        during the last two weeks of the campaign.

  <bullet> Nearly half of the stories that aired were about horse race 
        or strategy, and not about issues.

  <bullet> The average campaign story was less than 90 seconds.

  <bullet> Fewer than three out of ten campaign stories that aired 
        included candidates speaking, and when they did speak, the 
        average candidate sound bite was 12 seconds long.

  <bullet> Even when counting U.S. House races as local elections, only 
        14 percent of all the campaign stories in our sample focused on 
        local races. Races for the state legislature only accounted for 
        three percent of the stories, and stories focused on regional, 
        county or city offices made up only four percent of the 
        stories.

  <bullet> Campaign ads outnumbered campaign stories by nearly four to 
        one. While little more than four out of ten of the broadcasts 
        analyzed contained at least one campaign news story, eight out 
        of ten of those broadcasts contained at least one campaign ad. 
        Just seven percent of the broadcasts analyzed contained three 
        or more campaign news stories, while almost half of these same 
        broadcasts contained three or more campaign ads.

    So what kind of job are local stations doing to fulfill the public 
interest promises they made when they applied for their licenses? If 
you look at the campaign coverage they provided in 2002, the answer is 
grim. While there are some encouraging exceptions, most local 
television stations largely ignored the 2002 campaign on most of their 
top-rated broadcasts. At the same time, those stations took in a 
record-breaking billion dollars of political advertising revenue. It is 
striking that while general managers and news directors often fret that 
covering politics may be an audience turnoff, they have no compunctions 
about barraging that same audience with political ads.
    Among the 122 stations we studied in 2002, there is of course a 
wide range of performance. Some stations aired a campaign story on less 
than 20 percent of their top-rated half-hours; other stations had 
campaign stories on more than 70 percent of those broadcasts. Some 
stations spent only 1 percent of this most-watched news time on 
campaigns; other stations spent as much as 9 percent. On some stations, 
an average campaign story was well over two minutes long; on other 
stations, it was just 40 seconds. Ten stations covered no local races 
at all during their top-rated half-hours; five stations devoted more 
than half their political coverage to local races. One station's 
average candidate sound bites were over half a minute long; another 
station's sound bites averaged just 4 seconds. One station ran no 
stories about issues; on another station, 75 percent of the campaign 
stories were about issues or adwatches.
    What explains disparities like these?
    They can't be attributed to differing local appetites for the 
coverage of public issues, because these station differences can exist 
side by side in the same communities. In Greenville, South Carolina, 
for example, WSPA, a Media General station, aired 146 campaign stories 
on their top-rated early and late half hours of news during the seven 
weeks before Election Day, at the top end of the country in our sample, 
while WLOS, a Sinclair station, aired 40. The average candidate sound 
bite on the Sinclair station in Greenville was 7 seconds long, which 
put it in the bottom 10 percent of our national sample, while the Media 
General station candidate sound bite averaged 36 seconds, at the top of 
the country.
    Does ownership make a difference in campaign coverage? Our 122-
station sample wasn't designed to study that. But our sample does 
include 45 stations owned by large owners (with audience reach above 20 
percent, based on percentage of U.S. household coverage as calculated 
by the FCC, discounting UHF coverage by 50 percent), 54 owned by mid-
sized owners (audience reach between 20 percent and 6.2 percent), and 
23 by small owners (audience reach below 6.2 percent). It turns out 
that the large owners in our study carried a lower percentage of local 
campaign news than the national average, while the small and mid-sized 
owners carried a higher percentage of local stories. The same pattern 
appears in individual media markets: in 16 of the 22 markets where we 
can make the comparison, stations with small or mid-sized owners 
provided more coverage of local elections than stations with large 
owners. If a national study designed to correlate ownership with 
localism came up with similar numbers, it would have inescapable 
implications for the regulations now in play.
    What causes some stations to excel? My school is proud to award the 
USC Annenberg Walter Cronkite Awards for Excellence in Television 
Political Coverage, and the journalists and stations that win it prove 
what good work can be done. In our study, some stations, even in the 
absence of contested political races, nevertheless did a top-tier job 
of offering campaign coverage to their viewers. A commitment by 
ownership-group leaders to fulfill their public interest obligations 
can count for a lot, as demonstrated by the ten Hearst-Argyle stations 
in our study, which were impressively ahead of the pack. The priorities 
of individual station managers and news directors can also make a 
difference, as can making the financial commitment of assigning 
experienced producers and talented correspondents to cover a political 
beat.
    But the sad truth is that across the country, the murderous 
pressure for ratings has largely trumped every other goal. The 
conventional wisdom among general managers and news directors is that 
politics is ratings poison. This belief--that public issues are boring, 
that viewers would rather watch car chases than candidates--is promoted 
by the television news consulting industry whose advice dominates local 
programming decisions. In my view, those consultants are selling 
dangerous nonsense. The truth is that good reporters working for good 
managers can make politics and public affairs just as compelling to 
audiences as news about celebrity divorces or teasers for prime-time 
voyeurism.
    Let's not blame the audience for what appears on local television. 
Programmers aren't just delivering what people want. They are 
accomplices in manufacturing that desire. Americans aren't just 
consumers; we are also citizens. Broadcasters have more than an 
obligation to make money. They have an obligation to inform us. That's 
what they promise in order to get their licenses. Today, the 
enforcement of that promise is alarmingly inadequate. Right now the 
ability of the American people to get the information they need, from 
the sources they turn to most, about the most important choices they 
make together as citizens: today that ability depends on a marketing 
culture that too often puts sensationalism ahead of substance, fear 
ahead of reason, and dollars ahead of democracy. Surely Americans 
deserve better from the industry they've entrusted with their airwaves, 
and from the agency they've entrusted with monitoring it.
    Thank you very much.

    The Chairman. Thank you, Dean Kaplan. Mr. Bozell.

   STATEMENT OF L. BRENT BOZELL III, PRESIDENT AND FOUNDER, 
                   PARENTS TELEVISION COUNCIL

    Mr. Bozell. Chairman McCain, Senator Hollings, and Members 
of the Committee. I appreciate the opportunity to appear before 
you to testify on this important issue. Today, I represent the 
Parents Television Council's 800,000 members, and untold 
millions of parents who, like me, are disgusted, revolted, fed 
up, horrified--I don't know how to underscore this point 
strongly enough--by the raw sewage, the ultraviolence, graphic 
sex, and raunchy language that is flooding into our living 
rooms night and day by media, by giant media corporations with 
no concerns whatsoever for community standards.
    That's why I strongly support the effort to return the 
media ownership cap to 35 percent. Citizens not only have a 
right, but also have a need to have a voice in their local 
communities.
    In 1989, the Big Three networks, NBC, ABC, and CBS, held a 
17 percent ownership share in TV programming. By 2002, it had 
increased to 48 percent. Now add Fox, AOL-Time Warner, and AT&T 
Liberty, and these six megacorporations today control two-
thirds of all viewers on television.
    Let's be clear here. Further deregulation will give them 
even further control of the airwaves, and the losers are the 
local communities whose standards of decency are being ignored, 
completely ignored by these media giants. There will be the 
same old tired voices that will say that this is only about 
competition, but let's be clear on this, there is no 
competition here. You can't compete against multibillion dollar 
oligopolies.
    There are many reasons not to give these six 
megacorporations even more control of our airwaves. One of 
them, which is what I'd like to speak on, is their utter lack 
of attentiveness to community standards. In the last year, the 
PTC has sent out over 1.5 million community standard audits, of 
which 128,000 have been returned. The numbers speak for 
themselves. 94.2 percent of the public believes there shouldn't 
be graphic violence during children's viewing time. 94.3 
percent are against descriptions of sexual encounters on 
television. 94.6 percent are opposed to strong sexual language 
during children's viewing times. These are no-brainers, but 
guess what, all these things can be found on television 
courtesy of these six megacorporations. They could care less 
who they offend, and now want even more control of the 
airwaves, where they can offend even more.
    This is a First Amendment issue. It's about the right of 
citizens to speak up about what they want coming across the 
broadcast airwaves they own in their local communities, where 
their voice should count the most, without being silenced by 
the corporate executives in New York and Los Angeles. This is 
how the networks feel about local community standards.
    In a PTC survey of network-owned and operated affiliates, 
not one told us it had willingly ever preempted network 
programming on the basis of community standards. Some told us 
that because of network contractual obligations, they could not 
preempt network programming. In fact, some Fox and CBS 
affiliates said they weren't even allowed to see the advance 
copies of reality programming they were going to have to put on 
television.
    When NBC aired Maxim's Top 100, which Senator Hollings 
referred to, 26 independent NBC affiliates chose not to 
telecast the program that many believe bordered on the 
pornographic and which was certainly not in keeping with the 
community standards, and yet not one NBC owned and operated 
affiliate preempted it based on community standards. In a 43-
page petition brought to the FCC on behalf of more than 600 
affiliates nationwide, the Network Affiliate Stations Alliance, 
NASA, complained that under virtually every current affiliation 
agreement, an affiliate risked losing its affiliation if it 
preempts more than a few hours of network programming without 
approval. The president of NASA said this: We are partners with 
the networks, but we cannot stand by and let them control our 
local stations. We know what works best for our local 
communities, and by law these decisions cannot be made in 
Hollywood or New York.
    Now ask those New York or Hollywood media behemoths how 
important the issue of indecency is to them. I wonder if you'll 
find one executive--I don't know of one--who will even speak 
out about it publicly, much less do anything to stop it.
    Consider Keen Eddie, a new show on the Fox Entertainment 
Network, which aired on June 10 at 9 p.m. I don't mean to 
offend--Senator Dorgan brought this up. I don't mean to offend, 
but you must know what is being broadcast over the public 
airways to millions of impressionable children, perhaps your 
own children or your own grandchildren in their living rooms.
    Keen Eddie featured a plot about a band of thugs 
trafficking in horse semen and hiring a prostitute to perform a 
sex act with a horse so as to extract the semen from it. Here's 
the actual dialogue.

        Prostitute: No, that's not natural.

        Thug: Extraction for insemination? If you look at the 
        picture on page 45, you'll see how natural it is.

        Second Thug: You're a 40-year-old filthy slut. You'll 
        do anything.

        Prostitute: With a human.

    But the prostitute agrees to go through with it, except the 
horse suddenly drops dead, at which point she says, ``I never 
laid a finger on it. I lifted up my blouse, that's all. He 
needs to get aroused.''
    A horse, on national television, in front of millions of 
impressionable children, over the public airwaves, into the 
family home, the one place, according to the Supreme Court, 
quote, ``where people ordinarily have the right not to be 
assaulted by uninvited and offense sights and sounds.''
    Chairman Powell has called it, quote-unquote, ``garbage 
that anyone would suggest the FCC cares as little about 
community concerns as the networks it's meant to be 
monitoring.'' Well, let's see about that. Over 10,500 
complaints were sent to the FCC about Keen Eddie. Now, it's 
actually 11,000. I've got the numbers right here, and the 
names. 11,000 complaints. Not one person, to my knowledge, has 
heard back, not one. Now, this show aired on June 10. How long 
does it take to decide that this is indecent? Apparently, 
they're still debating it.
    And guess how many stations the FCC has fined for indecent 
broadcasting in the history of the FCC in the continental U.S.? 
Answer, not a single one. In other words, according to the FCC 
nothing, but nothing on television has ever been indecent. 
You'd be hard-pressed to find a parent anywhere in America to 
agree with that assessment. It's not garbage to say that the 
FCC doesn't care and is not doing its job. There are some in 
the FCC who are trying, but they are the minority. You heard 
one of them, Commissioner Copps, today.
    It's my fervent hope that Congress will tell the FCC that 
it will not permit its Pontius Pilate-like decisions to allow 
these media titans, who have so badly abused their privilege to 
broadcast on the public airwaves, even more access to them. 
It's my further hope that the Congress will demand that the FCC 
instead start doing its job.
    Thank you.
    [The prepared statement of Mr. Bozell follows:]

   Prepared Statement of L. Brent Bozell III, President and Founder, 
                       Parents Television Council
    Chairman McCain, Senator Hollings and Members of the Committee, I 
appreciate the opportunity to appear before you to testify on this 
important issue.
    Today I represent the Parents Television Council's 800,000 members, 
and untold millions of parents who, like me, are disgusted, revolted, 
fed up, horrified--I don't know how to underscore this enough--by the 
raw sewage, ultra violence, graphic sex, and raunchy language that is 
flooding into our living rooms night and day by giant media 
corporations with no concerns whatsoever for community standards.
    That's why I strongly support the effort to return the media 
ownership cap to 35 percent. Citizens not only have a right but also a 
need to have a voice in their local communities.
    In 1989 the Big Three networks--NBC, ABC, and CBS--held a 17 
percent ownership share of TV programming. By 2002 it had increased to 
48 percent. Now add Fox, AOL/Time Warner, and AT&T/Liberty, and these 
six megacorporations today control two-thirds of all viewers on 
television. Let's be clear here: further deregulation will give them 
even further control of the airwaves. And the losers are the local 
communities whose standards of decency are being ignored, completely 
ignored, by these media giants. There will be the same old tired voices 
that will say this is about competition. Lets be clear on this--there 
is NO competition here. You can't compete against multi-billion dollar 
oligopolies.
    There are many reasons not to give these six megacorporations even 
more control of our airwaves, one of them being their utter lack of 
attentiveness to community standards. In the last year the PTC has sent 
out over 1.5 million community standard audits, of which over 128,000 
have been returned. The numbers speak for themselves: 94.2 percent 
believe there shouldn't be graphic violence during children's viewing 
time, 94.3 percent are against descriptions of sexual encounters, and 
94.6 percent are opposed to strong sexual language during children's 
viewing times. Guess what? All these things can now be found on 
television, courtesy of these six megacorporations. They could care 
less who they offend and now want even more control of the airwaves 
where they can offend even more.
    This is a first amendment issue. It's about the right of citizens 
to speak up about what they want coming across the broadcast airwaves 
they own, in their local communities, where their voice should count 
the most, without being silenced by corporate executives in New York 
and Los Angeles.
    This is how the networks feel about local community standards. In a 
PTC survey of network owned-and-operated affiliates, not one told us it 
had willingly preempted network programming on the basis of community 
standards. Some told us that because of network contractual 
obligations, they could not preempt network programming. In fact, some 
Fox and CBS affiliates said they weren't allowed to see advance copies 
of reality programming.
    When NBC aired Maxim's Top 100, 26 independent NBC affiliates chose 
not to telecast the program that many believed bordered on the 
pornographic and which was certainly not in keeping with their 
community standards. And yet not one NBC owned and operated affiliate 
preempted it based on community standards.
    In a 43-page petition brought to the FCC on behalf of more than 600 
affiliates nationwide, the Network Affiliated Stations Alliance (NASA) 
complained that under virtually every current affiliation agreement, an 
affiliate risks losing its affiliation if it preempts more than a few 
hours of network programming without approval.
    The president of NASA said, ``We are partners with the networks, 
but we cannot stand by and let them control our local stations. We know 
what works best for our local communities, and by law those decisions 
cannot be made in Hollywood or New York.''
    Now ask those New York and Hollywood media behemoths how important 
the issue of indecency is to them. I wonder if you will find one 
executive--I don't know of a one--who will even speak out about it 
publicly, much less do a thing to stop it.
    Consider Keen Eddie, a new show on the Fox entertainment network 
which aired on June 10, at 9:00 p.m. I don't mean to offend, but you 
must know what is being broadcast over the public airwaves to millions 
of impressionable children--perhaps your own children--in their living 
rooms. Keen Eddie featured a plot about a band of thugs trafficking in 
horse semen and hiring a prostitute to perform a sex act with a horse, 
so as to extract the semen from it.
    Here is the actual dialogue:

        Prostitute: ``No, that's not natural!''
        Thug: ``Extraction for insemination. If you look at the picture 
        on page 45 you'll see how natural it is.''
        Second Thug: ``You're a 40-year-old filthy slut, you'll do 
        anything.''
        Prostitute: ``With a human.''

    But the prostitute agrees to go through with it, except the horse 
suddenly drops dead, at which point she says, ``I never laid a finger 
on it. I lifted up my blouse, that's all . . . He needs to get 
aroused.''
    On national television. To millions of impressionable children. 
Over the public airwaves, into the family home, ``The one place,'' 
according to the Supreme Court, ``where people ordinarily have the 
right not to be assaulted by uninvited and offensive sights and 
sounds.''
    Chairman Powell has called it ``garbage'' that anyone would suggest 
the FCC cares as little about community concerns as the networks it is 
meant to be monitoring. Let's see about that.
    Over 10,500 complaints were sent to the FCC about the Keen Eddie 
sewage. Not one person, to my knowledge, has heard back. Not one. And 
guess how many stations the FCC has fined in the continental United 
States for airing indecency in the entire history of the FCC? Are you 
ready? Not a single one. In other words, according to the FCC, nothing, 
but nothing, on television has ever been indecent. You would be hard 
pressed to find a parent anywhere in America to agree with that 
assessment. It is NOT ``garbage'' to say the FCC doesn't care and is 
not doing its job.
    There are some at the FCC who are trying to do their job regarding 
the filth coming across our airwaves, but as a whole, this Commission 
has failed.
    It is my fervent hope that Congress will tell the FCC that it will 
not permit its Pontius Pilate-like decision to allow these media 
titans--who have so badly abused their privilege to broadcast on the 
public airwaves--even more access to them. It is my further hope that 
the Congress will demand that the FCC start doing its job.

    The Chairman. Thank you very much, Mr. Bozell.
    Mr. Davis, have you ever preempted network programming 
because you didn't believe it met your community standards?
    Mr. Davis. If you're talking about an entire entertainment 
programming, not since I've been general manager in 1997. We 
have asked on occasion and received from the network if they 
had copies to look at in their discussions about certain 
scenes----
    The Chairman. My question was, have you ever preempted 
network programming because you didn't believe it met your 
community standards, yes or no?
    Mr. Davis. No.
    The Chairman. Thank you.
    As general manager, how do you decide whether Disney's 
programming meets Philadelphia's community standards?
    Mr. Davis. Well, we obviously serve a very large community. 
We have 2.8 million homes. As Mr. Hollings----
    The Chairman. My question is, how do you determine whether 
it meets Philadelphia's community standards?
    Mr. Davis. Based on my 13 years of living there, working 
there, raising my family there, talking to people in the 
community, which I avail myself--I answer every piece of mail, 
every phone call, every e-mail from viewers, we have a 
Community Advisory Board that I talked about, I'm on boards of 
four or five nonprofit organizations involved in the community, 
I encourage other employees to do the same thing, we tend to 
hire people who are part of the community, who stay there. We 
have a very stable workforce and work very hard to reflect the 
community.
    I don't operate the station in how I personally, my own 
personal standards and tastes. Those would be rather narrow, 
compared to our total audience, so I try to operate in such a 
way as to give the viewers the benefit of the doubt, to choose 
the programming that they want to watch. We are very careful. 
If we don't think the network has done a good enough job of 
notifying people ahead of time about some content within the 
shows, we do that ourselves.
    I remember when NYPD Blue started, we got a lot of concern 
ahead of time before it even aired, from interest groups, from 
citizens. We responded to all those complaints. We looked at 
the episodes ahead of time, talked to the networks, and after 
it aired, we have yet to receive any large complaints about the 
quality of that show.
    The Chairman. Thank you, Mr. Davis.
    Mr. Faber, Sinclair's CEO, David Smith, is quoted in the 
article in the Washington Post dated May 31 as stating, and I 
quote, ``if I go into the marketplace with an old-line view of 
how to do news, I don't see how it works. The first analysis is 
the business analysis. The second one is, how does what we're 
doing serve the public?''
    How in the world do you justify a statement like that, Mr. 
Faber, when you are receiving the spectrum for free, and you 
are committing in writing to serve in the public interest? How 
do you justify a statement, the first analysis is the business 
analysis? We're talking about news now. According to Mr. Smith, 
if I go into the marketplace with an old-line view of how to do 
news, I don't see how it works. The first analysis is the 
business analysis--of news. The second one is, how does what 
we're doing serve the public?
    Mr. Faber. Well, I think that our view is that generally 
those two goals are very compatible with one another. 
Typically, serving the public interest leads to better 
viewership, which we leads to, you know, the business running 
better. We find them very compatible goals.
    The Chairman. But that's not what Mr. Smith said. That's a 
wonderful response, but it's not what Mr. Smith said.
    Mr. Smith says, if I go into the marketplace with an old 
line view of how to do news, I don't see how it works. The 
first analysis is the business analysis. The second one is, how 
does what we're doing serve the public, and the reason why I 
ask that is because you've done really incredible things with 
local news, having the broadcaster dress up and say, here we 
are in--I've forgotten, I'll find it here--weatherman Vigus 
Reed is bundled in a black overcoat and plaid muffler as he 
delivers a frigid forecast on Fox 66 in Flint, Michigan. 
Although he was forecasting for Central Michigan, Reed was 
actually hundreds of miles away in a TV studio north of 
Baltimore. Is that how you make it business work first?
    Why don't you have a local weatherman at these stations, 
Mr. Faber? That's localism at its best.
    Mr. Faber. I'm not sure I agree with that. I mean, a local 
weatherman at a television station typically is relying on 
weather data that's provided from a weather service that's not 
located in his market.
    The Chairman. Sometimes he's relying on somebody like 
Senator Dorgan says who is out there outside, watching the 
weather.
    Mr. Faber. And in every market where we do news we have 
local people in that market. We're not simply sitting in 
Baltimore doing the news from there.
    The Chairman. Do you have local weather people in that 
market?
    Mr. Faber. No, we don't, but if you can let me answer the 
question, the weather person is in contact every day with the 
people in that station, so to the extent that weather people 
need the reality check of looking outside and seeing what the 
weather's like, that reality check goes on every single day.
    The data that they use to predict the weather and do their 
weather report is, as I said, it' s not coming from that 
market. It's coming from a National Weather Service that is 
located in another market, and we use the exact same data in 
Baltimore.
    The other thing that's important to remember with a company 
like Sinclair, of the 62 television stations that we own or 
provide services to, 46 of them, I believe, are affiliated with 
the Fox, WB, or UPN networks, and two of them are independent, 
so 48 of our 62 stations that we either own or provide services 
to are not Big Three affiliates. It is very difficult to 
justify having a weather person at a television station when 
you're going to have 1 hour of news a day. It's very 
different--as Mr. Davis said, they have 30 hours a week on a 
Big Three affiliate so they can afford to have somebody doing 
weather, because they're doing 4-1/2 hours of news a day.
    The only way we can even make this work economically, 
typically, is to have an hour of news a day, to give people a 
choice an hour earlier from the normal network news, which airs 
at 11 East Coast Time or 10 Central, and we air news typically 
on those stations, the Fox-WB-UPN stations, at 10 or 9 Central, 
and that's the only news we do during the day. It's too 
expensive.
    The Chairman. The New York Times quotes Scott Paget, a 
Sinclair anchor located in Baltimore, stating, there will be a 
high of 57 for us here in Flint, during a broadcast submitted 
to Sinclair's Flint station.
    Mr. Kaplan states, in his testimony, that the Media General 
station in Greenville, South Carolina aired 146 campaign 
stories 7 weeks before Election Day, compared to the Sinclair 
station in that same community that aired 40 stories.
    Dean Kaplan also stated the average candidate sound bite on 
the Sinclair station in Greenville was 70 seconds, which places 
that station in the bottom 10 percent of the national sample, 
where the Media General station candidate sound bite averaged 
36 seconds.
    Would you like to respond to that finding?
    Mr. Faber. Well, it's difficult to respond because I 
haven't looked at the facts of all of our stations.
    The Chairman. I just gave you the facts.
    Mr. Faber. Well, you've given me one station.
    The Chairman. Would you like to respond to that station?
    Mr. Faber. Well, that station, just so you know, is not a 
News Central station, so it has nothing to do with the News 
Central operations, and no, it's a decision that's made by the 
local news director there as to how to best serve the needs of 
this community.
    The Chairman. Does Sinclair broadcast any public affairs 
shows in its local stations, such as Mr. Davis' station does?
    Mr. Faber. I don't have a list of them. Some of our 
stations do present public affairs programming.
    The Chairman. Please provide us a list for the benefit of 
the Committee. I thank you. My time has expired.
    Senator Hollings.
    Senator Hollings. What is a News Central station, because I 
know those stations. LOS is up in Asheville. It covers the 
Greenville--actually, SPA is over in Spartanburg. It covers the 
Greenville area, but what do you mean--the excuse you gave, it 
wasn't a News Central station. What does that mean?
    Mr. Faber. Well, it wasn't intended as an excuse. It was 
just simply that I was talking about News Central, and I wanted 
to make clear that that station was not News Central.
    What a News Central station is, is a station that has a 
locally based group of reporters and producers and a news 
director focusing solely on local news in that community. Then 
they also present as part of their news programming when they 
go to the national and international news, that comes out of a 
central location in Baltimore.
    So for example, just to give you an example, I watched last 
night--I went to our station in Baltimore. I watched them 
produce it. I also watched on a computer the news coming from 
each of our different News Central stations. We currently have 
six of them, I believe, and in Flint, Michigan, which never had 
news before, it starts out, there is a local person in Flint, 
Michigan reporting on the day's events in Flint, Michigan and 
the surrounding area.
    At the same time, in Rochester, New York, there is a local 
Rochester-based anchor, and as well as Rochester and Flint-
based reporters that are included as part of this, who will 
say, now we go to so-and-so, reporting at the city council 
meeting, or whatever you have. In Rochester during that same 
period that Flint is reporting on what's going on in Flint, 
they're reporting in Rochester about what's going on in 
Rochester.
    After a certain period of time where they've presented the 
amount of local news that we have time for, they say something 
along the lines of, now for a national----
    Senator Hollings. Mr. Faber, I'm sorry I asked that 
question.
    [Laughter.]
    Senator Hollings. I mean, you have me lost between three 
communities. All I know is that LOS and SBA compete in the same 
market, and now there's all this News Central and stuff, and 
everything else like that, and one is given 40-some and the 
other is given only 7 and to go right to the point, on your 
Sinclair stations I have just a regular news release of a 
business journal here in March, where it says Sinclair's KOAH 
station, Oklahoma City, instead of local news and Sinclair's 
Baltimore-based News Central, the station aired Andy Griffith 
when they suffered a major meltdown last night while a tornado 
swept through the town.
    Otherwise, you have again in Oklahoma City, one Oklahoma 
station said tennis ball-size hail was raining down in the 
southwest part of the viewing area, and power poles were 
snapped, and I turned it over to the Sinclair station to find--
nothing. No map, nothing. It went on that way until later on.
    Again, I can go to Raleigh, North Carolina, I can go to 
Pittsburgh, the news director Poister is leaving Sinclair's 
station there, Sinclair recently dropped weekend weather at the 
station, and many believe that Poister's jumping ship before 
the company guts the entire news department. Alan Frank has 
told his staff that Poister's leaving has nothing to do with 
the news, but in Oklahoma City they canned at KOAH the entire 
sports department, the entire weather department, one 
photographer, one reporter, six other full-time, part-time 
workers--I can go right on down to Rochester and all of these 
other things--I'm just quoting, Sinclair is becoming the expert 
on news light. That's the problem. That's the problem.
    Mr. Faber. Well, Sinclair's increased--by the end of this 
year we will have increased by over 200 people the number of 
people working for us in the news operation.
    Senator Hollings. Well, they must be turning into witnesses 
to come to Washington, because they're not putting on the 
news----
    Mr. Faber. No, that's not true, because we're adding news.
    Senator Hollings.--I can tell you that.
    Mr. Faber. No, News Central is allowing us to add news in a 
large number of markets that otherwise would not have any news 
on those stations.
    Senator Hollings. Well, put a release out on it, because 
I'm only reading the release. With respect to Mr. Bozell, 
that's outstanding testimony. Here--and have that filth on 
television, and you say not one, not one has been fined for 
indecency, yet the Supreme Court has confirmed that 
responsibility in the Federal Communications Commission.
    And Mr. Kaplan, right to the point, I'll never forget 
during that campaign my California friends say, they just don't 
cover politics any more. They all hire a helicopter. They all 
hire a helicopter and they run out and they cover some kind of 
wreck, or whatever it is, or crime story, because they just 
don't cover it any more, and what you've done is, you've given 
me the actual studied fact that the large owners carry a lower 
percentage of news than the national average, while the small-
size owners carry a higher percent of the local story, so as we 
get larger, what we are allowing is an elimination of news 
coverage and localism and everything else like that, and that's 
coming from your expert study.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lott.
    Senator Lott. I'll pass.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Davis, first of all, I enjoyed your testimony, and it 
seems to me your station does a lot of good things, and let me 
ask you a question, because the chairman asked you a question 
about local standards, and your judgment about these programs.
    You heard Mr. Bozell talk about a program called Keen Eddie 
and describe part of the dialogue in Keen Eddie. Would you have 
aired that on your station, had you taken a look at that prior 
to its airing?
    Mr. Davis. Fortunately I wouldn't have to make that type of 
decision. We would not air it because I don't believe our 
network would produce a program that contained that material. I 
have good faith. I know the people that run our network, and I 
just don't think that that would be something that they would 
produce.
    Senator Dorgan. So, because you feel that way, you would 
not have run Keen Eddie if it had been presented to you?
    Mr. Davis. No, I would have to make that decision once I 
saw the entire program in context.
    Senator Dorgan. But the reason I'm asking the question is, 
Senator McCain, you say you make a decision based on 13 years 
of your experience living in the area, and I think Senator 
McCain was trying to get at the notion of how do you make that 
judgment?
    Mr. Davis. I don't want my answer to Senator McCain to give 
you the impression that I don't feel that I have the 
independence or the ability to make those decisions. We happen 
to run the network. I think Disney has established itself. We 
certainly exceed the amount of quality and quantity of 
children's programming.
    The Disney Corporation in Florida as far as its regard to 
family dealing has been well-established, and fortunately I 
don't work for a company that has to make those type of 
decisions, but if I were, if that were presented to me, I would 
certainly have the ability to not air something that I did not 
think----
    Senator Dorgan. Mr. Davis, the reason I asked the question 
is, this hearing is about localism, and standards, and so the 
question has been asked about standards, and a specific example 
was given. You came here as a broadcaster and I was hoping you 
might use that specific example and tell me whether it's 
something you thought you would air in your market or not.
    Mr. Davis. Just based on what I heard, it doesn't sound 
like something that I would look forward to presenting to the 
viewers in the Greater Philadelphia region, no.
    Here's the--I remember, we heard earlier about the NAB code 
of conduct. My understanding, and my history may not be 
entirely correct, but I think a producer named Norman Lear was 
instrumental in a lawsuit that specifically did away with that 
code, and do you remember All in the Family? And some of those 
shows at the time were considered very controversial, had 
language, and I'm not defending this show or this dialogue.
    Senator Dorgan. I understand.
    Mr. Davis. It's not produced by our company.
    Senator Dorgan. I understand, but you're here as a 
broadcaster. I was just trying to get a sense of that.
    Also--and as I said when I started, it sounds to me from 
your recitation of what you do, your company does a lot of 
public-spirited things. Would you do me a favor with respect to 
your company as well. We have this publication, ``Profiteering 
on Democracy.'' Would you take a look through this and then 
give the Committee an analysis of what your company does with 
respect to rates for campaign ads?
    Mr. Davis. Sure.
    Senator Dorgan. I think one of my colleagues suggested that 
what is happening to politicians and to campaigns for elective 
office in this country is, they are being fundraisers now for 
broadcast companies who deliberately and in a very concerted 
way raise their rates in order to profiteer with respect to 
election campaigns. Just take a look at this. I'm not 
suggesting that your company's involved.
    But Mr. Faber, this is most interesting to me, your 
discussion of Central Casting. You said, you can't justify a 
weather person for 1 hour a day. Well, I come from North 
Dakota. Bismarck, North Dakota is a town of about 40,000 to 
50,000, now it's over 50,000, but Bismarck has always had a 
weather person. From the day it started, KFOR television had a 
weather person, a colorful, interesting person whose job it was 
to present the weather. In North Dakota weather sometimes in 
the middle of the winter with a fast-moving, devastating 
snowstorm can be life or death.
    So most television stations around the country have always 
had a weather person. When did it become something that is a 
part of the discussion that it's too expensive to have a 
weather person? When did that become a part of the discussion 
about owning a television station?
    Mr. Faber. I don't know the station that you're referring 
to in Bismarck, but I'm going to assume that it's an NBC, ABC, 
or CBS affiliate. I'm also going to assume that it has several 
hours of news a day, and what Sinclair typically owns, again, 
are these Fox, WB, and UPN.
    We typically borrowed the third or fourth or fifth rated 
newscaster in the market. It is a difficult proposition when 
you're only polling 1 hour a day--I mean, I will tell you, when 
I got to Sinclair--I've been at Sinclair for 7 years, and when 
I started at Sinclair our corporate offices were located in the 
same building where one of our stations broadcast in Baltimore, 
Maryland, the Fox affiliate there, and at the time that station 
had 1 hour of news at 10 during the day.
    I'd never been in the industry, and I would spend a little 
bit of time wandering around the building and the people who 
were running the television station, trying to learn the 
industry, and I have to tell you, I couldn't imagine--I mean, 
from being in Washington and being down there, I remember 
asking somebody, what does a weather person do all day, and the 
answer was, not much. I mean, there's just not enough time. 
When you're only doing an hour of newscasting a day, it doesn't 
justify it.
    And I remember, when you have a major news weather story, 
if we're having blizzards in one of our markets or any serious 
weather, we cover that as a news story, locally in the market. 
I mean, Senator Hollings----
    Senator Dorgan. You could do your weather from Singapore, 
couldn't you?
    Mr. Faber. We could do weather from anywhere you want, just 
like the Weather Channel does, for example.
    Senator Dorgan. So then what about Senator Hollings' 
description--well, I think he was describing one of your 
stations from a viewer saying, on one station we see the 
devastation of this storm, we see the physical impact of this 
storm, the effect on people of this storm, it's being broadcast 
live by people who are explaining the consequences of it, and 
you have a meteorologist describing where the storm is moving, 
what it might mean to people, and on your station, what do you 
have on there? I hope it's not Keen Eddie, but you're running I 
love Lucy rerun as if there is a storm.
    Mr. Faber. Well, you're relying on, I guess, one e-mail 
from somebody. In Oklahoma City we covered the tornados that 
happened in Oklahoma recently extensively with local newscasts, 
so it's just not true what you've been told, it's simply not 
true. We covered it extensively in Oklahoma City.
    Senator Dorgan. Well, are you going to believe me, or your 
own eyes? I mean, is that what you're telling me? We've got the 
evidence here, and you said yourself that somehow--you said, 
the fact is, news in some cases too extensive. It seems to me 
that part of the ability that the American people give you to 
use the airways encumbers you with the responsibility to 
provide certain things to the people. One of them, in my 
judgment, is localism, and that means news coverage.
    Mr. Faber. But you don't require every television station 
in this country to have news. We're moving in the direction of 
putting news on, unlike other companies, who own WB and UPN and 
Fox affiliates who don't put them on. We're increasing the 
news.
    I mean, the alternative isn't having a full-blown news 
staff with an anchor there and a weather person there. The 
alternative is having no news there.
    Senator Dorgan. Mr. Faber, the point of this hearing is 
about the FCC rules and about localism and how you're 
antithetical to each other, and the fact is, you know and I 
know that we're moving in the opposite direction. We don't have 
massive amounts of stations out there adding people to the 
newsrooms. We have virtual news rooms these days with nobody 
present. That's why we're concerned about it.
    Mr. Faber. Not on television that I know of.
    Senator Dorgan. I understand your testimony. Your testimony 
is, this is a business, the question is, are we making money, 
and that's all that matters.
    Mr. Faber. That's not my testimony.
    Senator Dorgan. Well, that's what I heard, and what matters 
to some of us is, there are public interest requirements, and 
requirements of localism and diversity from a public policy 
standpoint that we must be concerned about, and there are some 
out there owning these stations that don't give a rip about it, 
don't give a rip, and we are moving so far away from it, and in 
fact the majority of the FCC doesn't care about it, and that's 
why the folks, Mr. Bozell, that have complained with respect to 
your issue haven't received a postcard back, because we've got 
people that don't understand they're supposed to be referees 
here, and there are basic requirements of localism.
    I appreciate your testifying, Mr. Faber, but in my 
judgment, Central Casting is part of the problem that we 
confront here in losing localism in broadcasting, and you say--
let me just make one final point. You say, if you have a news 
story, and you can Central Cast it to 39 stations, it's more 
efficient. What about, in one of those 39 stations, having 
somebody interpret that national news story in terms of what 
does it mean to Charlotte, what does it mean to Bismarck, what 
re its consequences for Tulsa? What about that interpretation 
of local news?
    Mr. Faber. I think that the important thing, the point I'm 
trying to make is, in the absence of Central Casting, with the 
type of news stations that we have, the type of television 
stations that we have, there has to be--we believe news is 
important. We believe in the public interest, and we believe 
providing news is an important thing that we do to serve the 
public interest of our communities. We truly believe that.
    Unfortunately, at some point the business of running 
television stations has to enter into the picture, and from an 
economic standpoint the choice becomes in many instances, have 
news with the Central Casting model that we're using, or don't 
have news at all. If you look in markets of similar size, where 
we're starting the news on a Fox or a WB or a UPN, and you 
stop, and you look at other owners who own a WB or Fox or UPN 
in a similar size market, you'll find they simply don't have 
news.
    Senator Dorgan. Mr. Chairman, I regret my time is up. I had 
wanted to ask Mr. Kaplan something, but I think your 
testimony--I read it last evening, Mr. Kaplan. I think you do a 
real service in the studies that you prepared and presented to 
us, and I mean, I think we have to track these further. We need 
more national analysis of the kinds of studies that you have 
begun to present this morning, and look, I think these are 
really, really important issues.
    It just is not satisfactory to me, especially coming from a 
State that has some weather issues out there from time to 
time--rarely, I should say, for the tourism standpoint.
    [Laughter.]
    Senator Dorgan. But we do have some weather issues, and it 
is not satisfactory to say there's only one set of weather data 
and that comes from some national source. If that's the belief, 
you can just go to the Internet and broadcast from Singapore 
and tell us what the weather is going to be in Mission Ridge, 
South Dakota, or New Town, North Dakota, but it is not 
satisfactory to me, so that's what localism is about.
    So I'm so pleased, Mr. Chairman, that you've decided to 
hold this hearing. It's the first one I've seen of this type 
since I've been on this Committee, and we need to keep pushing 
on these issues, because otherwise this inevitably moves in the 
wrong direction, and localism gets lost because it's tirelessly 
old-fashioned, and this is all about profit and business 
practices, and the American people lose because they owned the 
airwaves in the first place, and there ought to be some payback 
with respect to the use of those airwaves.
    The Chairman. Senator Lautenberg.
    Senator Lautenberg. Yes, thanks, Mr. Chairman. I wanted to 
ask Mr. Davis, who I do know, and over a long period of time, 
and I never saw a bias in your campaign reporting that favored 
me, but----
    [Laughter.]
    Senator Lautenberg. But we did well, and I thank you for 
your hard work, and I was kind of musing with my colleague over 
here as you were talking about all the parades and all the 
other things you do. The question is, do you have any time left 
for revenue-producing programming?
    But your presence, of course, in my state is critical in 
terms of the population there, because we don't have the 
television coverage in that part of our State.
    How do you decide how you cover New Jersey? Is there a 
percentage of the effort that is devoted there? You have an 
office in Trenton, I think.
    Mr. Davis. Yes, we know approximately 28 percent of our 
television homes are in the southern half of New Jersey. As you 
know, our coverage area goes from roughly Trenton over to the 
coast, and we try to make sure we have the distance of, like I 
say, the two news bureaus with dedicated reporters and 
photographers in Trenton and in Margate, on the Jersey Shore.
    We also have Philadelphia-based Kathy Gandolfo, who covers 
parts of New Jersey to Philadelphia, and in addition to the 
half-hour public affairs show we focus on New Jersey, so we're 
certainly sensitive to New Jersey, who through no fault of its 
own doesn't have its own Philadelphia television stations, and 
of course our station in New York, Channel 7 is responsible for 
covering the northern half of New Jersey, and has the same 
commitment to the State through their facilities.
    Senator Lautenberg. I noted one thing here with your sister 
station, and that is that campaign time, that in PBI your rate 
over a period of time from August, September to just before the 
election takes place October 28, November 4, the rate per 30-
second candidate had reduced by 8.8 percent. Your New York 
affiliate, or vice versa, the New York headquarters main 
station, went up by 67 percent in the same period of time. Was 
business bad down in your area, or what happened up in the New 
York area that did this to those who wanted to have the news 
and those who wanted to give some of the news about the 
campaign?
    Mr. Davis. Well, I would say, without knowing specifically 
the time periods and those stations, I've always said, if you 
all can schedule elections in August and January, you would 
probably have a certainly lower demand for advertising. The 
fall and the spring when primary and general elections are held 
are the same times you have back to school and retail 
operations, local merchants advertising the most, the heaviest.
    You know, on political advertising, I can honestly say 
we've never gone out and solicited or made presentations to 
media buyers to buy political advertising. We obviously give 
discounted rates. It's not necessarily the best way to operate 
from a business standpoint. I don't know the particulars about 
WABC. I do know they have the policies that they work very 
closely to make sure we're within every FCC guideline on 
campaign and political advertising, so I suspect that it is a 
reflection of that particular marketplace and the demand of the 
marketplace in that timeframe.
    Senator Lautenberg. Well, what happens when we have, let's 
say, a gubernatorial campaign in New Jersey? It doesn't 
necessarily run in the same cycle--it doesn't run in the same 
cycle as Pennsylvania. Do you then stretch that percentage of 
coverage of New Jersey because the event is that much more----
    Mr. Davis. Oh, sure. Oh, absolutely. When there's a high 
profile race, or a high profile, a major story in New Jersey. 
We don't look every day and say, only 28 percent of our story 
can be from New Jersey. That goes up or down throughout the 
year.
    Senator Lautenberg. What kind of latitude do you have as 
you try to meet the audience views of what's taking place? Have 
you made your statement about your personal involvement in 
community and so forth. Are you in New Jersey when that's being 
done, too?
    Mr. Davis. Oh, absolutely.
    Senator Lautenberg. Are the appetites are exactly the same?
    Mr. Davis. Absolutely, and we have a good number of our 
employees that live and work in New Jersey, who are members of 
the New Jersey Association of Broadcasters. We worked in the 
New Jersey League of Women Voters on the debates and on the 
campaign coverage so absolutely, very sensitive, and also to 
Delaware, I should say. We're responsible for the northern two 
counties of Delaware.
    Senator Lautenberg. I want to thank you for your 
presentation. I thought it was very good.
    I want to ask Mr. Bozell a question here, and that relates 
to--and I couldn't agree with you more in your statements about 
what's appropriate and so forth, and the example that Senator 
Dorgan used is disgusting. I mean, it's just awful to put that 
kind of material out there for, I don't know how it generates 
any interest, but it's just vulgar, I think.
    But here's where I find a little inconsistency. Shows, for 
instance, on the Fox Network are widely regarded as leading the 
way in defining deviancy and indecency. Now, ironically, Fox 
News and the network's founder, Rupert Murdoch, are unabashedly 
conservative. Is there a contradiction here, or have you taken 
your fellow conservatives at Fox to task for claiming family 
values while working for a network responsible for so much of 
the trash that's currently on TV?
    Mr. Bozell. Well, sometimes I think it's a network badly in 
need of lithium, but you have to understand, Senator, it is two 
very different operations. What goes on on the East Coast is 
completely different than what goes on on the West Coast. It is 
two completely separate management entities. At the very top 
you have an owner who does control both who ought to be held 
accountable, and as a conservative myself who has been very 
supportive of many things he may have done in a political 
sense, I'm appalled at what he's done with the popular culture, 
and I think that fairness demands that one say that.
    It's not just Keen Eddie. I mean, there are plenty of other 
shows on that network where there are programs that, Senator, 
are aimed at children. They're not aimed at adults. They are 
not aimed at you, they're aimed at your children. Do you know 
what preceded this show that led the viewing audience into Keen 
Eddie? American Juniors, I believe it is, which is another one 
of these American Idol things, but now aimed at teenagers. It 
was designed to bring that audience into the 9 hour for Keen 
Eddie.
    There is something almost sick about this, and I think that 
it's extraordinary that the Federal Communication Commission 
that is empowered by law to do something about this has never, 
ever said anything about any program ever, and every survey in 
the world shows you, 97 percent or more of the public is fed up 
with this, and yet the FCC won't do anything.
    Senator Lautenberg. Thank you, Mr. Chairman. Thanks to all 
of you.
    The Chairman. Thank you. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thanks, Mr. Chairman, and I'd just like 
to add my appreciation for you holding this important hearing 
on this issue. It's something that the State of Washington 
cares a great deal about.
    I guess Mr. Faber and Mr. Davis had a recent experience in 
our media market where there was a story about the signing of 
the President's tax package, and at the signing of that tax 
package the broadcast said, the President's signing the tax cut 
passed by Congress today, and it showed a picture of several of 
my colleagues, some from Washington State, some not from 
Washington State, who did not support that tax package. Do you 
think that that's accurate broadcasting, or in the public's 
interest?
    Mr. Faber. I'd have to see it, I think, before I could 
comment on that.
    Senator Cantwell. Because showing a picture of a Member of 
Congress at the same time the content says the President's 
signing the tax package isn't clear?
    Mr. Faber. I just feel like I'd have to see it. I don't 
quite--I mean, I understand what you're saying, but I don't----
    Senator Cantwell. Do you think it would be inaccurate if 
you made a statement that the President was signing the tax 
package and it showed a picture at the signing of the White 
House of another bill and it was, in fact, giving the viewers 
the impression----
    Mr. Faber. I'm sorry, so it was showing another bill. There 
were people there standing next to the President----
    Senator Cantwell. Yes, they would show the President 
signing a bill, and it showed Members of Congress standing next 
to him.
    Mr. Faber. It doesn't sound--I mean, again, I wouldn't want 
to criticize them without actually seeing it, but it doesn't 
sound like good journalism, no.
    Senator Cantwell. Do you think that's in the public's 
interest, when you have inaccuracies?
    Mr. Faber. Absolutely I don't think it's in the public 
interest to have inaccuracies in your news, no, I don't.
    Senator Cantwell. A recent study by Children Now found that 
the hours of programming for children's content in Los Angeles 
decreased by half between 1998 and 2003, and at the same time 
in that media market, the number of station owners in the media 
market went from seven to five. Do you think that the decrease 
in that amount of content is in the public's interest?
    Mr. Faber. I don't know what is the right amount of 
children's programming on broadcast television.
    If I can--you didn't quite ask this question, but you 
mentioned the decrease in the number of owners.
    Senator Cantwell. No, increase in the number of owners, 
decrease in the amount of children's programming during that 
same period.
    Mr. Faber. I thought it was a consolidation you were 
talking about.
    Senator Cantwell. Oh, yes, sorry. Sorry.
    Mr. Faber. And I just, I will comment that I don't believe 
that the consolidation of the industry has anything to do with 
the reduction of children's programming on broadcast 
television. I believe the growth and tremendous popularity of 
children's programming on cable networks has led to the 
decrease of children's programming on broadcast television.
    Senator Cantwell. But availability in that market actually 
decreased.
    Mr. Faber. Locally, I mean, yes, it sounds like it did. 
They reduced the number of hours. I'm just saying it had 
nothing to do, in my view, with the fact that it was 
consolidation of the industry. It had to do with the fact that 
it has become tremendously difficult to find advertisers for 
children's programming on broadcast television stations because 
they're putting all their money on cable.
    Senator Cantwell. Well, shouldn't something like that be 
part of how you would measure public interest in programming of 
content, a variety of content?
    Mr. Faber. I think it is. I think it is, and I think that 
again I'm just saying that I don't know how many hours they 
started with and how many hours they ended up with, so I don't 
know that necessarily reducing the number of hours that they 
had--they may have had too much. I mean, I don't disagree that 
it's in the public interest to have a certain amount of 
educational children's television programming on television 
stations. I don't know the exact right number. The FCC has 
rules about what you should have on. Whether that's the right 
number or not, I mean, we comply with those rules and sometimes 
exceed them.
    Senator Cantwell. Would you be willing to put your content 
that you think meets the public interest standard, would you be 
willing to put that in some sort of documentation, or online, 
that shows this is how you're meeting the public interest?
    Mr. Faber. Well, with regard to children's programming, 
there's actually a form that every television station completes 
quarterly detailing how they've met what is called core 
programming, which is programming aimed at children between the 
ages, I believe of 2 and 12--2 and 16, and that's educational 
and informative in nature. This is called a form 398. Every 
television station in the country does it quarterly, and those 
are filed with the FCC and are available publicly on the FCC's 
database currently.
    Senator Cantwell. Are you willing to put other content, Mr. 
Faber and Mr. Davis, online as to what you think your stations 
are meeting the public interest standard with?
    Mr. Faber. I'd certainly look into it. I mean, we also did 
what's called a quarterly programming report that is similar to 
the children's--I believe Commissioner Copps mentioned it 
earlier, that all stations do, and put in their public file 
quarterly detailing the programming that they believe met the 
public interest during that quarter and what their plans are 
for the upcoming quarter, and I just need to look into 
whether--I mean, it would be a lot easier if the FCC frankly 
made that so that you could just do it like the children's--we 
don't have any problem with making that available.
    I mean, it's on the public file, which is available to any 
member of the public. It's just a question, again, we are 
running a business, and before I'd say yes, we'll go do that, 
I'd be interested to find out from our intellectual technology 
people what the cost and difficulty of doing that would be.
    As I said, if the FCC could just set it up so that you'd do 
it just like you do the children's I think it would be much 
easier, and every television station in the country could do 
it.
    Senator Cantwell. I know my time has expired, Mr. Chairman, 
but Mr. Davis, would you like to comment on that?
    Mr. Davis. Well just, this is our most recent quarterly 
programming report. Obviously it's in the public file and we 
could submit it to the Committee or anybody else that wants to 
look at it. We're proud of it. We have no reason not to let 
anybody see it.
    Senator Cantwell. That's all your programming you think 
meets the public interest----
    Mr. Davis. It's the quarterly listing of community related 
programming. It's an FCC-directed form where we document all of 
the programming and things that we do within the news and 
public affairs programming that we have that in our opinion 
serves the public interest.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cantwell.
    According to this study, conducted by the Alliance for 
Better Campaigns, they studied 37,000 political ads on 39 local 
television stations in 19 states, and found that the average 
price of a candidate ad rose 53 percent from the end of August 
to the end of October of last year, and of course we all know 
that we passed the lowest unit charge statute in 1971, where 
broadcasters are prohibited from charging candidates more for 
ad time than they charge their high volume year-round 
advertisers. Obviously, that's not working, because no 
candidate now can have their spot guaranteed, so therefore they 
will not take advantage of the lowest unit rate rule.
    Mr. Corn-Revere, do you think we ought to tighten the law, 
and Dean Kaplan, in order to make sure that candidates can get 
the lowest unit rate?
    Mr. Corn-Revere. I really don't have an opinion on whether 
Congress should make changes in that law.
    The Chairman. You have no opinion?
    Mr. Corn-Revere. No.
    The Chairman. Thank you. Dean Kaplan.
    Mr. Kaplan. Certainly the law should be enforced. Whether 
it requires tightening beyond stringent enforcement, I don't 
know.
    The Chairman. Well, it's very unfortunate that the law 
seems to be avoided because no one who's running for office 
wants to have their commercial run at a time when nobody is 
watching.
    Mr. Corn-Revere, Dean Kaplan states, ``the public interest 
obligation has today essentially been entrusted to an 
unregulated and unmonitored market.'' Do you believe this 
unregulated market is performing in a fashion that serves the 
public interest?
    Mr. Corn-Revere. Well, again, that goes back to the 
question of defining the public interest in the first place, 
and as a regulatory matter it's something that the FCC and the 
courts have tried to do case by case.
    When you look at the various mechanisms that have been 
employed over time, ranging from direct content regulations 
that have more of a First Amendment difficulty with them to the 
option that you describe at the outset of the hearing, of 
providing more spectrum for low power FM stations, for example, 
all of those are ways of providing greater public interest 
programming. Some of them present more constitutional 
difficulties than others.
    The focus of my testimony was to suggest that the closer 
you get to content regulation, the closer you increase the 
tensions, the constitutional tensions between the law and the 
Constitution.
    The Chairman. You heard Mr. Bozell's example of sexual 
innuendo being aired at 9 p.m. on Fox. Do you believe that 
there's anything Congress can or should do to prevent this?
    Mr. Corn-Revere. Well, rather than just look at that one 
example, this opens up a whole additional area that we could 
spend a great deal of time with.
    To begin with, Mr. Bozell is incorrect when he says that 
there have been no indecency fines for television broadcasts. I 
know of at least two, one in 1988 and one in the mid-nineties, 
and part of that goes to the difference between television 
programming and radio programming.
    It is true that most of the indecency cases have involved 
radio programming. There have been a number of other cases 
where the FCC has investigated, and it goes to the difficulty 
of applying the kind of standard that the FCC has employed. 
I'll give you a good example. In 1990, the FCC investigated a 
San Francisco public television station for broadcasting the 
miniseries, the Singing Detective. This was produced by BBC. It 
was a winner of the Peabody Award.
    The reason it came to our attention, and I was at the FCC 
at the time, was because in the course of 7 hours there were 
maybe three scenes that had questionable material, questionable 
depending on your perspective.
    The Chairman. Of course, that was 13 years ago, Mr. Corn-
Revere, and things have changed rather dramatically.
    Mr. Corn-Revere. But because of the FCC's investigation, 
which required the station to spend about a year responding to 
it, that miniseries has not appeared on television in America 
since. It is the application of that standard, no matter how 
bad a particular example you may want to talk about here today 
maybe, but it is the application of that standard that creates 
significant constitutional tensions.
    The Chairman. Do you believe Congress could legislate a 
family viewing hour that could stand a constitutional 
challenge?
    Mr. Corn-Revere. No, I do not.
    The Chairman. On the issue of cross-ownership very briefly, 
the reason why I'm very concerned about it is I have a letter 
from a gentleman who is running for office, and in his case--a 
quote from his letter--a Baltimore TV station involved in a 
campaign of misleading and false allegations about my Navy 
service a few days before the 2002 elections. Instead of 
exercising journalistic integrity, the station, using blatantly 
intimidating tactics, made the charges even after authoritative 
Navy documents were given to the station showing the 
allegations were false.
    But then he goes on to say, of great interest, the station 
tried unsuccessfully to persuade local newspapers to print the 
same false charges. I wonder, if the television station had 
owned the newspaper, whether those false charges would have 
been printed in the newspaper, and that is an issue of, I 
think, significant concern.
    Mr. Faber. Can I respond just very briefly to that?
    The Chairman. Sure.
    Mr. Faber. Just so you know, we stand by the allegations. 
The person that you're talking about----
    The Chairman. Stand by the allegations?
    Mr. Faber. Yes, absolutely.
    The Chairman. Even though the United States Navy responded?
    Mr. Faber. The United States Navy responded by--the 
candidate that you're talking about stated on his website that 
he had won the Silver Star. It was not true. What he had won 
was--and I'm not a military person, and I know you have a 
history and a background in that, but my understanding is there 
are certain medals that you can win, and then you can get a 
silver star added to those ribbons. It's different from what 
people generally think of as a Silver Star.
    The Navy technically said that--and he changed his website 
because of the reports. He also said that he had served in 
Desert Storm, which he had never served in.
    The Chairman. Well, I didn't particularly want to get into 
it, but the Navy's official response, quote, allegations that 
the captain wore unearned military decorations proved to be 
unsubstantiated.
    [The information referred to follows:]

                                   Sinclair Broadcast Group
                                  Cockeysville, MD, August 13, 2003
Hon. John McCain,
Chairman, Committee on Commerce,
U.S. Senate,
Washington, DC.

Dear Senator McCain,

    I am writing in regards to recent statements you made during a 
hearing before the Committee on Commerce, Science and Transportation on 
July 23, 2003. During the hearing you repeated unsubstantiated 
allegations from a letter addressed to you. This letter included 
allegations made against me. I am not aware of any attempt by your 
office and/or the Committee staff to verify these unsubstantiated 
allegations. Accordingly, I believe it only fair that I have an 
opportunity to respond and that you have an obligation to include this 
letter in the official hearing record.
    You referenced a letter addressed to you from Mr. C. Richard 
D'Amato. Mr. D'Amato is not the first, nor will he likely be the last 
politician that is unhappy with an investigative news story that 
reported on the veracity of campaign claims he made.
    In his letter, Mr. D'Amato referred to WBFF-TV as having ``. . . 
used false information . . .'' in a news story regarding his claims of 
military service. The facts are simple. Mr. D'Amato claimed in campaign 
material to having won three Bronze Star and the Armed Forces 
Expeditionary Medals for service while serving on board the USS King 
(DLG-10) off the coast of Vietnam between 1971 and 1973. He also 
claimed in his official Maryland House of Delegates website to having 
``served in . . . Operation Desert Storm'' and to having received the 
Southwest Asia Service Medal for this service.
    A Freedom of Information Act request was filed for his service 
record. A thorough review of his service record was made, inquiries 
were made of the Navy Awards Office, his service record was reviewed by 
Mr. B.G. Burkett, a recognized expert in reviewing suspect military 
service claims, telephone discussions were held with Mr. D'Amato and 
his attorney, and Mr. D'Amato provided additional military records for 
our review. The following was learned.

  (1)  Mr. D'Amato never received one Bronze Star Medal, let alone 
        three.

  (2)  According to the Navy and Marine Corps Awards Manual (SECNAVINST 
        1650.1G), Navy units were not eligible for the Armed Forces 
        Expeditionary Medal for Vietnam service between July 3, 1965 
        and April 29, 1975. The Navy Awards Office confirmed this 
        exclusion.

  (3)  Mr. D'Amato did not serve in Operation Desert Storm. He did 
        perform part of his annual two weeks of active duty for 
        training in August 1990, the period of Operation Desert Shield, 
        onboard the USS Dwight D Eisenhower (CVN-69), but he did not 
        have the minimum 30 days necessary to have earned the Southwest 
        Asia Service Medal as a Naval reservist. The USS Dwight D 
        Eisenhower did not participate in actual combat operations so 
        the time minimum could not have been waived.

  (4)  Mr. B.G. Burkett who authored the book Stolen Valor conducted 
        the independent review of Mr. D'Amato's service record. Mr. 
        Burkett questioned the authenticity of some of the documents 
        provided by Mr. D'Amato. In addition, Mr. D'Amato refused our 
        request to provide the DD-214 covering his six years of active 
        duty service, the period of time in which he claimed to have 
        originally won the three Bronze Star and Armed Forces 
        Expeditionary Medals. While the news investigation was 
        underway, Mr. D'Amato deleted these various claims from his 
        campaign material, changed his campaign and official House of 
        Delegates websites and issued a statement referring to these 
        unsupported claims as ``minor ambiguities.''

    Finally, while we appreciate Mr. D'Amato's assertion that no 
investigation was launched by the Navy regarding his wearing of 
unauthorized medals, no such claim was ever made. However, during the 
course of our inquiries, the Commander, Naval Reserve Forces Judge 
Advocate General (CNR JAG) requested certain documentation from us, 
which we provided. The CNR JAG informed us that he had forwarded the 
documentation to the Navy Inspector General's office with a 
recommendation it be forwarded to the Department of Defense Inspector 
General's office to begin an investigation. CNR JAG officials were 
concerned over the unusual circumstances regarding Mr. D'Amato's return 
to active duty for two brief periods of time after he had retired. The 
Navy IG office recently informed us that it will discontinue pursuing 
the investigation as it does not investigate retired officers below the 
rank of rear admiral except under extraordinary circumstances.
    In conclusion, we continue to stand by the investigative news 
story. Extensive research and independent, third party review of his 
military records found that several of Mr. D'Amato's claims of military 
service and military decorations were unsupported by Navy records or by 
his military service records. We have enclosed just a sampling of some 
of this extensive documentation.
    The fact that Mr. D'Amato deleted these claims from official state 
government and campaign material and ceased making these claims while 
campaigning speaks volumes.
            Sincerely,
                                             Mark E. Hyman.
                              Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faber. That's not the allegation we made on the air. We 
did not make an allegation that he wore decorations he had not 
earned. We made an allegation that he stated he had won 
decorations that he had not.
    The Chairman. Well, I'd be glad to pursue it later on, but 
it seems to me that the Navy's official response is important 
here, but I won't go into it.
    Mr. Bozell, what do you want Congress to do?
    Mr. Bozell. Senator, I think there are certain steps that 
can be taken. First, I think Congress needs to signal to the 
FCC that it needs to start doing its job, and since my data was 
questioned, I have to say that the data that I used, when I say 
that no station in the U.S. has ever been fined, that comes 
from the FCC. Go to the FCC. That's what they claim. If they're 
wrong, then that's something we ought to ask them. The only 
station that's ever been fined was one in Puerto Rico, which I 
found rather interesting.
    First of all, the Congress should go to the FCC and tell 
the FCC that it wants it to get serious about it. It should 
raise the fines that you, Senator, are pushing, from that silly 
$27,000 figure, which is utterly inconsequential, to $250,000, 
as you've suggested, and then make those fines applicable to 
every affiliated station that carries something that is 
finable, that is found to have been worthy of a fine. If that 
were to happen, those affiliate stations immediately would stop 
airing this garbage on television. They would stop abusing the 
privilege. They would do it immediately if they knew the FCC 
was going to be serious.
    But in fact, every time the FCC comes forward and says 
anything, within minutes, guaranteed that talk radio is just 
having a field day. The Howard Sterns are laughing on the air. 
They're laughing at the FCC, and, Senator, they're laughing at 
you. They're laughing at this whole idea that they might be 
constrained from what they're doing, and they continue doing 
it.
    The Chairman. Final comments. Dean Kaplan.
    Mr. Kaplan. I believe sunlight is the best disinfectant. 
Right now, stations are required to file quarterly reports on 
paper and keep them in their offices that talk about their 
public interest programming. They're not required to keep 
program logs with time codes. As a consequence, it's next to 
impossible for anyone to do the kind of research to create the 
kind of public pressure to encourage or shame stations to live 
up to their obligations. I believe that asking stations to 
disclose what their public affairs programming is, not in 
general terms but in specific terms with time codes, and to put 
that on the Internet, is a small step that will serve the 
public.
    The Chairman. Mr. Corn-Revere, final comments?
    Mr. Corn-Revere. When I was invited to testify at this 
hearing, and heard that it was sort of a review of the good old 
days of regulation, and whether or not those days should be 
brought back, there tends to be sort of a gauzy memory of how 
well that regulation worked.
    For those of us that have been at the FCC and seen it 
first-hand, I think it bears a closer examination of whether or 
not the various mechanisms that you would use to bring 
broadcasters to account to see how well they worked in the past 
just to see where there was greater participation in the 
renewal process and the ability of interest groups to challenge 
renewals, that led to a process of green mail, where people 
were essentially in the business of challenging license 
renewals until they got their payoff. That was something that 
the FCC was called upon to address and finally was able to put 
a stop to that.
    If you take any one of these proposals, whether it's 
greater oversight of programming or other measures that you 
would sort of reimpose to enforce a vision of the public 
interest, you have to consider the unintended consequences of 
those actions.
    The Chairman. Well, I thank you, Mr. Corn-Revere, and I'm 
sorry if you were given the impression that this was a desire 
to return to the old days. It was not. The purpose of this 
hearing is to ascertain whether the licensees who receive 
spectrum for free, which are owned by the taxpayers of America, 
were living up to their public interest obligations as we see 
them, so I'm sorry you were misinformed as to the intent of 
this hearing.
    Mr. Faber, a final comment?
    Mr. Faber. Yes. I would just like to veer off slightly from 
the News Central topic that I focused on in my comments and 
just mention something in regards to something Commissioner 
Copps said, which is, he has mentioned on numerous occasions, 
including today, the 2 million public comments and 99 or 
something percent of them are opposed to further deregulation, 
and several Members of the Committee seem impressed by this and 
impressed by the idea of this rising up of this national 
interest against this.
    I will tell you, having gone through an awful lot of what's 
on the FCC's website that's available, what I believe probably 
99 percent of them are, are simply the exact same form letters 
that were created by three or four organizations. Hundreds of 
thousands of these simply came from members of the National 
Rifle Association, who sent out a mass e-mailing to their 
membership saying, we have to stop media consolidation, here's 
an e-mail, please just click here and this will send it to the 
FCC. I don't believe there was a national uprising.
    The Chairman. Well, as an elected official I can tell you 
that everywhere I go, I'm astonished to hear about the concern 
that people have, and that's been voiced on this issue, 
including the one that Mr. Bozell raises, so you and I have a 
very different view of public opinion and their concern on this 
issue, but I appreciate your view.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I was born in 1952, 
about 15 miles south of Cleveland, Ohio. I remember seeing a 
little black-and-white television. We could get maybe one or 
two channels if the wind was blowing in the right direction. 
There was no UHF stations. There was no FM radio. There 
certainly was no DVD, VCR, satellite television, satellite 
video. All of those things I believe were created by private 
industry, who had the benefit of people like yourself creating 
the proper atmosphere for those things to grow, and technology 
to develop. I would just like you to consider some of those 
things going forward, and I appreciate the opportunity to be 
here.
    The Chairman. I thank the witnesses. It has been a very 
interesting hearing. This hearing is adjourned.

    [Whereupon, at 12:02 p.m., the Committee adjourned.]


                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I want to thank Chairman McCain for holding today's hearing on 
media ownership. This hearing is especially timely in the wake of the 
FCC's June 2 decision, which relaxed many of the remaining structural 
limitations imposed on broadcast companies. Given the alarming 
implications of this decision, it is extremely timely that we begin 
today to review the behavioral as well as the structural limitations 
that serve as a check on large media conglomerates.
    Over seventy years ago, broadcasters were made trustees of the 
public spectrum. In return for this privilege, came a responsibility to 
use the public's airwaves in a manner that would principally serve the 
public, not the balance sheets of publicly traded companies. Toward 
that end, reasonable limits on media ownership coupled with 
requirements encouraging broadcasters to cover issues that are 
important to their local communities have historically helped to 
maintain a critical balance between the drive for commercial success 
and the preservation of a free marketplace of ideas.
    Over the last twenty years, there have been sweeping deregulatory 
changes in the broadcast market. In the 1980s, the FCC eliminated many 
of its public interest rules based on the rationale that competition in 
the market would forcebroadcasters to serve the public interest. With 
the significant relaxation of the rules since that time, I question 
whether the lack of both structural limitations and behavioral 
obligations on broadcast companies can continue to be justified.
    I look forward to the testimony of the witnesses today and hope 
that this hearing will result in recommendations that will be examined 
by the FCC and the Congress to ensure that America's broadcast system 
continues to serve the people of this diverse nation. Thank you, Mr. 
Chairman.

                                  <all>

</pre></body></html>
